No.
IN THE

Supreme Court of the United States
————

ERICSSON INC., TELEFONAKTIEBOLAGET LM ERICSSON,
Petitioners,
v.
TCL COMMUNICATION TECHNOLOGY
HOLDINGS, LIMITED, TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
THEODORE STEVENSON, III
NICHOLAS MATHEWS
WARREN LIPSCHITZ
MCKOOL SMITH P.C.
300 Crescent Ct., Suite 1500
Dallas, TX 75201
(214) 978-4000

JEFFREY A. LAMKEN
Counsel of Record
MICHAEL G. PATTILLO, JR.
RAYINER I. HASHEM
JAMES A. BARTA
KENNETH E. NOTTER III
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioners
:,/621(3(635,17,1*&2,1&±  ±:$6+,1*721'&

QUESTIONS PRESENTED
Federal Rule of Civil Procedure 50 requires a party
that loses at trial to move for judgment as a matter of
law, both at the close of evidence and following the verdict. “[A]bsent such a motion, * * * an appellate court is
‘powerless’ to review” the claimed basis for setting aside
the resulting judgment. Ortiz v. Jordan, 532 U.S. 180,
189 (2011). Consistent with that, pretrial orders denying
summary judgment generally are not themselves reviewable after trial. Once trial has taken place, the case
is reviewed based on the actual “evidence received in
court.” Id. at 184. The questions presented are:
1. Whether, notwithstanding the ordinary rule that a
pretrial denial of a motion for summary judgment is not
reviewable on appeal, there is an exception for summaryjudgment decisions that turn solely on “legal issues.”
2. Whether an order denying summary judgment
can be reviewed following trial, at the discretion of the
court of appeals, notwithstanding a party’s failure to seek
judgment as a matter of law on those grounds under Rule
50.

(i)

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioners Ericsson Inc. and Telefonaktiebolaget LM
Ericsson were the plaintiffs in the district court and the
appellees in the court of appeals.
Respondents TCL Communication Technology Holdings, Limited; TCT Mobile Limited; and TCT Mobile
(US) Inc. were the defendants in the district court and
the appellants in the court of appeals.




iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, petitioners Ericsson Inc. and Telefonaktiebolaget LM Ericsson state that
Ericsson Inc. is a subsidiary of Ericsson Holding II, Inc.
and Telefonaktiebolaget LM Ericsson. Telefonaktiebolaget LM Ericsson has no parent corporation and no
company owns 10% or more of its stock.



iv
STATEMENT OF RELATED PROCEEDINGS
The following proceedings are directly related to this
case within the meaning of Rule 14.1(b)(iii):
x Ericsson Inc., et al. v. TCL Communication Technology Holdings Ltd., et al., No. 2018-2003 (Fed.
Cir.), judgment entered on April 14, 2020; and
x Ericsson Inc., et al. v. TCL Communication Technology Holdings Ltd., et al., No. 2:15-cv-00011RSP (E.D. Tex.), judgment entered on May 10,
2018.





TABLE OF CONTENTS
Opinions Below.............................................................
Statement of Jurisdiction ...........................................
Statutory Provision and Federal Rule Involved .....
Preliminary Statement ...............................................
Statement ......................................................................
I. Legal Framework ...........................................
A. Summary Judgment Under
Rule 56 .......................................................
B. Judgment as a Matter of Law
Under Rule 50...........................................
II. Proceedings Below ..........................................
A. Ericsson’s Patented Security
Technology ................................................
B. District Court Proceedings .....................
C. Federal Circuit Proceedings ..................
Reasons for Granting the Petition ............................
I. The Courts of Appeals Are Openly
Divided over Whether and When Denials
of Summary Judgment Are Appealable
After Trial ........................................................
A. The Circuits Are Divided on the
Existence and Scope of Any
Exceptions to the Rule Announced
in Ortiz .......................................................
B. The Circuits Are Divided on
Whether They Have Discretion To
Excuse Failure To File a Rule 50
Motion ........................................................
II. The Issues Are Important and
Recurring .........................................................
(v)

Page
1
1
2
2
3
3
3
5
6
7
9
10
14

15

15

22
24

vi
TABLE OF CONTENTS—Continued
Page
III. This Case Is an Ideal Vehicle
for Review ........................................................
A. The Case Squarely Presents the
Issues .........................................................
B. The Decision Below Illustrates the
Consequences of Creating ExtraStatutory Exceptions ...............................
Conclusion .....................................................................
Appendix A ± Opinion of the Court
of Appeals (Apr. 14, 2020) ......................................
Appendix B ± Memorandum Opinion and
Order of the District Court (May 10, 2018) .........
Appendix C ± Memorandum Opinion and
Order of the District Court (Nov. 4, 2017) ..........
Appendix D ± Order of the Court of Appeals
Denying Rehearing and Rehearing
En Banc (Sept. 15, 2020) ......................................
Appendix E ± Relevant Statutory Provision
and Federal Rule ..................................................

26
26

29
31
1a
41a
82a

122a
124a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
Alice Corp. Pty. Ltd. v. CLS Bank Int’l,
573 U.S. 208 (2014) ........................................... 9, 10
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986) .............................................
4
Banuelos v. Constr. Laborers’ Tr. Funds,
382 F.3d 897 (9th Cir. 2004) .............................. 23
In re Bard IVC Filters Prod. Liab. Litig.,
969 F.3d 1067 (9th Cir. 2020) ......................... 18, 25
Blessey Marine Servs., Inc. v. Jeffboat,
L.L.C., 771 F.3d 894 (5th Cir. 2014)................. 25
Buie v. Dhillon,
No. 19-5105, 2020 WL 873502
(D.C. Cir. Feb. 14, 2020).................................... 25
Bunn v. Oldendorff Carriers GmbH & Co.,
723 F.3d 454 (4th Cir. 2013) .................... 16, 17, 25
Celotex Corp. v. Catrett,
477 U.S. 317 (1986) .............................................
4
Chemetall GMBH v. ZR Energy, Inc.,
320 F.3d 714 (7th Cir. 2003) .............................. 18
Chesapeake Paper Prods. Co. v. Stone &
Webster Eng’g Corp.,
51 F.3d 1229 (4th Cir. 1995) ........................ passim
Cone v. W. Va. Pulp & Paper Co.,
330 U.S. 212 (1947) ....................................... passim
Dahlin v. Lyondell Chem. Co.,
881 F.3d 599 (8th Cir. 2018) ........................... 20, 28
Empress Casino Joliet Corp. v. Balmoral
Racing Club, Inc.,
831 F.3d 815 (7th Cir. 2016) .............................. 26

viii
TABLE OF AUTHORITIES—Continued
Page(s)
ePlus, Inc. v. Lawson Software, Inc.,
700 F.3d 509 (Fed. Cir. 2012) ........................ 18, 19
In re Fancher,
802 F. App’x 538 (11th Cir. 2020) ..................... 25
Feld Motor Sports, Inc. v. Traxxas, L.P.,
861 F.3d 591 (5th Cir. 2017) ........................... 21, 23
Feld v. Feld,
688 F.3d 779 (D.C. Cir. 2012) ................. 19, 21, 25
Ferguson v. Waid,
798 F. App’x 986 (9th Cir. 2020) ....................... 25
Frank C. Pollara Grp., LLC v. Ocean View
Inv. Holding, LLC,
784 F.3d 177 (3d Cir. 2015) ......................... passim
Gerics v. Trevino,
974 F.3d 798 (6th Cir. 2020) ........................ passim
Gulf Eng’g Co. v. Dow Chem. Co.,
961 F.3d 763 (5th Cir. 2020) .............................. 25
Hamer v. Neighborhood Hous. Servs.,
138 S. Ct. 13 (2017) .......................................... 23, 24
Hanover Am. Ins. Co. v. Tattooed
Millionaire Ent., LLC,
974 F.3d 767 (6th Cir. 2020) .................... 19, 20, 25
Hernandez v. Fitzgerald,
— F. App’x —, 2020 WL 7774945,
(10th Cir. Dec. 30, 2020) .................................... 25
Hisert ex rel. H2H Assocs., LLC v. Haschen,
980 F.3d 6 (1st Cir. 2020) ............................... 16, 25
Holley v. Northrop Worldwide
Aircraft Servs., Inc.,
835 F.2d 1375 (11th Cir. 1988) ....................... 15, 30

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Hudson v. Forest Oil Corp.,
372 F.3d 742 (5th Cir. 2004) .............................. 27
Hurt v. Com. Energy, Inc.,
973 F.3d 509 (6th Cir. 2020) .............................. 25
Ji v. Bose Corp.,
626 F.3d 116 (1st Cir. 2010) .............. 16, 17, 21, 23
Kelley v. City of Albuquerque,
542 F.3d 802 (10th Cir. 2008) ............................ 18
Kidis v. Reid,
976 F.3d 708 (6th Cir. 2020) ........................... 24, 25
Kreg Therapeutics, Inc. v. VitalGo, Inc.,
919 F.3d 405 (7th Cir. 2019) ..............................
4
Lawson v. Sun Microsystems, Inc.,
791 F.3d 754 (7th Cir. 2015) .............. 18, 19, 20, 24
Lighting Ballast Control LLC v. Philips
Elecs. N. Am. Corp.,
790 F.3d 1329 (Fed. Cir. 2015) ............... 11, 19, 27
Luig v. N. Bay Enters., Inc.,
817 F.3d 901 (5th Cir. 2016) .............................. 27
Munoz v. Oceanside Resorts, Inc.,
223 F.3d 1340 (11th Cir. 2000) ....................... 23, 24
N.Y. Marine & Gen. Ins. Co. v. Cont’l
Cement Co.,
761 F.3d 830 (8th Cir. 2014) ........................... 20, 21
Nebraska v. Wyoming,
507 U.S. 584 (1993) .............................................
4
Omega SA v. 375 Canal, LLC,
984 F.3d 244 (2d Cir. 2021) ......................... passim
Ortiz v. Jordan,
562 U.S. 180 (2011) ....................................... passim

x
TABLE OF AUTHORITIES—Continued
Page(s)
Owatonna Clinic–Mayo Health Sys. v. Med.
Protective Co. of Fort Wayne,
639 F.3d 806 (8th Cir. 2011) .............................. 23
Pahuta v. Massey-Ferguson, Inc.,
170 F.3d 125 (2d Cir. 1999) ............................... 16
Pensacola Motor Sales Inc. v. E. Shore
Toyota, LLC,
684 F.3d 1211 (11th Cir. 2012) .......................... 16
United States ex rel. Purcell v. MWI Corp.,
807 F.3d 281 (D.C. Cir. 2015) ........................... 20
Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2000) .............................................
6
Rural Water Dist. No. 4 v. City of Eudora,
659 F.3d 969 (10th Cir. 2011) ............................ 25
Ruyle v. Cont’l Oil Co.,
44 F.3d 837 (10th Cir. 1994) ........................... 18, 28
Sooroojballie v. Port Auth. of N.Y. & N.J.,
816 F. App’x 536 (2d Cir. 2020) ........................ 25
SRI Int’l, Inc. v. Cisco Sys., Inc.,
930 F.3d 1295 (Fed. Cir. 2019) ...................... 18, 25
Switzerland Cheese Ass’n, Inc. v. E. Horne’s
Market, Inc., 385 U.S. 23 (1966)............... 4, 28, 29
Jones ex rel. United States v. Mass. Gen.
Hosp., 780 F.3d 479 (1st Cir. 2015) ............... 20, 25
Unitherm Food Sys., Inc. v. Swift-Eckrich,
Inc., 546 U.S. 394 (2006) .............................. passim
Universal Truckload, Inc. v. Dalton
Logistics, Inc.,
946 F.3d 689 (5th Cir. 2020) .............................. 25
Valbruna Slater Steel Corp. v. Joslyn Mfg.
Co., 934 F.3d 553 (7th Cir. 2019) ...................... 26

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Varghese v. Honeywell Int’l, Inc.,
424 F.3d 411 (4th Cir. 2005) ........................ passim
Watley v. Felsman,
— F. App’x —, 2020 WL 7775515
(3d Cir. Dec. 30, 2020)........................................ 25
Williams v. Gaye,
895 F.3d 1106 (9th Cir. 2018) ............................ 26
STATUTES AND RULES
28 U.S.C. § 1254(1) ..................................................
2
28 U.S.C. § 1291 ..................................................... 5, 15
35 U.S.C. § 101 ................................................... passim
Fed. R. Civ. P. 50 .............................................. passim
Fed. R. Civ. P. 50(a).......................................... passim
Fed. R. Civ. P. 50(a)(1)(A) .....................................
6
Fed. R. Civ. P. 50(a)(1)(B) .....................................
6
Fed. R. Civ. P. 50(a)(2) ...........................................
5
Fed. R. Civ. P. 50(b) ......................................... passim
Fed. R. Civ. P. 56 .............................................. 3, 4, 29
Fed. R. Civ. P. 56(a)................................................
3
Fed. R. Civ. P. 56(c)(1)(A)...................................... 3, 4
Fed. R. Civ. P. 56(c)(2) ...........................................
4
Fed. R. Civ. P. 56(c)(4) ...........................................
4
OTHER AUTHORITIES
D. Coquillette, et al., Moore’s Federal
Practice (3d ed. 2018) ........................................
E. Magnuson & D. Herr, Federal Appeals
Jurisdiction and Practice
(2021 ed.) .............................................................

21

22

xii
TABLE OF AUTHORITIES—Continued
Page(s)
J. Steinman, The Puzzling Appeal of
Summary Judgment Denials: When
Are Such Denials Reviewable?,
2014 Mich. St. L. Rev. 895 (2014) ........... 22, 24, 25
10A C. Wright & A. Miller, Federal
Practice and Procedure (3d ed.) ........... 4, 6, 21, 28


IN THE

Supreme Court of the United States
————

ERICSSON INC., TELEFONAKTIEBOLAGET LM ERICSSON,
v.

Petitioners,

TCL COMMUNICATION TECHNOLOGY
HOLDINGS, LIMITED, TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
Ericsson Inc. and Telefonaktiebolaget LM Ericsson
(together “Ericsson”) respectfully petition for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Federal Circuit in this case.
OPINIONS BELOW
The court of appeals’ opinion (App., infra, 1a-40a) is
reported at 955 F.3d 1317. The district court’s opinion
denying TCL’s post-trial motions (App., infra, 41a-81a)
and its opinion denying TCL’s motion for summary
judgment (App., infra, 82a-121a) are unreported.
STATEMENT OF JURISDICTION
The court of appeals entered judgment on April 14,
2020, App., infra, 1a-40a, and denied rehearing on Sep

2
tember 15, 2020, App., infra, 122a-123a. By general
order, the Court extended the time to file this petition to
February 12, 2021. This Court has jurisdiction under 28
U.S.C. § 1254(1).
STATUTORY PROVISION AND
FEDERAL RULE INVOLVED
Relevant portions of Federal Rule of Civil Procedure
50 and 35 U.S.C. § 101 are set forth in the Appendix.
App., infra, 124a-127a.
PRELIMINARY STATEMENT
In Ortiz v. Jordan, 562 U.S. 180, 184 (2011), this Court
held that parties ordinarily cannot “appeal an order denying summary judgment after a full trial on the merits.”
Invoking Unitherm Food Systems, Inc. v. Swift-Eckrich,
Inc., 546 U.S. 394, 405 (2006), the Court further declared
that parties cannot obtain a judgment in their favor on
appeal following an adverse jury verdict unless they
sought judgment as a matter of law under Federal Rule
of Civil Procedure 50 in the trial court. Absent such a
motion, the Court reiterated, the court of appeals is
“ ‘powerless’ ” to set aside the jury verdict and direct the
entry of judgment for the defendant. Ortiz, 562 U.S. at
189.
In the decision below, the Federal Circuit created an
“exception” to each of those rules. Overturning a $75
million jury verdict for Ericsson, a divided panel ordered
that judgment be entered for the defendant based on
grounds never asserted post-trial under Rule 50, and
raised only in an unsuccessful summary-judgment motion. In creating an exception to the general rule that
denials of summary judgment are not appealable, the
Federal Circuit exacerbated a circuit conflict over
whether and when courts of appeals can, consistent with
Ortiz, review orders denying summary judgment after
trial on the merits. The Federal Circuit further held it


3
can, as a matter of discretion, overturn a jury verdict on
grounds never asserted by the defendant under Rule 50.
That ruling conflicts with the decisions of multiple circuits. And it cannot be reconciled with Unitherm’s holding that an appellate court is “powerless” to review arguments not previously raised under Rule 50.
STATEMENT
Petitioner Ericsson is a leader in wireless telecommunications. It has developed and patented pathmarking
technologies (such as Bluetooth) that enhance the speed,
reliability, and security of mobile telephones. Respondent TCL makes low-cost mobile phones. This case arises out of TCL’s unauthorized use of Ericsson’s patented
technology—in particular, its infringement of U.S. Patent
No. 7,149,510 (the ’510 patent). After trial, the jury
awarded Ericsson $75 million in damages, finding that
TCL had willfully infringed Ericsson’s valid patent. On
appeal, the Federal Circuit reversed and directed entry
of judgment for TCL, holding the ’510 patent invalid,
even though TCL never challenged patent validity
postverdict under Rule 50.
I. LEGAL FRAMEWORK
The Federal Rules of Civil Procedure provide a reticulated framework for resolving issues as a matter of law
before, during, or after trial.
A. Summary Judgment Under Rule 56
Under Rule 56, district courts may grant summary
judgment on a “claim or defense” where “there is no
genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). Such motions are resolved by reference to a
“record” that anticipates the evidence the parties will
adduce at trial. Fed. R. Civ. P. 56(c)(1)(A). Courts consider, for example, “affidavit[s] or declaration[s]” from
potential witnesses that “set out facts that would be


4
admissible in evidence” at trial. Fed. R. Civ. P. 56(c)(4).
They also rely on “documents,” “electronically stored
information,” and other materials that could, at trial, be
“presented in a form admissible in evidence.” Fed. R.
Civ. P. 56(c)(1)(A), (c)(2). A court may grant summary
judgment only when no reasonable factfinder could find
for the non-moving party. See Celotex Corp. v. Catrett,
477 U.S. 317, 322-323 (1986); Nebraska v. Wyoming, 507
U.S. 584, 590 (1993); Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 250-252 (1986).
While an order granting summary judgment can end
litigation with respect to a claim or defense, an order
denying summary judgment “does not settle or even
tentatively decide anything about the merits of the claim.
It is strictly a pretrial order that decides only one thing—
that the case should go to trial.” Switzerland Cheese
Ass’n, Inc. v. E. Horne’s Market, Inc., 385 U.S. 23, 25
(1966). Thus, where a summary-judgment motion is denied, the moving party is free to “rais[e]” again “any of
the issues dealt with on the motion.” 10A C. Wright & A.
Miller, Federal Practice and Procedure, § 2712 (3d ed.).
Once a case is tried, earlier “denials of summary judgment are old news.” Kreg Therapeutics, Inc. v. VitalGo,
Inc., 919 F.3d 405, 416 (7th Cir. 2019). After a trial, the
“full record developed in court supersedes the record
existing at the time of the summary-judgment motion.”
Ortiz v. Jordan, 562 U.S. 180, 184 (2011). The slate is
wiped clean in other ways as well. For example, “failure
to challenge admissibility” of evidence “at the summaryjudgment stage” does not preclude challenges at trial;
and facts “considered undisputed” for Rule 56 purposes
may be contested “in further proceedings.” Fed. R. Civ.
P. 56 advisory comm. note to 2010 amendment. Claims
and defenses raised at the summary-judgment stage do
not “vanish.” Ortiz, 562 U.S. at 184. But the moving


5
party must raise those claims and defenses at trial to “be
evaluated in light of the character and quality of the
evidence received in court.” Ibid.
Consistent with that, orders denying summary judgment ordinarily are not appealable once there has been a
trial on the merits. Thus, in Ortiz, this Court granted
review to decide whether a party can “appeal an order
denying summary judgment after a full trial on the
merits.” 562 U.S. at 184. The “answer,” the Court held,
“is no.” Ibid. The “jurisdiction of a Courts of Appeals
* * * extends only to ‘appeals from . . . final decisions of
the district courts.’ ” Id. at 188 (quoting 28 U.S.C.
§ 1291). Decisions denying summary judgment are not
“final decisions”—they are “interlocutory” rulings, “simply a step along the route to final judgment.” Ibid.
Moreover, once a summary-judgment motion is denied
and the “case proceeds to trial,” the motion (and the pretrial record on which it is based) is “supersede[d].” Id. at
184. Consequently, “defense[s]” raised on summary
judgment must be asserted again at trial based on the
“evidence received in court.” Ibid. Applying those rules
to the case before it, Ortiz held that the court of appeals
could not overturn a jury verdict for the plaintiff in a
§ 1983 action by purporting to reverse the district court’s
denial of qualified immunity at the summary-judgment
stage. Ibid. Ortiz left open, however, whether there
might be exceptions for summary-judgment rulings that,
for example, address “ ‘purely legal’ issues capable of resolution ‘with reference only to undisputed facts.’ ” Id. at
190. This case raises precisely that issue.
B. Judgment as a Matter of Law Under Rule 50
Once the case goes to trial, parties may seek judgment
as a matter of law under Rule 50. Parties must file a
motion for judgment as a matter of law “before the case
is submitted to the jury” under Rule 50(a). Fed. R. Civ.


6
P. 50(a)(2). The district court may grant “judgment as a
matter of law against the party on a claim or defense” if it
“finds that a reasonable jury would not have a legally
sufficient evidentiary basis to find for the party” on the
claim or defense. Fed. R. Civ. P. 50(a)(1)(A)-(B); see
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 150 (2000).
“If the court does not grant” the pre-verdict Rule
50(a) motion, the court is deemed “to have submitted the
action to the jury subject to the court’s later deciding the
legal questions raised by the [Rule 50(a)] motion.” Fed.
R. Civ. P. 50(b). Following verdict, the losing party must
“file a renewed motion” for judgment as a matter of law
under Rule 50(b). Ibid.
Where a party seeks judgment as a matter of law
before verdict under Rule 50(a), and postverdict under
Rule 50(b), the district court’s grant or denial of those
motions is reviewable on appeal in connection with the
resulting final judgment. See Wright & Miller, supra,
§ 3915.5. Failure to file the necessary Rule 50 motions,
however, precludes the party from seeking entry of
judgment as a matter of law on appeal. “[A] party’s failure to file a postverdict motion under Rule 50(b)” leaves
an appellate court without “ ‘power to direct the District
Court to enter judgment contrary to the one it has permitted to stand.’ ” Unitherm, 546 U.S. at 400-401 (quoting Cone v. W. Va. Pulp & Paper Co., 330 U.S. 212, 218
(1947)).
II. PROCEEDINGS BELOW
This case arises out of TCL’s willful infringement of
Ericsson’s patented technology for enhancing the security of mobile phones.



7
A. Ericsson’s Patented Security Technology
Ericsson, a pioneer in 3G mobile phones, recognized
that 3G phones would be a game-changing advance.
C.A. App. 129. The prior-generation 1G and 2G mobile
phones had a fixed set of functionalities, such as placing
phone calls and sending text messages. Ibid. They were
sold as “complete” systems, with all “the hardware and
software needed to provide the features and capabilities”
specified by the phone maker or cellular service provider.
Ibid.
3G technology promised high-speed Internet access,
enabling new features such as web-browsing, streaming,
and GPS mapping. C.A. App. 129. Ericsson recognized
that the approach used for 1G and 2G phones—shipping
phones with fixed software packages that users could not
expand—would be inadequate in the 3G era. Taking advantage of 3G’s full potential would require “flexib[ le]”
phones that could support user-installed software “applications” downloaded from the Internet. Ibid.
Allowing users to download apps raised security concerns. With 1G and 2G phones, phone makers had total
control over phone software and could guarantee that
everything “behaved,” respecting security and privacy
rules. C.A. App. 129. Downloaded apps, by contrast,
could compromise phone “integrity” and user security
and privacy. Ibid. A malicious app could “turn on the
microphone and eavesdrop,” C.A. App. 10174, or “initiat[e] cost incurring” transactions without user permission, C.A. App. 129.
Ericsson solved that problem with a new system for
controlling whether each downloaded app could access
sensitive phone hardware and data—the invention disclosed in the ’510 patent. The invention discloses a
“[m]ethod and system for controlling access to a platform
for a mobile terminal [i.e., a mobile phone].” C.A. App.


8
118. It works by using a novel, multi-layered software
architecture. C.A. App. 131 (5:24). The bottom layer is
the “software services component,” which comprises
separate “functional software units for providing services
that are offered to users.” C.A. App. 130 (4:21-23). These
include “hardware driver software” for controlling devices such as the camera or microphone; “structured
storage services” for data; and components for providing
“basic system services,” such as receiving user input,
used by all apps. C.A. App. 131 (5:1, 5:40, 5:44-46). The
top layer is the “Application Domain” comprising downloaded apps. C.A. App. 130 (3:45). An “Application Manager” “handles the registration, installation, * * * and
removal” of applications in the application domain.
C.A. App. 132 (7:46-47).
To operate, apps residing in the application domain
(e.g., a social-media app) need access to sensitive components in the software services layer, such as the “driver
software” that controls the phone’s camera and microphone. C.A. App. 131. Under the invention, the app is
“isolate[d]” from those services and can access them only
through “well-defined interface[s].” Ibid. When an app
seeks resources in the software services layer, an “Interception Module” prevents unrestricted access; access is
granted or denied based on user-established security
choices. C.A. App. 132 . “[R]equests from the applications are subject to access control via [the] Interception
Module before they are passed on to * * * services.”
C.A. App. 132 (7:11-13). The interception module consults
the phone’s “security policies” to decide whether “to
grant access.” C.A. App. 132 (7:52). “If the permission
request is granted, * * * the service request is forwarded
to the native platform service * * * [and] then executed.”
C.A. App. 132 (8:15-18). “If the permission request is denied, * * * a reject response is sent.” C.A. App. 132 (8:1820).


9
The structural separation enabled by the invention’s
multi-layer architecture offers users precise control over
downloaded apps. For example, a user can authorize a
social-media app to access the camera, while barring it
from accessing the microphone. Other apps can be barred from accessing either. Permission can be revoked at
any time—for example, if a security vulnerability is discovered in an already-installed app.
B. District Court Proceedings
TCL’s phones have long infringed Ericsson’s ’510
patent. C.A. App. 58-59. After spending years trying to
convince TCL to obtain a license, Ericsson in 2015 sued
TCL for infringing the ’510 patent. Ibid. TCL counterclaimed for a declaratory judgment that the ’510 patent
was invalid. App., infra, 85a. TCL also filed three petitions for inter partes review of the ’510 patent, but the
Patent Trial and Appeal Board (“PTAB”) upheld the
validity of the ’510 patent, finding it a non-obvious
advance over prior systems. C.A. App. 5045, 5059-5061.1
In district court, TCL moved for summary judgment.
TCL urged that the ’510 patent was invalid under 35
U.S.C. § 101 because it claimed the abstract idea of a
“gatekeeper.” C.A. App. 1087-1102. Denying the motion,
the court was “not persuaded that the claims [were]
directed to an abstract idea” under Step 1 of Alice Corp.
Pty. Ltd. v. CLS Bank International, 573 U.S. 208 (2014).
App., infra, 97a. Relying on the “technical details of the

1

The PTAB distinguished prior techniques that prohibited all apps
from accessing anything other than the same “limited set of
resources,” which precluded individual control over resources available to each app. C.A. App. 5061. Other prior techniques, like those
used for personal computers, were “too memory-consuming” for
“resource-constrained” devices like mobile phones. C.A. App. 50705072.



10
claimed system,” the court was persuaded that the claims
were better characterized as covering an “improved
technological solution to mobile phone security software.”
Id. at 98a. “Even if the claims were directed to an
abstract idea,” moreover, the district court was not convinced they would not be patentable under Alice’s Step 2.
Ibid. They encompassed a “technological improvement”
to conventional security technology that addressed “the
problem of limited memory and resources on mobile
phones.” Id. at 99a. The district court thus “denied”
TCL’s summary-judgment motion. Ibid.
The district court did not, however, end any aspect of
the litigation. It did not enter partial judgment (of no
invalidity) in Ericsson’s favor. App., infra, 99a. Nor did
the district court dismiss TCL’s counterclaim seeking a
declaration that the ’510 patent is invalid. Id. at 85a.
At trial, TCL did not address or present evidence to
support its position under § 101. TCL did not raise § 101
at the close of evidence or when it moved for judgment
under Rule 50(a). C.A. App. 10881-10882. Nor did TCL
argue that the patent claims were invalid under § 101
after the jury found TCL had willfully infringed, when
TCL filed a renewed motion for judgment as a matter of
law under Rule 50(b). C.A. App. 1165-1187. The district
court then rejected the arguments that TCL did raise in
its Rule 50 motion (which addressed infringement and
damages). App., infra, 43a-57a, 79a.
C. Federal Circuit Proceedings
A divided panel of the Federal Circuit reversed, holding the patent claims invalid under 35 U.S.C. § 101. App.,
infra, 1a-40a.
1. The panel recognized that TCL had raised § 101
only in an unsuccessful summary-judgment motion; that
denials of summary judgment are not ordinarily appealable; and that TCL had not raised § 101 when seeking


11
judgment as a matter of law under Rule 50. App., infra,
4a-11a. But the panel majority asserted that it could review the district court’s “decision * * * denying summary
judgment” for two “independent reasons.” Id. at 2a, 4a.
First, it stated, “[p]atent eligibility under § 101 is an issue
of law.” Id. at 4a. Although “the inquiry may sometimes
contain underlying issues of fact,” the district court’s
decision in this case was based on “analysis of the claim
language * * * and was not dependent on any factual
issues.” Ibid. Accordingly, the majority characterized
the district court order denying TCL’s summaryjudgment motion as “effectively enter[ing] judgment of
eligibility to Ericsson.” Id. at 5a.
In support, the majority invoked Lighting Ballast
Control LLC v. Philips Electronics North America
Corp., 790 F.3d 1329 (Fed. Cir. 2015). In that case, the
Federal Circuit had deemed a decision denying summary
judgment “appealable” because, rather than finding that
“issues of fact preclude[ed] judgment,” the decision had
invoked legal grounds. App., infra, 5a. The Federal
Circuit suggested that the Fifth Circuit likely would
reach the same result here. App., infra, 5a-6a.
The majority further held that, even if such a ruling
were not itself appealable, ordinary waiver principles
afforded it authority to excuse TCL’s failure to file a
motion for judgment as a matter of law under Rule 50.
App., infra, 6a-11a. The majority did not mention Unitherm’s holding—that a “party’s failure to file a postverdict motion under Rule 50(b)” leaves the appellate
court “ ‘without power to direct the District Court to
enter judgment contrary to the one it has permitted to
stand.’ ” 546 U.S. at 400-401 (emphasis added). The
majority stressed the fact that the § 101 issue was briefed
and passed upon by the district court on summary judgment. The panel did not mention the fact that both


12
TCL’s argument and its ultimate decision rested on trial
testimony the district court never had an opportunity to
consider—and Ericsson never had a chance to address—
in connection with the § 101 analysis.
2. On the merits, the panel majority held that the
asserted patent claims were invalid under § 101. App.,
infra, 13a-14a. The claims, it first ruled, were directed to
an abstract idea. Because the functions of the different
software components recited in the claims could be performed by the same component, the majority declared
that the claims “collapse[d]” into an abstract idea of having an “access controller.” Id. at 14a. The majority rejected Ericsson’s argument that the claims, even if directed to an abstract idea, provide an “inventive concept”
that “transform[s]” them into a patentable application.
Id. at 23a. While Ericsson urged that the claims require
a novel, three-level architecture for access control, the
panel denied that the claims require that layered architecture. Id. at 18a-20a. The majority acknowledged that
the claims recite an “interception module,” which the
specification describes as controlling access between the
application layer and software service layer. Ibid. Invoking trial testimony, however, the majority held that
insufficient to support a “three-layer architecture.” Id. at
20a. “Ericsson’s expert,” the majority declared, “testified at trial that an interception module is ‘merely a segment of code that performs the interception function.’ ”
Ibid. In its view, that effectively disavowed the layered
architecture that, according to Ericsson, the claims
otherwise require. Ibid.2

2

While TCL purported to challenge the denial of summary judgment, it likewise invoked trial testimony. App., infra, 101a-103a.
Ericsson, it argued, had disavowed the requirement of a layered
architecture “at trial,” by arguing that the “layered architecture and




13
3. Judge Newman dissented. App., infra, 24a-40a.
An order denying summary judgment, she urged, is not
appealable once the case has been tried. Id. at 25a-26a.
Circuit after circuit, she explained, had rejected the
notion that such orders become appealable merely because they rest on “legal” rather than “factual” grounds.
Id. at 27a-28a. The majority’s decision, moreover, was
contrary to Unitherm’s express holding “that, in the
absence of [a Rule 50] motion an appellate court is
without power to direct the District Court to enter judgment contrary to the one it had permitted to stand.” Id.
at 26a (quoting Unitherm, 546 U.S. at 400-401) (emphasis
added and alterations in original omitted).
Judge Newman disagreed with the majority on the
merits as well. The majority had “create[d] new Section
101 law” by rejecting a layered architecture requirement
simply because the claims did not recite that limitation
expressly. App., infra, 33a. The law, she urged, does not
require “that all of the technologic information in the
specification must be recited in the claims in order to
avoid abstractness of the claims.” Id. at 33a-34a. Judge
Newman also criticized the majority’s selective reliance
on trial testimony. “At the trial,” she explained, “witnesses described the claim limitations, including the
multi-layered structure of the software services component, the middleware and the application domain layer,
the access controller, and the interceptor module.” Id. at
36a. “Witnesses explained that all of these limitations

modules * * * do not need to be physical structures, but are instead
just logical ways to think about the idea.” TCL C.A. Br. 17. TCL
also invoked the trial testimony of “Ericsson’s technical expert,”
arguing that he “did not consider a ‘layered architecture’ to be any
sort of physical structure, but instead just a concept.” Id. at 25.



14
were in the claims. This evidence must be considered
with respect to Section 101 eligibility.” Ibid.
REASONS FOR GRANTING THE PETITION
In Ortiz v. Jordan, 562 U.S. 180 (2011), this Court held
that parties ordinarily cannot appeal orders denying
summary judgment once trial has taken place. The
Court reserved, however, whether such orders might be
appealable where the denial rests on “ ‘purely legal’ issues capable of resolution ‘with reference only to undisputed facts.’ ” Id. at 190. The courts of appeals have
fractured over whether there is such an exception and, if
so, its proper scope. Courts, the leading civil procedure
treatises, and commentators have recognized the entrenched circuit conflict. Many circuits have refused to
recognize any exception at all. Nonetheless, over a vigorous dissent, the Federal Circuit below joined several
courts of appeals in holding that a pretrial order denying
summary judgment can be reviewed on appeal following
trial if the issues are “legal,” despite the appellant’s failure to raise them in a post-trial motion for judgment
under Rule 50.
This Court has repeatedly held that “a party’s failure
to file a postverdict motion under Rule 50(b)” leaves an
appellate court “ ‘without power to direct the District
Court to enter judgment contrary to the one it has permitted to stand.’ ” Unitherm Food Sys., Inc. v. SwiftEckrich, Inc., 546 U.S. 394, 400-401 (2006) (quoting Cone
v. W. Va. Pulp & Paper Co., 330 U.S. 212, 218 (1947)).
That rule should apply whether or not a party unsuccessfully sought summary judgment before trial. Despite
this Court’s holding that the absence of a Rule 50 motion
“deprives an appellate court of the power to direct” the
entry of judgment, the Federal Circuit here held it has
“discretion” to ignore the absence of a Rule 50 motion.
And it exercised that supposed “discretion” here to direct


15
entry of a judgment contrary to the jury’s verdict and the
district court judgment below.
The issues are recurring and important. Time and
again the courts of appeals have addressed them. Time
and again they have disagreed—and acknowledged their
disagreement. Time and again, leading treatises have
noted the division in circuit authority. Parties need clarity on what is necessary to preserve arguments. Appellate courts need clarity about the scope of their authority.
And the rule adopted below, and by at least three other
courts of appeals, threatens serious mischief. “Summary
judgment was not intended to be a bomb planted within
the litigation at its early stages and exploded on appeal.”
Holley v. Northrop Worldwide Aircraft Servs., Inc., 835
F.2d 1375, 1377 (11th Cir. 1988). But that is exactly how
it was used here.
I. THE COURTS OF APPEALS ARE OPENLY DIVIDED
OVER WHETHER AND WHEN DENIALS OF SUMMARY
JUDGMENT ARE APPEALABLE AFTER TRIAL
A. The Circuits Are Divided on the Existence and
Scope of Any Exceptions to the Rule Announced in Ortiz
In Ortiz, this Court explained at length why orders
denying summary judgment are ordinarily not appealable following trial. First, 28 U.S.C. § 1291 authorizes
only “appeals from . . . final decisions of the district
courts.” Ortiz, 562 U.S. at 188. Orders denying summary judgment “[o]rdinarily * * * do not qualify as ‘final
decisions’ subject to appeal” under § 1291. Ibid. Second,
once a case is tried, the summary-judgment motion, and
the pretrial record on which it is based, are “supersede[d]” by “the full record developed” at trial. Id. at
184. “[A]fter a full trial on the merits,” appellate courts
cannot rewind the case to review an “order denying summary judgment.” Ibid. Instead, a party that believes it


16
is entitled to judgment as a matter of law on a claim or
defense after trial must file motions under Rule 50 and, if
unsuccessful, challenge the denial of those motions on
appeal. Id. at 189; see Unitherm, 546 U.S. at 405. Ortiz,
however, declined to address whether there is an exception for summary-judgment motions involving “a purely
legal issue.” 562 U.S. at 190. Following Ortiz, the courts
of appeals have fractured on whether such an exception
exists and, if so, its proper contours.
1. At least three circuits—the First, Second, and
Fourth—flatly reject any such exception. See Ji v. Bose
Corp., 626 F.3d 116, 127 (1st Cir. 2010) (“We have not
recognized an exception to this rule, as some circuits
have done, when a party’s challenge is based on a circumscribed legal error, as opposed to an error concerning the
existence of fact issues.”); Hisert ex rel. H2H Assocs.,
LLC v. Haschen, 980 F.3d 6, 8 & n.3 (1st Cir. 2020) (adhering to Ji ); Pahuta v. Massey-Ferguson, Inc., 170 F.3d
125, 132 (2d Cir. 1999) (“If a party wishes to appeal a
denial of a motion for summary judgment” after “the
case proceeds to trial, the party may file a motion * * *
pursuant to Rule 50 for judgment as a matter of law and
appeal the district court’s denial of that motion.”); Omega
SA v. 375 Canal, LLC, 984 F.3d 244, 253 & nn.8-9 (2d Cir.
2021) (treating Pahuta as controlling); Chesapeake Paper
Prods. Co. v. Stone & Webster Eng’g Corp., 51 F.3d 1229,
1235 (4th Cir. 1995) (“We reject the contention that our
review [of a summary-judgment denial] should depend on
whether the party claims an error of law or an error of
fact.”); Bunn v. Oldendorff Carriers GmbH & Co., 723
F.3d 454, 460 n.3 (4th Cir. 2013) (adhering to Chesapeake
Paper Prods.); see also Pensacola Motor Sales Inc. v. E.
Shore Toyota, LLC, 684 F.3d 1211, 1219 (11th Cir. 2012)
(“[A] party may not appeal an order denying summary
judgment after there has been a full trial on the merits.”).
In those circuits, the court “will not review, under any


17
standard, the pretrial denial of a motion for summary
judgment after a full trial and final judgment on the
merits.” Bunn, 723 F.3d at 460 n.3. “[E]ven legal errors
cannot be reviewed unless the challenging party restates
its objection in a [Rule 50] motion.” Ji, 626 F.3d at 128.
That straightforward approach adheres to Ortiz’s reasoning and traditional finality principles. See Ortiz, 562
U.S. at 188. A summary-judgment ruling does not transform from an interlocutory ruling into a “final” appealable order based on whether it can be characterized as
“legal.” Rather than terminate the case or any part, such
rulings leave the case for trial. See id. at 184.
Moreover, the “Federal Rules of Civil Procedure” simply “do not require such a dichotomy” between legal and
factual issues “in summary judgment denials.” Chesapeake Paper Prods., 51 F.3d at 1235. Deciding whether
the denial of summary judgment turns on a legal question is also a “dubious undertaking”; the line between
questions of law and questions of fact is often obscure.
Ibid. In this case, for example, the majority admitted
that, while “eligibility under § 101 is an issue of law, * * *
the inquiry may sometimes contain underlying issues of
fact.” App., infra, 4a. Indeed, while the majority purported to decide the § 101 issue as a matter of law, the
majority and dissent both invoked trial testimony to
support their differing views. Compare App., infra, 20a
(majority), with id. at 36a (Newman, J., dissenting).
Any exception is also unnecessary. Rule 50 provides
an express mechanism for litigants to seek judgment as a
matter of law following the close of evidence and judgment, and filing Rule 50 motions preserves any legal
arguments raised for appeal. Omega, 984 F.3d at 252253. Filing Rule 50 motions, moreover, ensures the district court has “an opportunity, after all [its] rulings have
been made and all the evidence has been evaluated, to


18
view the proceedings in a perspective peculiarly available
to [it] alone.” Cone, 330 U.S. at 216.
This case illustrates the wisdom of that approach.
Here, both the majority and dissent relied on the trial
record. But neither had the benefit of the views of the
district court that presided over the trial, because TCL
never presented the issue to the district court under Rule
50. TCL has never explained why it did not file a Rule 50
motion that would have allowed the district court to address its arguments in light of its familiarity with the
trial and record.
2. At least four courts of appeals—the Seventh,
Ninth, Tenth, and Federal Circuits—have taken a different view, recognizing an exception for summaryjudgment denials that rest on putatively “legal questions.” Lawson v. Sun Microsystems, Inc., 791 F.3d 754,
761-762 (7th Cir. 2015); In re Bard IVC Filters Prod.
Liab. Litig., 969 F.3d 1067, 1072-1073 (9th Cir. 2020);
Kelley v. City of Albuquerque, 542 F.3d 802, 820 (10th
Cir. 2008); SRI Int’l , Inc. v. Cisco Sys., Inc., 930 F.3d
1295, 1302 & n.5 (Fed. Cir. 2019), cert. denied, 140 S. Ct.
1108 (2020). In those circuits, “the critical distinction [is]
between summary judgment motions raising the sufficiency of the evidence to create a fact question for the
jury and those raising a question of law that the court
must decide.” Ruyle v. Cont’l Oil Co., 44 F.3d 837, 842
(10th Cir. 1994); see Chemetall GMBH v. ZR Energy,
Inc., 320 F.3d 714, 719 (7th Cir. 2003); ePlus, Inc. v.
Lawson Software, Inc., 700 F.3d 509, 517-518 (Fed. Cir.
2012). If the summary-judgment denial turns on a
“legal” question, those courts hold, the order denying



19
summary judgment is itself appealable following trial and
final judgment. E.g., Lawson, 791 F.3d at 761.3
Courts following that approach reason that, where the
denial of summary judgment does not rest on the existence of disputed facts to be resolved at trial, the fact
that the trial record supersedes the summary-judgment
record is irrelevant. See Lawson, 791 F.3d at 761. As a
matter of judicial efficiency, they assert, parties should
not have to repeat an already rejected legal argument
under Rule 50 “to preserve it for appeal.” ePlus, 700
F.3d at 518. Some cases also suggest that deciding a
legal issue against a party in the course of denying summary judgment effectively amounts to a reviewable grant
of summary judgment for that party’s opponent. See
Lighting Ballast Control LLC v. Philips Elecs. N. Am.
Corp., 790 F.3d 1329, 1337 (Fed. Cir. 2015).
3. Several courts of appeals likewise allow appeals
from summary-judgment denials, but under a more
demanding standard. The Third, Sixth, and D.C. Circuits
hold that, while they “can review summary judgment
denials,” they will do so for denials “that raise only purely legal issues.” Gerics v. Trevino, 974 F.3d 798, 803 (6th
Cir. 2020) (emphasis added); see Frank C. Pollara Grp.,
LLC v. Ocean View Inv. Holding, LLC, 784 F.3d 177,
185-186 (3d Cir. 2015); Feld v. Feld, 688 F.3d 779, 783
(D.C. Cir. 2012). These circuits define a “purely legal
issue” as one that “can be asked and answered without
reference to the facts of the case.” Hanover Am. Ins. Co.
v. Tattooed Millionaire Ent., LLC, 974 F.3d 767, 785-786
n.10 (6th Cir. 2020) (internal quotation marks omitted).

3

Courts have used terms like “legal question” inconsistently. Some
refer to questions that are not “factbound.” Others use the term to
mean an “abstract legal question” that can be answered without
reference to the case’s facts. See pp. 19-20, infra.



20
“Anything else, even many legal arguments, can become
liable to be mixed up in the facts developed at trial, and
so become ‘factbound’ ” and unreviewable. Ibid.; see
United States ex rel. Purcell v. MWI Corp., 807 F.3d 281,
288 (D.C. Cir. 2015).4
Following a variant of that rule, the Eighth Circuit
holds that it “cannot review the denial of summary judgment on an issue involving the merits.” Dahlin v. Lyondell Chem. Co., 881 F.3d 599, 603 (8th Cir. 2018) (emphasis added). It will, however, review the denial of summary judgment on “a preliminary issue,” such as “statute
of limitations, collateral estoppel, and standing.” Ibid.
The Eighth Circuit thus recognizes exceptions to the
ordinary rule of unreviewability announced in Ortiz; rejects a broad exception for legal questions; and distinguishes “preliminary” matters that can be reviewed
from “merits” issues that cannot. N.Y. Marine & Gen.
Ins. Co. v. Cont’l Cement Co., 761 F.3d 830, 838 (8th Cir.
2014).
4. The circuit split on whether (and when) orders
denying summary judgment can be reviewed on appeal
following trial is openly acknowledged. Court after court
has observed that “[t]here is currently a significant circuit split on that question.” Hanover, 974 F.3d at 785
n.10; see Jones ex rel. United States v. Mass. Gen. Hosp.,
780 F.3d 479, 488 n.3 (1st Cir. 2015) (“Some circuits have
‘recognized an exception’ * * * where a ‘party’s challenge
is based on a circumscribed legal error,’ * * * we have

4

Contrast App., infra, 4a (reviewing § 101 decision as “issue of law”
while noting that it may involve “underlying issues of facts”),
Lawson, 791 F.3d at 761 (reviewing application of law to facts), with
Gerics, 974 F.3d at 807 (no review for application of law even to
undisputed facts), Purcell, 807 F.3d at 288 (no review for contract
interpretation).



21
declined to do so.” (quoting Ji, 626 F.3d at 127-128)); N.Y.
Marine, 761 F.3d at 838 (although multiple “circuits * * *
have carved out an exception for arguments made at
summary judgment that are ‘purely legal,’ ” “[a]t least
two circuits have disagreed”); Feld, 688 F.3d at 781-783
(recognizing other “circuits have taken the opposite approach”); Feld Motor Sports, Inc. v. Traxxas, L.P., 861
F.3d 591, 596 n.4 (5th Cir. 2017) (identifying “[c]ontrary”
decisions in other circuits); Varghese v. Honeywell Int’l,
Inc., 424 F.3d 411, 423 (4th Cir. 2005) (refusing to join
“other circuits [that] have taken a different approach on
this issue, allowing appeals from a denial of summary
judgment after a trial where the summary judgment motion raised a legal issue”; “their approach simply conflicts
with our own”).
The leading treatises on civil procedure recognize the
conflict. Wright & Miller’s Federal Practice and Procedure identifies the Tenth Circuit as holding that “failure
to move for judgment as a matter of law” under Rule 50
“does not preclude a party from appealing the denial of
summary judgment” where the denial was “based on
pure legal issues.” 10A Wright & Miller, supra, § 2532.
But other circuits, it continues, “have held that[,] following a jury trial on the merits[,] the court has jurisdiction
to hear an appeal of the district court’s legal conclusions
in denying summary judgment only if it is sufficiently
preserved in a Rule 50 motion.” Ibid. (emphasis added).
Moore’s Federal Practice likewise explains that, while
“[s]ome circuits hold that” a denial of summary judgment
“is appealable” when “the material facts are not in
dispute, and the denial of summary judgment was based
on the interpretation of a purely legal question,” at “least
three circuits, however, have held that a denial of
summary judgment is not reviewable after trial and verdict regardless of the basis for denial.” D. Coquillette et
al., Moore’s Federal Practice § 56.130[3][c][ii] (3d ed.


22
2018). Other treatises and commenters have noted the
division as well. See E. Magnuson & D. Herr, Federal
Appeals Jurisdiction and Practice § 3:1 (2021 ed.)
(“[w]here the summary judgment is denied on purely
legal grounds, at least some courts would conclude that
they can review the summary judgment decision * * *
only if the issue is preserved by a proper Rule 50 motion,” but “[o]ther courts have not required a Rule 50
motion in those circumstances”); J. Steinman, The
Puzzling Appeal of Summary Judgment Denials: When
Are Such Denials Reviewable?, 2014 Mich. St. L. Rev.
895, 898 (2014). A more openly acknowledged and widespread division in circuit authority is difficult to imagine.
B. The Circuits Are Divided on Whether They
Have Discretion To Excuse Failure To File a
Rule 50 Motion
Time and again, this Court has held that parties must
“avail themselves” of Rule 50 to preserve the argument
that they are entitled to judgment as a matter of law.
Ortiz, 562 U.S. at 189. More than half a century ago, this
Court warned that a party’s failure to file a Rule 50(b)
postverdict motion deprives an appellate court of the
“power to direct the District Court to enter judgment
contrary to the one it had permitted to stand.” Cone, 330
U.S. at 218. In Unitherm and Ortiz, this Court again observed that failure to file a Rule 50 motion precludes
appellate courts from directing judgment as a matter of
law on appeal. “[A]bsent such a motion,” appellate courts
are “ ‘powerless’ to review” the issue and direct judgment
for the losing party below. Ortiz, 562 U.S. at 189 (quoting Unitherm, 546 U.S. at 405); see id. at 193 (“[t]he
Court of Appeals * * * lacked jurisdiction” where appellant had not filed a Rule 50 motion) (Thomas, J., concurring in the judgment).



23
Without addressing those repeated holdings, the panel
majority below held that it had “discretion” to ignore
TCL’s failure to file a Rule 50 motion and to order judgment as a matter of law nonetheless. App., infra, 7a.
Observing that the issue was “fully briefed” during summary judgment, ibid., the majority chose to “exercise”
that supposed “discretion to address and resolve the
issue,” id. at 8a-9a. That is impossible to reconcile with
this Court’s holding that a party’s failure to file a Rule 50
motion “deprives the appellate court of the power ” to
direct that judgment be entered in that party’s favor.
Judge Newman’s dissent pointed that out—and the majority offered no response. App., infra, 27a-28a.
The panel majority’s ruling conflicts with the decisions
of at least four circuits. Consistent with Ortiz, Unitherm,
and Cone, the Second, Fifth, Sixth, and Ninth Circuits
have all held that Rule 50(b)’s requirement is jurisdictional—that the court of appeals lacks “jurisdiction to
hear an appeal” seeking judgment as a matter of law
unless the relevant arguments were “sufficiently preserved in a Rule 50 motion.” Feld Motor Sports, 861 F.3d
at 596; see Gerics, 974 F.3d at 807-808; Omega, 984 F.3d
at 252-253; Banuelos v. Constr. Laborers’ Tr. Funds, 382
F.3d 897, 903 (9th Cir. 2004).
The majority’s ruling likewise conflicts with the courts
of appeals (including the First, Third, Fourth, Eighth,
and Eleventh Circuits) that apply Rule 50 as a “mandatory claim-processing rule.” See Pollara, 784 F.3d at
187-188; Owatonna Clinic–Mayo Health Sys. v. Med.
Protective Co. of Fort Wayne, 639 F.3d 806, 809 (8th Cir.
2011); Ji, 626 F.3d at 128 & n.11; Varghese, 424 F.3d at
423; Munoz v. Oceanside Resorts, Inc., 223 F.3d 1340,
1344 n.3 (11th Cir. 2000). “If properly invoked, mandatory claim-processing rules must be enforced.” Hamer v.
Neighborhood Hous. Servs., 138 S. Ct. 13, 17 (2017) (em

24
phasis added). Such rules, unlike jurisdictional requirements, can be “waived or forfeited” by a party’s failure to
object. Ibid. But where a party—like Ericsson here—
expressly and vigorously objects to the failure to comply
with Rule 50, the court of appeals must enforce Rule 50
by denying review. See, e.g., Pollara, 784 F.3d at 189;
Varghese, 424 F.3d at 423; Munoz, 223 F.3d at 1344 n.3.
The panel majority’s decision below, which purports to
overlook noncompliance with Rule 50 over objection,
cannot be reconciled with the law of those circuits either.
II. THE ISSUES ARE IMPORTANT AND RECURRING
The questions presented are important and recurring.
Litigants routinely raise dispositive issues at summary
judgment. Where the district court denies summary
judgment, litigants must have a clear understanding of
what is required to preserve the arguments the district
court rejected. Appellate courts, moreover, need clarity
regarding what issues they can review when faced with
an order denying summary judgment. As the Sixth Circuit has lamented, “the mechanics of preserving” unsuccessful summary-judgment arguments are “less” than
“clear.” Kidis v. Reid, 976 F.3d 708, 720 (6th Cir. 2020);
see also Lawson, 791 F.3d at 761 n.2. “An important aspect of summary judgment law is now in great disorder.”
Steinman, supra, at 898. Because the courts of appeals
have failed “to provide clear answers on these important
procedural issues,” Omega, 984 F.3d at 265 (Lohier, J.,
concurring in part and dissenting in part), review is warranted. The status quo “is not a sustainable way to administer procedural rules and justice for real litigants in
real cases.” Ibid.
That need for clarity is especially important given the
frequency with which these issues arise. In 2020 alone, at
least 14 court of appeals decisions addressed whether a
party could appeal a summary-judgment denial without


25
raising the issue in a Rule 50 motion. See App., infra, 1a41a; Hisert, 980 F.3d at 7-8; Kidis, 976 F.3d at 720;
Gerics, 974 F.3d at 802-808; Hanover, 974 F.3d at 785
n.10; Hurt v. Com. Energy, Inc., 973 F.3d 509, 516 (6th
Cir. 2020); Bard, 969 F.3d at 1072-1073; Gulf Eng’g Co. v.
Dow Chem. Co., 961 F.3d 763, 766 (5th Cir. 2020); Universal Truckload, Inc. v. Dalton Logistics, Inc., 946 F.3d
689, 699-700 n.5 (5th Cir. 2020).5 In the first six days of
2021, the Second Circuit stepped into the fray again,
holding that it lacks authority to review a summaryjudgment denial absent compliance with Rule 50 (unless
something foreclosed the litigant from seeking Rule 50
relief ). See Omega, 984 F.3d at 250-253. Indeed,
“[t]here are so many cases concerning the post-judgment
appealabilty of summary judgment denials that it is difficult to confidently characterize the positions of the
circuits.” Steinman, supra, at 922 n.87.
This Court found disarray in this area sufficient to
warrant review in Ortiz. 562 U.S. at 187-188. Following
Ortiz, the disarray has only proliferated.6 The courts of

5

See also Watley v. Felsman, — F. App’x — , 2020 WL 7775515, at
*1 n.1 (3d Cir. Dec. 30, 2020); Hernandez v. Fitzgerald, — F. App’x
— , 2020 WL 7774945, at *3 n.4 (10th Cir. Dec. 30, 2020); Sooroojballie v. Port Auth. of N.Y. & N.J., 816 F. App’x 536, 539-540 (2d Cir.
2020); In re Fancher, 802 F. App’x 538, 544 (11th Cir. 2020); Buie v.
Dhillon, No. 19-5105, 2020 WL 873502, at *1 (D.C. Cir. Feb. 14,
2020); Ferguson v. Waid, 798 F. App’x 986, 988-989 (9th Cir. 2020).
6
When Ortiz was decided, the Third and D.C. Circuits lacked clear
positions. They now are firmly part of the circuit split. See Pollara,
784 F.3d at 187-188; Feld, 688 F.3d at 782. The First, Fourth, Fifth,
Tenth, and Federal Circuits have reiterated their pre-Ortiz holdings.
See SRI Int’l, 930 F.3d at 1302 & n.5; Jones, 780 F.3d at 488; Blessey
Marine Servs., Inc. v. Jeffboat, L.L.C., 771 F.3d 894, 897 (5th Cir.
2014); Bunn, 723 F.3d at 460 n.3; Rural Water Dist. No. 4 v. City of
Eudora, 659 F.3d 969, 975 (10th Cir. 2011).



26
appeals have questioned the stability of their own law in
this area, reinforcing the need for this Court’s guidance.7
Review is warranted.
III. THIS CASE IS AN IDEAL VEHICLE FOR REVIEW
A. The Case Squarely Presents the Issues
This case squarely presents both questions for review.
There is no dispute that, after the district court denied
TCL’s summary-judgment motion on validity under 35
U.S.C. § 101, App., infra, 96a-99a, TCL never again
raised the issue in district court. TCL did not raise § 101
during trial. See id. at 4a (majority op.); id. at 25a-26a
(Newman, J., dissenting). TCL did not raise § 101 when
seeking judgment as a matter of law under Rule 50
before or after verdict. See id. at 4a (majority op.); id. at
25a-26a (Newman, J., dissenting). The panel majority
ruled that it could address patent validity under § 101,
absent a Rule 50 motion, by reviewing the district court’s
denial of summary judgment because “§ 101 is an issue of
law” and the denial of summary judgment purportedly
was “not dependent on any factual issues” at trial. Id. at
4a (majority op.).
The Federal Circuit aligned itself with cases holding
that, while summary-judgment denials generally are not
appealable after a trial, denials that rest on “legal issues”
are. App., infra, 4a. In the Federal Circuit’s view, a
summary-judgment denial that rests on legal grounds,
because it resolves the legal issue against the moving

7

See, e.g., Williams v. Gaye, 895 F.3d 1106, 1122 (9th Cir. 2018)
(questioning “the continuing viability of ” its legal-issue “exception”);
Valbruna Slater Steel Corp. v. Joslyn Mfg. Co., 934 F.3d 553, 560
(7th Cir. 2019) (noting “possible exception”), cert. denied, 140 S. Ct.
2802 (2020); Empress Casino Joliet Corp. v. Balmoral Racing Club,
Inc., 831 F.3d 815, 824 (7th Cir. 2016) (calling exception “controversial”).



27
party, effectively enters summary judgment against that
party. App., infra, 4a-5a; see Lighting Ballast, 790 F.3d
at 1336-1337 (similar).
The decision below thus directly conflicts with the decisions of courts that reject any exception to Ortiz or
Rule 50’s requirements for “legal” issues. See pp. 15-22,
supra. The Fourth Circuit, for example, has held that a
decision denying summary judgment on “ERISA preemption” is not reviewable on appeal once a trial has
taken place, even though ERISA preemption was a purely legal question. Varghese, 424 F.3d at 422; see Chesapeake Paper Prods., 51 F.3d at 1235 (contract interpretation issue). The suggestion below that the denial of
summary judgment can effectively “grant” summary
judgment to the non-movant, App., infra, 4a-5a, does not
mitigate the conflict. The reason the Federal Circuit
sometimes deems an order denying summary judgment
to be, in effect, a grant of summary judgment to the nonmovant is that the order resolves an “issue of law”
against the movant, as opposed to finding that “ ‘material
issues of fact prevented judgment.’ ” App., infra, 4a-5a
(quoting Lighting Ballast, 790 F.3d at 1337).8 Under that

8

Indeed, while the district court denied TCL’s summary-judgment
motion on invalidity, it never dismissed TCL’s counterclaim for a
declaratory judgment of invalidity. Pp. 9-10, supra. For that reason,
the panel majority’s attempt to reconcile its decision with the Fifth
Circuit cases, App., infra, 5a-6a—while not material here—falls
short. In both Luig v. North Bay Enterprises, Inc., 817 F.3d 901
(5th Cir. 2016), and Hudson v. Forest Oil Corp., 372 F.3d 742 (5th
Cir. 2004), the district courts not only denied summary judgment,
but dismissed the moving parties’ claims. See Luig, 817 F.3d at 903
(“district court effectively granted summary judgment” for nonmovant by “dismissing [the movant’s] breach of contract counterclaim with prejudice”); Hudson, 372 F.3d at 744 (“den[ial] * * * [of ]
summary judgment was in effect a grant of summary judgment” be-




28
logic, every summary-judgment denial that turns on law
rather than disputed facts is “effectively” a grant of summary judgment on the relevant legal issue and is therefore subject to appellate review. See Ruyle, 44 F.3d at
842 (“critical distinction” is between denials based on the
existence of “a fact question for the jury and those [based
on] a question of law”). For the same reasons, that gloss
cannot distinguish cases like Varghese, which deny summary judgment on legal issues—effectively resolving the
issue in one side’s favor—but nonetheless hold the denial
of summary judgment unappealable absent a Rule 50
motion. 424 F.3d at 422.9
The decision below likewise cannot be squared with
decisions limiting appeal to summary-judgment denials
that rest on “purely legal” issues capable of resolution
without any reference to the facts. See Gerics, 974 F.3d
at 807; Dahlin, 881 F.3d at 603; Pollara, 784 F.3d at 187188. Here, the panel admitted that § 101 determinations

cause “the court dismissed [movant’s] intervention claim with prejudice”). Those denials were not interlocutory rulings that merely
decided “that the case should go to trial.” Switzerland Cheese Ass’n,
Inc. v. E. Horne’s Market, Inc., 385 U.S. 23, 25 (1966). They foreclosed claims from proceeding.
9
The notion that appellate courts can review such motions because
they effectively “grant” summary judgment to the opponent suffers
from a further defect. Where summary judgment is granted in error, the remedy is to reverse and remand for further proceedings.
See 10A Wright & Miller, supra, § 2716. Here, however, the Federal
Circuit did not simply reverse the supposed “grant” of summary
judgment for Ericsson. It directed the entry of judgment for TCL.
App., infra, 23a. That does not review the supposedly erroneous
“grant” of summary judgment; it reviews and reverses the denial of
judgment as a matter of law and directs its entry. Absent a Rule 50
motion, a court of appeals is “powerless” to direct the entry of judgment following trial. Unitherm, 546 U.S. at 405.



29
may involve “underlying issues of fact,” App., infra, 4a,
and invoked trial testimony to support its determination,
id. at 20a. That would preclude review in circuits that
require purely legal issues that can be addressed apart
from any facts. The Federal Circuit’s suggestion that it
had “discretion” to direct the entry of judgment for a
party, despite failure to comply with Rule 50, id. at 7a,
does not apply this Court’s decisions in Ortiz, Unitherm,
and Cone, as other courts have done. Instead, it defies
them.
B. The Decision Below Illustrates the Consequences of Creating Extra-Statutory Exceptions
The Federal Rules provide no basis for creating a “dichotomy” between denials of summary judgment under
Rule 56 that turn on legal issues and denials under Rule
56 that turn on questions of fact. Chesapeake Paper
Prods., 51 F.3d at 1235. Neither denial conclusively resolves cases or claims; both merely decide “that the case
should go to trial.” Switzerland Cheese, 385 U.S. at 25.
Another Rule—Rule 50—makes any such dichotomy unnecessary. Rule 50 authorizes parties to seek judgment
as a matter of law once there has been a trial. And Rule
50 plainly contemplates the submission of legal issues. If
the district court denies a motion for judgment as a
matter of law under Rule 50(a) “before the case is submitted to the jury,” the court is deemed “to have submitted the action to the jury subject to the court’s later
deciding the legal questions raised by the motion.” Fed.
R. Civ. P. 50(b) (emphasis added). Rule 50 thus provides
a mechanism for submitting “legal questions” in support
of judgment as a matter of law after trial. Nothing in the
Federal Rules supports repurposing Rule 56 to serve the
same end.



30
This case illustrates the mischief the contrary practice
creates. “Summary judgment was not intended to be a
bomb planted within the litigation at its early stages and
exploded on appeal.” Holley, 835 F.2d at 1377. But that
is exactly how TCL used it here. After losing at summary judgment, TCL abandoned its argument that the
patent claims were invalid under § 101 at trial and in
post-judgment briefing. Then, on appeal, it ambushed
Ericsson with supposed conflicts between Ericsson’s position “in opposing summary judgment” and its view “at
trial.” TCL C.A. Br. 24. TCL repeatedly invoked the
trial testimony of Ericsson’s technical expert regarding
the meaning of the claims—matters never addressed before the trial court. Id. at 25. Ericsson was thus denied
notice that TCL was pressing the issue and an opportunity to augment the trial record to support Ericsson’s
contrary view. That contravenes Rule 50’s design. Rule
50(a) requires parties to file a motion before “the close of
the trial” to allow “the responding party an opportunity
to cure any deficiency” in the evidence. Fed. R. Civ. P. 50
advisory comm. note to 1991 amendment. Ericsson was
denied that opportunity.
Creating “exceptions” to Ortiz’s general rule that
summary-judgment denials are not appealable, moreover, creates uncertainty over the exceptions’ scope and
application. The panel majority suggested that invalidity
under § 101 was a “legal” question here. But deciding
whether denial of summary judgment turns on a legal
question or involves factual disputes is a “dubious undertaking.” Chesapeake Paper Prods., 51 F.3d at 1235.
Here, the panel majority rejected Ericsson’s argument
that the claimed “interception module” reflected the
required multi-layer architecture—the specification explained that the module was located between the application domain and software service layers—because of
what “Ericsson’s expert testified at trial.” App., infra,


31
19a-20a. But the majority overlooked trial testimony
where “witnesses described the claim limitations, including the multi-layered structure.” Id. at 36a (Newman, J.,
dissenting). Purporting to review a pretrial denial of
summary judgment while invoking later trial testimony—and calling the whole determination “legal”—“is
not [a] fair and reasonable judicial process.” Id. at 29a.
Finally, creating supposed exceptions undermines the
critical role Rule 50 assigns trial courts. Whether to
enter judgment as a matter of law after trial—or the
alternative of a new trial—“calls for the judgment in the
first instance of the judge who saw and heard the witnesses and has the feel of the case which no appellate
printed transcript can impart.” Cone, 330 U.S. at 216.
That is why Rule 50 mandates that trial courts have the
first “chance to correct [their] own errors without the
delay, expense, or other hardships of an appeal.” Ibid.
(quotation marks omitted). Here, TCL bypassed the district court. TCL did not on appeal so much reargue its
unsuccessful summary-judgment motion as it argued
error in light of what Ericsson presented “at trial.” See
pp. 29-30, supra. That is a paradigmatic example of an
argument that should be decided by the district court in
the first instance.
CONCLUSION
The petition should be granted.




Respectfully submitted.

THEODORE STEVENSON, III
NICHOLAS MATHEWS
WARREN LIPSCHITZ
MCKOOL SMITH P.C.
300 Crescent Ct., Suite 1500
Dallas, TX 75201
(214) 978-4000

JEFFREY A. LAMKEN
Counsel of Record
MICHAEL G. PATTILLO, JR.
RAYINER I. HASHEM
JAMES A. BARTA
KENNETH E. NOTTER III
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioners
FEBRUARY 2021










APPENDIX

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
²²²²
NO. 2018-2003
²²²²
ERICSSON INC., TELEFONAKTIEBOLAGET
LM ERICSSON,
Plaintiffs-Appellees,
v.
TCL COMMUNICATION TECHNOLOGY
HOLDINGS LIMITED, TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
Defendants-Appellants.
²²²²
Appeal from the United States District Court for the
Eastern District of Texas in No. 2:15-cv-00011-RSP,
Magistrate Judge Roy S. Payne.
²²²²
OPINION
²²²²
April 14, 2020
²²²²
THEODORE STEVENSON, III, McKool Smith, PC, Dallas, TX, argued for plaintiffs-appellees. Also represented
by WARREN LIPSCHITZ, NICHOLAS M. MATHEWS; JAMES
A. BARTA, RAYINER HASHEM, JEFFREY A. LAMKEN, MICHAEL GREGORY PATTILLO, JR., MoloLamken LLP,
Washington, DC.
(1a)

2a
LIONEL M. LAVENUE, Finnegan, Henderson, Farabow, Garrett & Dunner, LLP, Reston, VA, argued for
defendants-appellants. Also represented by MICHAEL
LIU SU, Palo Alto, CA; DAVID MROZ, Washington, DC.
²²²²
Before PROST, Chief Judge, NEWMAN and CHEN,
Circuit Judges.
Opinion for the court filed by Chief Judge PROST.
Dissenting opinion filed by Circuit Judge NEWMAN.
PROST, Chief Judge.
Appellants TCL Communication Technology Holdings, Limited, TCT Mobile Limited, and TCT Mobile
(US) Inc., (collectively, “TCL”) appeal the decision of the
U.S. District Court for the Eastern District of Texas
denying summary judgment that U.S. Patent No.
7,149,510 (“the ’510 patent”) is ineligible for patenting
under 35 U.S.C. § 101. TCL also appeals the denial of its
motion for a new trial on damages and challenges the jury’s finding of willful infringement as not supported by
substantial evidence. We reverse, hold that the ’510 patent claims ineligible subject matter under 35 U.S.C.
§ 101, and do not reach the issues of damages or willfulness.
I
In February 2015, Ericsson Inc. and Telefonaktiebolaget LM Ericsson (collectively, “Ericsson”) sued TCL
for infringement of five patents. See J.A. 1000-04. Four
patents were removed from the case following inter
partes review proceedings, leaving only the ’510 patent.
TCL moved for summary judgment that the asserted
claims of the ’510 patent (then claims 1-5 and 7-11) were
ineligible for patenting under 35 U.S.C. § 101. The district court denied the motion in November 2017, and the

3a
case proceeded to trial one month later. See Ericsson
Inc. v. TCL Commc’n Tech. Holdings, Ltd., 2017 WL
5137401 at *1, *7-8 (E.D. Tex. Nov. 4, 2017) (“Summary
Judgment Decision”).
The ’510 patent generally claims a method and system
for limiting and controlling access to resources in a telecommunications system. At trial, Ericsson argued that
TCL infringed claims 1 and 5 of the ’510 patent by making and selling smartphones that include the Android operating system. According to Ericsson, these Androidbased products infringe the claims of the ’510 patent because they include “a security system that can grant apps
access to a subset of services on the phone, with the end
user controlling the permissions granted to each app.”
Appellees’ Br. 6 (internal quotations omitted). The jury
found claims 1 and 5 infringed, awarded Ericsson damages, and further found that TCL’s infringement was
willful. J.A. 38-39.
Post-trial, TCL moved for renewed judgment as a
matter of law and a new trial on damages and willfulness,
among other issues. The district court initially agreed,
concluding that Ericsson’s damages theory was “unreliable” and ordering a new trial on damages. J.A. 3. Following Ericsson’s motion for reconsideration, however,
the district court reinstated the jury verdict, and denied
TCL’s motion for a new trial. Id. It also denied TCL’s
motion for judgment as a matter of law on willfulness,
finding the jury’s verdict supported by substantial evidence. Id. at 20.
TCL timely appealed. We have jurisdiction under 28
U.S.C. § 1295(a)(1).

4a
II
Ericsson argues as a threshold matter that TCL has
waived any right to appeal the issue of ineligibility under
§ 101 by failing to raise it in a motion for judgment as a
matter of law under Federal Rule of Civil Procedure 50.
See Appellees’ Br. 21-25. We disagree for two independent reasons. We discuss each in turn below.
A
The district court’s § 101 opinion applied the two-step
framework for patent eligibility first laid out in Mayo
Collaborative Services v. Prometheus Laboratories, Inc.,
566 U.S. 66 (2012), and further detailed in Alice Corp. v.
CLS Bank Int’l, 573 U.S. 208 (2014). Patent eligibility
under § 101 is an issue of law, although the inquiry may
sometimes contain underlying issues of fact. See Berkheimer v. HP Inc., 881 F.3d 1360, 1365 (Fed. Cir. 2018);
Intellectual Ventures I LLC v. Capital One Financial
Corp., 850 F.3d 1332, 1338 (Fed. Cir. 2017). In denying
summary judgment here the district court concluded, at
step one, that the claims of the ’510 patent “are not directed to an abstract idea” as a matter of law. Summary
Judgment Decision at *7. That decision was based on the
court’s analysis of the claim language and a comparison
to our existing caselaw, and was not dependent on any
factual issues that were or could have been raised at trial.
See id. at 70-71.
Although not in the § 101 context, we have addressed a
similar procedural scenario in Lighting Ballast Control
LLC v. Philips Electronics North America Corp., 790
F.3d 1329, 1337 (Fed. Cir. 2015). In that case, an appellee argued that the appellant had “waived any argument . . . by failing to raise the issue in either its pre- or
post-verdict motions for judgment as a matter of law.”
Id. at 1336-37. We noted that this may be true in cases

5a
where a motion for summary judgment is denied because
“material issues of fact prevented judgment.” Id. at
1337. But that was not the case in Lighting Ballast, nor
is it here. Rather, in Lighting Ballast, “[w]hen the district court denied [the movant]’s motion for summary
judgment, it did not conclude that issues of fact precluded judgment; it effectively entered judgment of validity
to [the non-movant],” and that grant of judgment was
appealable. Id.
The same is true in this case. The district court did
not conclude that there were issues of fact precluding
judgment. Once the district court held that the ’510 patent was not directed to an abstract idea at step one,
there was no set of facts that TCL could have adduced at
trial to change that conclusion. See Summary Judgment
Decision at *7. As a result, the district court effectively
entered judgment of eligibility to Ericsson. “This is sufficient to preserve the issue for appeal.” Lighting Ballast,
790 F.3d at 1338.
Ericsson argues that we are bound to apply Fifth Circuit law in this instance, and that therefore Lighting Ballast is inapplicable. Appellees’ Br. 21-22. Even under
Fifth Circuit law, however, the district court effectively
granted summary judgment of eligibility to Ericsson,
which we may review.
Relying on Fifth Circuit law, Ericsson cites Feld Motor Sports, Inc. v. Traxxas, L.P., 861 F.3d 591, 596 (5th
Cir. 2017), for the proposition that “following a jury trial
on the merits, this court has jurisdiction to hear an appeal of the district court’s legal conclusions in denying
summary judgment, but only if it is sufficiently preserved
in a Rule 50 motion.” But the district court here did not
merely deny summary judgment. Rather, consistent
with Fifth Circuit precedent, it effectively granted sum-

6a
mary judgment in favor of the non-moving party by deciding the issue and leaving nothing left for the jury to
decide. See Hudson v. Forest Oil Corp., 372 F.3d 742,
744 (5th Cir. 2004) (“the district court’s decision to deny
[a] motion for summary judgment was in effect a grant of
summary judgment in favor of [non-movants]”). And
when the district court’s action amounts to an “effective
. . . grant of summary judgment,” the Fifth Circuit has
treated the action akin to an express grant of summary
judgment, and allowed an appeal accordingly. See Luig
v. North Bay Enters., Inc., 817 F.3d 901, 904-05 (5th Cir.
2016).
The facts of this case justify that same treatment. As
discussed above, the district court did not deny summary
judgment of ineligibility on the basis of additional facts
that needed to be, or even could be, presented at trial.
The court affirmatively “conclude[d] that the claims are
not directed to an abstract idea but rather to an improved technological solution to mobile phone security
software.” Summary Judgment Decision at *7. Had Ericsson chosen to file a cross-motion for summary judgment of eligibility, this exact same conclusion would have
sufficed to grant that motion. Under Fifth Circuit law,
this conclusion effectively serves as a grant of summary
judgment for Ericsson, which is appealable. See Hudson, 372 F.3d at 744. Ericsson’s citation to Feld, which
limits the appealability of denials of summary judgment,
is therefore inapposite.
TCL has preserved its right to appeal what was effectively a grant of summary judgment of patent validity to
Ericsson.
B
Even if the district court had not effectively granted
summary judgment to Ericsson, both Federal Circuit

7a
and Fifth Circuit law make clear that we have the discretion to hear issues that have been waived. And, to the
extent the issue of patent eligibility in this case was
waived (it was not, for the reasons discussed above), both
circuits’ precedent supports our decision to exercise our
discretion and hear the issue.
We note first that this is not a typical waiver scenario
in which we are asked to “consider an issue not passed
upon below.” Singleton v. Wulff, 428 U.S. 106, 120 (1976).
Here, the issue of patent eligibility was fully briefed, argued, and decided below, and then fully briefed and argued again before us. Summary Judgment Decision at
*7; Appellants’ Br. 20-31; Appellees’ Br. 21-38; Appellants’ Reply Br. 3-9; Oral Arg. at 5:22-9:57, 21:40-33:07,
34:12-35:55, No. 2018-2003, http://www.cafc.uscourts.gov/oral-argument-recordings.
While we always possess “the discretion to decide
when to deviate from th[e] general rule of waiver,” Interactive Gift Express., Inc. v. Compuserve, Inc., 256 F.3d
1323, 1344 (Fed. Cir. 2001), exercise of that discretion is
especially appropriate in cases that do not present new
issues on appeal. While there is “no general rule” for
when we exercise our discretion to reach waived issues,
Singleton, 428 U.S. at 121, we have done so where,
among other factors, “the issue has been fully briefed by
the parties.” See Automated Merch. Sys., Inc. v. Lee,
1376, 1379-80 (Fed. Cir. 2015) (“A circuit court will disregard the rule of waiver in compelling circumstances, particularly if the issue has been fully briefed, if the issue is
a matter of law or the record is complete, if there will be
no prejudice to any party, and if no purpose is served by
remand” (quoting Interactive Gift, 256 F.3d at 1345 (internal quotations and alterations omitted))). That is the
case here.

8a
Our general rule against reaching waived issues is
based on sound policy. As we have noted,
It ensures finality in litigation by limiting the appealable issues to those a lower court had an opportunity to, and did, address. The rule also conserves
judicial resources because it prevents parties from
undoing a lower court's efforts—sometimes spanning years of litigation—based on an error that a
lower court could have considered and corrected.
In the same regard, the rule discourages parties
from inviting an alleged error below only to raise it
on appeal.
HTC Corp. v. IPCom GmbH & Co., KG, 667 F.3d 1270,
1281 (Fed. Cir. 2012) (collecting cases). But none of those
policies would be served by declining to reach the issue of
patent eligibility in this case. The district court “had an
opportunity to, and did, address” the issue with finality.
Id.; c.f. In re Nuvasive, Inc., 842 F.3d 1376, 1380 (Fed.
Cir. 2016) (declining to reach waived issue where we do
not have “the benefit of the [lower court]’s informed
judgment”). Unlike prior cases in which we have declined to reach waived issues, TCL’s arguments did not
shift over time or present “a moving target.” Finnigan
Corp. v. Int’l Trade Comm’n, 180 F.3d 1354, 1363 (Fed.
Cir. 1999). To the contrary, its “argument[s] at the trial
and appellate level [were] consistent, thereby ensuring a
clear presentation of the issue to be resolved.” Id. And,
as discussed in Section III below, the resolution of the
patent eligibility question in this case is straightforward.
See Interactive Gift, 256 F.3d at 1345 (noting that we
consider arguably waived issues when “the proper resolution is beyond any doubt”).
Accordingly, to the extent the issue of patent eligibility was not properly preserved below, we nonetheless ex-

9a
ercise our discretion to address and resolve the issue.
See Icon Health and Fitness, Inc. v. Strava, Inc., 849
F.3d 1034, 1040 (Fed. Cir. 2017) (“Because the issue has
been fully briefed, the record is complete, there will be no
prejudice to any party, and no purpose is served by remand, we will consider [Appellant]’s arguments”).
The Fifth Circuit’s statements regarding the proper
use and purpose of waiver similarly support addressing
the patent-eligibility legal question here. The en banc
Fifth Circuit has explained that the doctrine of waiver
“exists to prevent an appellate court from analyzing the
facts of a particular issue without the benefit of a full record or lower court determination.” New Orleans Depot
Servs., Inc. v. Dir., Office of Worker’s Comp. Programs,
718 F.3d 384, 388 (5th. Cir. 2013) (en banc). That concern
is not present here. The parties have fully briefed the
issue of ineligibility under § 101 both before the district
court and before us. We also have the benefit of the district court’s decision, which resolved the matter without
resort to factual considerations, and no party has raised a
genuine fact issue that requires resolution. See id. at 388
(“[A] well-settled discretionary exception to the waiver
rule exists where a disputed issue concerns a pure question of law.”). This is not “a case in which a party has
wholly ignored a major issue” until it reached the appellate level, but rather one in which the issue was “squarely
addressed” below, and therefore it is appropriate for us
to reach the issue. Id.
Like the Fifth Circuit in New Orleans Depot, we find
that because the issue was “presented to” and “fully litigated before” the district court judge, and because “every party was provided an adequate opportunity to brief
and argue the issue” before us, we can and should “exercise our discretion to decide this legal issue.” Id.; see also

10a
Glass v. Paxton, 900 F.3d 233, 242-32 (5th Cir. 2018)
(where “the only remaining issues are purely legal questions that were briefed below,” the Fifth Circuit has
“been willing to resolve those issues on appeal.”)1
Although the particular waiver at issue in New Orleans Depot and Glass did not involve motions for judgment as a matter of law under Rule 50, Fifth Circuit authority makes clear that the policy behind Rule 50 is consistent with this result. “Rule 50(b) is designed to prevent a litigant from ambushing both the district court and
opposing counsel after trial.” Puga v. RGX Solutions,
Inc., 922 F.3d 285, 290 (5th Cir. 2019). Similarly, Rule
50(a) is intended to allow a trial court “to re-examine the
question of evidentiary insufficiency” and alert opposing
counsel to any insufficiency. Id. at 291 (quoting Scottish
Heritable Tr., PLC v. Peat Marwick Main & Co., 81 F.3d
606, 610 (5th Cir. 1996)). Barring review of the district
court’s § 101 ruling would not promote either of these
purposes.
Because the issue of eligibility was fully briefed and
decided below, neither Ericsson nor the district court can
claim to be “ambush[ed]” by our decision to address the
issue on appeal. Id. at 290. Further, because the district

1

Feld, cited by Ericsson and discussed above, also supports our
conclusion. While Ericsson cites Feld to argue that TCL’s claim is
waived, Feld itself found that the appellant “sufficiently preserved”
the issue, noting that post-trial briefing requirements should be
“construed liberally” and “the purpose of the rule is to provide notice
to the district court and the plaintiff of the defendant’s objections.”
861 F.3d at 596 (citing Navigant Consulting, Inc. v. Wilkinson, 508
F.3d 277, 288 (5th Cir. 2007)). Here, Ericsson does not and cannot
argue that that it was not on notice of TCL’s § 101 claim, having fully
briefed and argued the issue both before the district court and now
before us.

11a
court’s denial of TCL’s summary judgment motion rested
on its conclusion that the asserted claims are not directed
to an abstract idea at step one, no concerns about evidentiary insufficiency are present. Therefore, there is no impediment to us addressing the issue of patent ineligibility. See Scottish Heritable, 81 F.3d at 610 (“Technical
noncompliance with Rule 50(b) may be excused in situations in which the purposes of the rule are satisfied.”). To
the contrary, the Fifth Circuit has “repeatedly counseled
against” the “slavish adherence” to Rule 50 when it would
not prevent against ambush or evidentiary insufficiency.
Id. at 611.
We therefore exercise our discretion—to the extent
the issue was not properly preserved below—to review
the district court’s eligibility determination, and turn now
to the merits of TCL’s appeal.
III
We “review a district court’s summary judgment ruling under the law of the regional circuit.” Intellectual
Ventures, 850 F.3d at 1337. Under Fifth Circuit law, we
“review a district court’s ruling on a motion for summary
judgment de novo and apply the same legal standards as
the district court.” Bellard v. Gautreaux, 675 F.3d 454,
460 (5th Cir. 2012). The issue of patent eligibility under
§ 101 is a question of law that we review without deference. Intellectual Ventures, 850 F.3d at 1338.
The Patent Act provides that “[w]hoever invents or
discovers any new and useful process, machine, manufacture, or composition of matter, or any new and useful improvement thereof, may obtain a patent therefor, subject
to the conditions and requirements of this title.” 35
U.S.C. § 101. However, laws of nature, natural phenomena, and abstract ideas are not patentable. Alice, 573 U.S.
at 216. To determine whether this exception applies, we

12a
evaluate at step one “whether the claims at issue are directed to a patent-ineligible concept,” such as an abstract
idea. Alice, 573 U.S. at 218. We have alternately described this inquiry as “looking at the ‘focus’ of the
claims.” Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d
1350, 1353 (Fed. Cir. 2016) (quoting Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1335-36 (Fed. Cir. 2016)).
While the specification may be “helpful in illuminating
what a claim is directed to . . . the specification must always yield to the claim language” when identifying the
“true focus of a claim.” ChargePoint, Inc. v. SemaConnect, Inc., 920 F.3d 759, 766 (Fed. Cir. 2019)[.]
If the claims are directed to an abstract idea, we move
to step two and “consider the elements of each claim both
individually and ‘as an ordered combination’ to determine
whether the additional elements ‘transform the nature of
the claim’ into a patent-eligible application.” Alice, 573
U.S. at 217 (quoting Mayo, 566 U.S. at 77-78). This step
represents “a search for an ‘inventive concept’—i.e., an
element or combination of elements that is ‘sufficient to
ensure that the patent in practice amounts to significantly more than a patent upon the ineligible concept itself.’ ”
Id. at 217-18 (quoting Mayo, 566 U.S. at 72-73) (internal
quotations and alterations omitted).
A
The ’510 patent, titled “Security Access Manager in
Middleware,” describes “a system and method for controlling access to a platform for a mobile terminal for a
wireless telecommunications system.” ’510 patent col.1 ll.
25-28. Ericsson describes the field of the invention as
“securing mobile phones against improper access by
apps.” Appellees’ Br. 3. Claim 1 recites:
1. A system for controlling access to a platform, the
system comprising:

13a
a platform having a software services component
and an interface component, the interface component having at least one interface for providing access to the software services component for enabling application domain software to be installed,
loaded, and run in the platform;
an access controller for controlling access to the
software services component by a requesting application domain software via the at least one interface, the access controller comprising:
an interception module for receiving a request from
the requesting application domain software to access the software services component;
and a decision entity for determining if the request
should be granted wherein the decision entity is a
security access manager, the security access manager holding access and permission policies; and
wherein the requesting application domain software is granted access to the software services
component via the at least one interface if the request is granted.
’510 patent claim 1. The only other claim on appeal, claim
5, further recites:
5. The system according to claim 1, wherein:
the security access manager has a record of requesting application domain software; and the security access manager determines if the request
should be granted based on an identification stored
in the record.
’510 patent claim 5.
Based on the claim language, we conclude that claims
1 and 5 are directed to the abstract idea of controlling

14a
access to, or limiting permission to, resources. Although
written in technical jargon, a close analysis of the claims
reveals that they require nothing more than this abstract
idea. By the plain language of claim 1, the “security access manager” and the “decision entity” are the same
thing. See ’510 patent col. 8 ll. 50-53 (“. . . wherein the
decision entity is a security access manager”). According
to the specification, this combined decision entity / security access manager can further be the same as the “interception module.” Id. at col. 8 ll. 50-53 (“Instead of sending a permission request . . . from the IM [interception
module] 223 to the SAM [security access manager] 518,
the IM 223 makes a decision locally”); see also J.A. 107110 (district court adopting Ericsson’s proposed construction, and noting that it includes “an embodiment
where the interception module and the decision entity are
one and the same.”) Because the security access manager / decision entity / interception module is the only
claimed component of the “access controller,” all four
components collapse into simply “an access controller for
controlling access” by “receiving a request” and then
“determining if the request should be granted.” That
bare abstract idea, controlling access to resources by receiving a request and determining if the request for access should be granted, is at the core of claim 1.
Neither of the remaining limitations alter our conclusion that claim 1 is directed to the abstract idea of controlling access to resources. The first limitation recites
“a platform having a software services component and an
interface component,” for the ultimate goal of “enabling
application domain software to be installed, loaded, and
run in the platform.” ’510 patent claim 1. This recitation
of functional computer components does not specify how
the claim “control[s] access to a platform,” nor does it di-

15a
rect the claim to anything other than that abstract idea.
It merely provides standard components that are put to
use via the “access controller” limitation. Similarly, the
“wherein” limitation simply recites the necessary outcome of the abstract idea, “grant[ing] access . . . if the request is granted.”
We are mindful that the step one inquiry looks to the
claim’s “character as a whole” rather than evaluating
each claim limitation in a vacuum. See Enfish, LLC v.
Microsoft Corp., 822 F.3d 1327, 1335 (Fed. Cir. 2016).
But where, as here, the bulk of the claim provides an abstract idea, and the remaining limitations provide only
necessary antecedent and subsequent components, the
claim’s character as a whole is directed to that abstract
idea. See In re TLI Commc’ns LLC Patent Litig., 823
F.3d 607, 612 (Fed. Cir. 2016) (claim directed to abstract
idea where additional recited components “merely provide a generic environment in which to carry out the abstract idea.”)[.] For the same reason, claim 5, which
merely adds that the determination to grant access
should be “based on an identification,” is directed to the
same abstract idea.
Ericsson makes two arguments as to why the asserted
claims are not directed to an abstract idea at step one.
Neither is persuasive. First, it argues that the idea of
controlling access to resources is not an abstract idea because it does not “resemble[ ] one previously recognized
by the Supreme Court.” Appellees’ Br. 31-32. Ericsson’s
suggestion that an abstract idea must be a “mathematical
algorithm,” “method of organizing human activity,” or
“fundamental economic practice,” id., is legally erroneous. The Supreme Court has explicitly rejected the use
of such “categorical rules” to decide patent eligibility.
Bilski v. Kappos, 561 U.S. 593, 610 (2010). As a result,

16a
“[t]he Supreme Court and we have held that a wide variety of well-known and other activities constitute abstract
ideas.” Intellectual Ventures I LLC v. Symantec Corp.,
838 F.3d 1307, 1314 (Fed. Cir. 2016) (collecting cases).
Controlling access to resources is exactly the sort of
process that “can be performed in the human mind, or by
a human using a pen and paper,” which we have repeatedly found unpatentable. See CyberSource Corp. v. Retail Decisions, Inc., 654 F.3d 1366, 1372 (Fed. Cir. 2011).
The idea long predates the ’510 patent and is pervasive in
human activity, whether in libraries (loaning materials
only to card-holding members), office buildings (allowing
certain employees entrance to only certain floors), or
banks (offering or denying loans to applicants based on
suitability and intended use). In each of these circumstances, as in the claims at issue, a request is made for
access to a resource, that request is received and evaluated, and then the request is either granted or not.
Ericsson defends the ’510 patent by arguing that its
claims, unlike these fundamental practices, are specific to
mobile phones. But “limit[ing] the abstract idea to a particular environment—a mobile telephone system—[ ]
does not make the claims any less abstract for the step 1
analysis.” In re TLI, 823 F.3d at 607. To the contrary,
we have repeatedly found the concept of controlling access to resources via software to be an abstract idea. See
Smart Sys. Innovations, LLC v. Chicago Transit Authority, 873 F.3d 1364, 1371 (Fed. Cir. 2017) (claim involving “denying access to a transit system if the
bankcard is invalid” was directed to an abstract idea);
Prism Techs. LLC v. T-Mobile USA, Inc., 696 F. App’x
1014, 1017 (Fed. Cir. 2017) (abstract idea of “providing
restricted access to resources”); Smartflash LLC v. Apple Inc., 680 F. App’x 977 (Fed. Cir. 2017) (abstract idea

17a
of “conditioning and controlling access to data”). The
claims at issue here are no different.
Second, Ericsson contends that its claims are not directed to an abstract idea because they “solve the specific
computer problem . . . of controlling app access in resource constrained mobile phones.” Appellees’ Br. 29.
We disagree. As an initial matter, the district court was
incorrect to conclude that “[t]he claims of the ’510 patent
are limited to mobile platform technology,” and Ericsson
is wrong to repeat that point. Summary Judgment Decision at *7.2 The asserted claims merely require “[a] system for controlling access to a platform,” whether mobile,
desktop, or otherwise. They do not mention, and are not
limited to, mobile phones or a “resource-constrained” environment. For the same reason, Ericsson’s reference to
“a specific, layered software architecture,” Appellees’ Br.
29-30, which does not appear in the claims, is unavailing.
Moreover, the claims here do not “ha[ve] the specificity required to transform a claim from one claiming
only a result to one claiming a way of achieving it.” SAP
Am., Inc. v. InvestPic, LLC, 898 F.3d 1161, 1167 (Fed.
Cir. 2018). Ericsson does not deny that its claims are
drafted functionally, but argues that the process of requesting and controlling access as recited in the claim is a
specific technique for improving computer performance.
Appellees’ Br. 29-30. As discussed above, we disagree.
2

The district court was also incorrect to state that “[t]he PTAB’s
highly technical characterization of the claims supports the conclusion that the claims are not directed to an abstract idea.” Summary
Judgment Decision at *7. Claims do not become eligible simply because they are written or characterized in a “highly technical” manner. That would violate the Supreme Court’s caution that patent
eligibility must not “depend simply on the draftsman’s art.” Alice,
573 U.S. at 224 (quoting Mayo, 566 U.S. at 72).

18a
The claims are silent as to how access is controlled. They
merely make generic functional recitations that requests
are made and then granted. Merely claiming “those
functions in general terms, without limiting them to
technical means for performing the functions that are arguably an advance,” does not make a claim eligible at
step one. Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d
1350, 1351 (Fed. Cir. 2016).
B
Having determined that the asserted claims of the ’510
patent are directed to the abstract idea of controlling access to resources, we next ask whether the asserted
claims contain an inventive concept that would support
patent eligibility. We conclude that they do not.
Ericsson argues that the “layered architecture” of the
invention provides the necessary inventive concept. According to Ericsson, claims 1 and 5 “recite three specific
layers of software,” in which the bottom “services layer”
is “further arranged into vertical functional software
stacks.” Appellees’ Br. 36 (internal quotations omitted).
Ericsson contends that the novelty of the claims is, in
part, the “arrangement of horizontally partitioned functional software units” which “differs from the standard
model, which uses vertical layers only.” Id. But this allegedly novel aspect of the invention is wholly missing
from claims 1 and 5. Neither claim recites any particular
architecture at all—much less the specific three layered
architecture advocated by Ericsson. Nor does either
claim recite software stacks or units—vertical, horizontal, or otherwise.
Ericsson concedes that at least some of these elements
do not appear in the claims. See Appellees’ Br. 37 n.3.
Rather, it argues that our analysis must be “aided by a
consideration of the specification” under which “the de-

19a
scribed benefits flow from the claimed ‘interception module.’ ” Id. Ericsson misstates the role of the specification,
which “cannot be used to import details from the specification if those details are not claimed.” ChargePoint, 920
F.3d at 769. Rather, “any reliance on the specification in
the § 101 analysis must always yield to the claim language.” Id.
Here, Ericsson alleges that the inventive concept of
the ’510 patent lies in a particular three-layer arrangement of software, in which the bottom layer is “arranged
into vertical functional software stacks” and “horizontally
partitioned functional software units.” Appellees’ Br. 36
(citing ’510 patent col. 2 ll. 20-25, col. 5 ll. 1, 23-30, 40).
Even assuming that Ericsson’s explanation of the scheme
described in the specification is correct, this cannot provide an inventive concept at step two because it is not recited in claims 1 or 5. See Intellectual Ventures, 838 F.3d
at 1315 (holding claims ineligible where “the asserted
claims do not contain any limitations that address” problems the specification purported to solve); ChargePoint,
920 F.3d at 769-70 (holding claims ineligible where
“[e]ven if [the] specification had provided, for example, a
technical explanation of how to enable communication
over a network for a device interaction . . . the claim language here would not require those details”).
Because its alleged inventive concept is not otherwise
recited in the claims, Ericsson asks us to import the
three-layer architecture and the horizontal partition requirement into the claim through the recited “interception module.” Appellees’ Br. 37 n.3. We decline to do so.
The claims in question describe the role of the interception module clearly: “an interception module for receiving
a request from the requesting application domain software to access the software services component.” ’510

20a
patent claim 1. Nothing in that language supports Ericsson’s contention that the claim requires a three-layer architecture, horizontally partitioned functional software
units, vertical functional software stacks, or any other
component of the structure that it claims is inventive. If
Ericsson believes that the recited “interception module”
necessarily requires these structures, the time to make
that argument would have been at claim construction.
But Ericsson elected not to propose any construction for
this term, and the parties agreed that the term would be
given its plain and ordinary meaning. J.A. 102. Indeed,
Ericsson’s expert testified at trial that an interception
module is merely “a segment of code that performs the
interception function.” J.A. 6 (district court summarizing
testimony of Ericsson’s expert). Thus, we do not agree
with Ericsson that the use of “interception module” in the
claim is sufficient to import the three-layer architecture
from the specification.
The same is true of the term “software services component.” During claim construction the district court expressly rejected both parties’ proposed constructions,
noting that each would improperly read limitations into
the claims. J.A. 105. As the district court noted, “the
claims do not describe the internal composition or arrangement of the software services component itself,”
and therefore the invention was not limited to “a plurality
of functional software units,” or any of the parties’ other
proposed limitations. Id. The district court therefore
construed the term to mean “a software component for
providing services.” J.A. 107. That broad construction,
which is not challenged before us, provides no reason to
import the allegedly novel layered architecture described
in the specification into the language of the claims.

21a
Ericsson also relies in part on the district court’s brief
discussion of Alice step two, which provided two reasons
that the claims of the ’510 patent supposedly recite an inventive concept. We disagree with both. First, the court
stated that the claims “recite a technological improvement to . . . the problem of limited memory and resources
on mobile phones.” Summary Judgment Decision at *8.
As discussed above, however, claims 1 and 5 are not limited to mobile phones and make no mention of limited
memory or resources. We cannot agree that the claims
present a “particularized solution” to the problem of limited memory in mobile phones as the district court suggests, Summary Judgment Decision at *8, when the
claims as written make no mention of memory and encompass not just mobile phones but any “system for access to a platform.” ’510 patent claim 1. Indeed, the
specification of the ’510 patent expressly disavows any
interpretation that would limit its scope only to “mobile
terminal[s].” ’510 patent col. 10 ll. 58-67.
Second, the district court concluded that the claims
“are not merely conventional applications of computer
technology.” Summary Judgment Decision at *8. But it
reached this conclusion based solely on the Patent Trial
and Appeal Board’s conclusion in a related inter partes
review proceeding that one of ordinary skill in the art allegedly would not be “motivated to combine computerbased security software with the relevant mobile platform technology.” Id. The district court overstates the
breadth of the Board’s conclusion. The Board concluded
that TCL had “failed to persuasively establish an articulated reason” that one of ordinary skill would “implement
the access controller of [one prior art reference] as the
security management mechanism of [a second prior art
reference] to provide the fine-grained access control

22a
identified in [the second prior art reference].” TCL Corp.
v. Telefonaktiebolaget LM Ericsson, No. IPR2015-01605,
Paper 44, at 27 (PTAB Jan. 25, 2017). The Board did not
conclude, as the district court suggests, that there was a
fundamental incompatibility between conventional computer-based security software and mobile platform technology prior to the invention of the ’510 patent. Even if it
had, that conclusion could not demonstrate that the
claims here possess an inventive step because the feature
that was allegedly lacking in the combination (i.e., technology specific to mobile phone platforms) is not recited
in the claims at issue.
Because the architecture identified by Ericsson as inventive does not appear in claims 1 or 5 of the ’510 patent,
we conclude at step two that claims 1 and 5 do not provide a sufficient inventive concept to render them patent
eligible. The most specific elements actually recited in
the claim are “an access controller for controlling access,” “an interception module for receiving a request,”
and “a decision entity for determining if the request
should be granted.” ’510 patent claim 1. None of these
elements are sufficient to turn the claim into anything
more than a generic computer for performing the abstract idea of controlling access to resources. Even assuming that this collection of elements led to a more efficient way of controlling resource access, “our precedent
is clear that merely adding computer functionality to increase the speed or efficiency of the process does not confer patent eligibility on an otherwise abstract idea.” Intellectual Ventures I LLC v. Capital One Bank (USA),
792 F.3d 1363, 1370 (Fed. Cir. 2015). Thus, the claims do
not “recite[ ] a specific solution to a security problem,” as
Ericsson contends. Appellees’ Br. 35. To the contrary,
when a claim “does no more than require a generic com-

23a
puter to perform generic computer functions,” as here,
the claims lack an inventive concept sufficient to demonstrate eligibility at step two. Alice, 573 U.S. at 225.
III
We have considered the parties’ remaining arguments
and find them unpersuasive. For the foregoing reasons,
claims 1 and 5 of the ’510 patent are directed to the abstract idea of controlling access to resources, and do not
recite an inventive concept sufficient to transform that
idea into patent-eligible subject matter. The claims are
therefore ineligible for patenting under § 101. Accordingly, the district court’s damages verdict is vacated.
VACATED-IN-PART AND REVERSED
COSTS
Costs to Appellants.

24a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
²²²²
NO. 2018-2003
²²²²
ERICSSON INC., TELEFONAKTIEBOLAGET
LM ERICSSON,
Plaintiffs-Appellees,
v.
TCL COMMUNICATION TECHNOLOGY
HOLDINGS LIMITED, TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
Defendants-Appellants.
²²²²
Appeal from the United States District Court for the
Eastern District of Texas in No. 2:15-cv-00011-RSP,
Magistrate Judge Roy S. Payne.
²²²²
NEWMAN, Circuit Judge, dissenting.
The court today sets aside the Federal Rules and
sound practice for civil trials and appeals, and holds that
the district court’s pre-trial denial of a motion for summary judgment based on 35 U.S.C. § 101 is the same as a
final decision in favor of the non-movant. That is not the
general rule, and it is not the rule of the Fifth Circuit,
whose procedural law controls this trial and appeal.
Nonetheless, the panel majority treats the district
court’s pre-trial denial of summary judgment as a final
decision on the merits, ripe for appeal. And on appeal,
the panel majority decides patent eligibility under Section 101, although there was no final judgment on this

25a
issue—and no record, no evidence, no witnesses, no expertise, no argument, and no district court decision.
The panel majority, now deciding patent eligibility under Section 101, finds facts and applies law without the
benefit of district court trial. The majority ignores the
pre-trial findings of the district court, rejects the estopped findings of the Patent Trial and Appeal Board in
the related IPR proceeding, and discards the guidance of
precedent, to hold the subject matter of claims 1 and 5
ineligible for patenting.
The majority announces new law and disrupts precedent. I respectfully dissent.
1.
Section 101 arguments were not raised at district
court trial and post-trial
After the district court denied TCL’s pre-trial motion
for summary judgment on Section 101,1 TCL did not pursue any Section 101 aspect at the trial or in any post-trial
proceeding. Although other pre-trial motion issues were
litigated, Section 101 disappeared. TCL took no action to
preserve the Section 101 issue, and Section 101 was not
raised for decision and not mentioned in the district
court’s final judgment.2
Nonetheless, Section 101 eligibility is the focus of
TCL’s appeal, and my colleagues decide it for themselves. There is no trial record and no evidence on the
question of whether the claimed invention is an abstract

1

Ericsson Inc. v. TCL Commc’n Tech. Holdings, Ltd., 2017 WL
5137401 (E.D. Tex. Nov. 4, 2017) (“Summ. J. Order”).
2
Ericsson Inc. v. TCL Commc’n Tech. Holdings, Ltd., 2018 WL
2149736 (E.D. Tex. May 10, 2018) (“Dist. Ct. Dec.”).

26a
idea and devoid of inventive content. The panel majority
departs from the Federal Rules and from precedent.
Federal Rule of Civil Procedure 50 provides guidance
after a pre-trial denial of summary judgment; the Rule
assumes that the issue is litigated at trial, and provides
the post-trial procedure to preserve the issue for district
court decision and for appeal. Rule 50 includes:
If the court does not grant a motion for judgment
as a matter of law made under Rule 50(a), the court
is considered to have submitted the action to the jury subject to the court’s later deciding the legal
questions raised by the motion. No later than 28
days after the entry of judgment . . . the movant
may file a renewed motion for judgment as a matter
of law . . . .
Fed. R. Civ. P. 50(b). The Supreme Court, in Unitherm
Food Sys., Inc. v. Swift-Eckrich, Inc., 546 U.S. 394 (2006),
summarized the purpose of this Rule:
This Court has addressed the implications of a party’s failure to file a postverdict motion under Rule
50(b) on several occasions and in a variety of procedural contexts. This Court has concluded that, “[i]n
the absence of such a motion” an “appellate court
[is] without power to direct the District Court to enter judgment contrary to the one it had permitted
to stand.” Cone v. West Virginia Pulp & Paper Co.,
330 U.S. 212, 218 (1947).
Id. at 400-01. The Court explained that a motion under
Rule 50(b) is necessary in order to obtain the views of the
judge who experienced the trial, if the issue is sought to
be decided:
A postverdict motion is necessary because “[d]etermination of whether a new trial should be granted

27a
or a judgment entered under Rule 50(b) calls for
the judgment in the first instance of the judge who
saw and heard the witnesses and has the feel of the
case which no appellate printed transcript can impart.” Cone, supra, at 216.
Id. at 401 (footnote omitted). Absent such post-trial motion and decision, the issue is not available for appeal.
Here there was no post-trial motion, and no final decision
of the district court.
Contrary to the panel majority’s theory, the Section
101 issue was not preserved for appeal. The Fifth Circuit
is explicit that an “interlocutory order denying summary
judgment is not to be reviewed,” even after “full trial on
the merits” and even for “purely legal issues,” unless “it
is sufficiently preserved in a Rule 50 motion.” Feld Motor Sports, Inc. v. Traxxas, L.P., 861 F.3d 591, 595-96 &
n.4 (5th Cir. 2017); Puga v. RCX Sols., Inc., 922 F.3d 285,
291 n.2 (5th Cir. 2019). The Fifth Circuit stresses that
appellate review is available only for issues preserved in
a Rule 50 motion. Feld, 861 F.3d at 596.
Other circuits are in accord. See, e.g., Ji v. Bose Corp.,
626 F.3d 116, 127 (1st Cir. 2010) (a party “must restate
its objection” in order “to preserve its challenge for appeal”); Elm Ridge Expl. Co., LLC v. Engle, 721 F.3d
1199, 1219 (10th Cir. 2013) (a party cannot appeal the denial of its Rule 50 motion “when it did not renew the motion under Rule 50(b) after the jury’s verdict”); Duban v.
Waverly Sales Co., 760 F.3d 832, 835 (8th Cir. 2014)
(“Litigants must renew summary judgment arguments in
Rule 50 motions to preserve their arguments for appeal.”); Luxottica Grp., S.p.A. v. Airport Mini Mall,
LLC, 932 F.3d 1303, 1310 n.1 (11th Cir. 2019) (“[T]he only
way to preserve a Rule 50(a) motion is to renew it under
Rule 50(b).”). Although courts have allowed a few depar-

28a
tures in extraordinary circumstances, the case at bar is
not asserted to present extraordinary circumstances.
My colleagues on this panel propose that they are under no constraint, stating that the Fifth Circuit has
treated the denial of summary judgment akin to an express grant of summary judgment. Maj. Op. at 5. However, in every case cited by the majority, there was a trial
or a post-trial motion or a district court decision on the
disputed issue. The majority states that it has authority
to decide this issue not presented at trial, citing Lighting
Ballast Control LLC v. Philips Electronics North America Corp., 790 F.3d 1329 (Fed. Cir. 2015), where the court
held that the question of whether a term was governed
by § 112/6 was a claim construction question for the court,
not the jury, and could be appealed on final judgment on
the jury verdict. There was no Rule 50 issue on appeal of
the district court’s decision on a motion for JMOL.
Lighting Ballast does not support the panel’s venture
herein, where there was no mention at trial of a Section
101 issue; no record, no evidence, no witness testimony,
no expertise, no motion during or after trial, no argument, no district court decision, and no motion for JMOL
on Section 101.
The Fifth Circuit has plainly ruled that “[f ]ailure to
raise an argument before the district court waives that
argument.” Fruge v. Amerisure Mut. Ins. Co., 663 F.3d
743, 747 (5th Cir. 2011). The Fifth Circuit is clear that it
“reject[s] ‘the contention that . . . review should depend
on whether the party claims an error of law or an error of
fact.’ ” Feld, 861 F.3d at 596 (quoting Chesapeake Paper
Prods. Co. v. Stone & Webster Eng’g Corp., 51 F.3d 1229,
1235 (4th Cir. 1995)). The Fifth Circuit has stressed that
“even legal errors cannot be reviewed unless the chal-

29a
lenging party restates its objection in a [Rule 50] motion.” Id.
The Federal Circuit has recognized that “[d]enials of
summary judgment are not appealable.” Novo Nordisk
A/S v. Becton Dickinson & Co., 304 F.3d 1216, 1221 (Fed.
Cir. 2002). Our departure today defies this classical procedural rule. Here, TCL’s pre-trial motion for summary
judgment was denied by the district court, no post-trial
motion was filed, and Section 101 was not mentioned in
the district court’s final decision or requested for reconsideration. Yet the majority accepts this untried and undecided issue for our appellate decision, and decides it,
overriding the judgment entered on the jury verdict.
That is not fair and reasonable judicial process.
TCL cites the Federal Circuit’s statement in ePlus,
Inc. v. Lawson Software, Inc., 700 F.3d 509 (Fed. Cir.
2012), that a party is “not required to ignore the writing
on the wall and press the issue over and over again to
preserve it for appeal.” TCL Reply Br. 3-4. In ePlus,
the defendant raised an indefiniteness issue in a posttrial motion for judgment as a matter of law, and although the district court held the issue waived, this court
disagreed, citing the defendant’s several arguments of
indefiniteness of the means-plus-function claim. This
“over and over” usage in ePlus does not excuse the total
abandonment of the issue herein.
The Supreme Court reminds us that Rule 50 implements fairness:
Moreover, the “requirement of a timely application
for judgment after verdict is not an idle motion” because it “is . . . an essential part of the rule, firmly
grounded in principles of fairness.”

30a
Unitherm, 546 U.S. at 401 (quoting Johnson v. New
York, N.H. & H.R. Co., 344 U.S. 48, 53 (1952)); see Johnson, 344 U.S. at 53 (“Rewriting the rule to fit counsel’s
unexpressed wants and intentions would make it easy to
reintroduce the same type of confusion and uncertainty
the rule was adopted to end.”).
In a few situations, courts have excused the inadvertent omission of a Rule 50 motion. However, such excuse
is not here offered. In this case, the question of Section
101 eligibility was not pursued and not mentioned at trial
and was not raised by post-trial motion. Whether viewed
as abandoned or waived, the Section 101 issue is not before us for determination ab initio on appeal.
On accepting the appeal and deciding for itself the
question of Section 101 eligibility, the majority further
errs, as I next outline.
2.
The majority’s decision on Section 101 is not in accord with law and precedent
Applying Supreme Court guidance on Section 101, and
the now-extensive body of precedent applying that guidance, it is apparent that the claims of U.S. Patent No.
7,149,510 (“the ’510 patent”) are not for an abstract idea.
A cursory glance at claims 1 and 5, the only claims in suit,
shows their technological substance and inventive step:
1. A system for controlling access to a platform, the
system comprising:
a platform having a software services component
and an interface component, the interface component having at least one interface for providing access to the software services component for enabling application domain software to be installed,
loaded, and run in the platform;

31a
an access controller for controlling access to the
software services component by a requesting application domain software via the at least one interface, the access controller comprising:
an interception module for receiving a request from
the requesting application domain software to access the software services component;
and a decision entity for determining if the request
should be granted wherein the decision entity is a
security access manager, the security access manager holding access and permission policies; and
wherein the requesting application domain software is granted access to the software services
component via the at least one interface if the request is granted.
5. The system according to claim 1, wherein:
the security access manager has a record of requesting application domain software; and
the security access manager determines if the request should be granted based on an identification
stored in the record.
’510 patent, col. 11, ll. 2-23, 46-51.
The district court, in its pre-trial denial of summary
judgment, applied the Supreme Court’s two-step analysis
from Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573 U.S.
208 (2014). Ericsson summarizes this analysis, starting
with Alice Corp.’s Step 1:
At Step 1, the claims are directed not to an abstract
idea, but to a technological solution to a technological problem. The district court correctly found that
the claims recite a technological “system”—one using a “layered architecture” that isolates an “appli-

32a
cation domain” containing apps from phone “services” using an “interception module”—that enables users to control apps’ access to phone features.
That is an improvement in the operation of computers—enabling users to mitigate security risks from
downloaded apps—not an abstract idea.
Ericsson Br. 18. The district court concluded that Step 1
is met and that “the claims are not directed to an abstract
idea but rather to an improved technological solution to
mobile phone security software.” Summ. J. Order at *7.
The panel majority finds that “the claims . . . require
nothing more than this abstract idea” of “controlling access to, or limiting permission to, resources.” Maj. Op. at
13. The majority offers analogy to a library’s requirement of a library card in order to obtain access to a book.
Maj. Op. at 15 (“Controlling access to resources . . . is
pervasive in human activity [such as] in libraries (loaning
materials only to card-holding members).”). I agree that
the idea of controlling access to library books is an ancient idea, but this does not convert every method of controlling access, no matter how novel and unobvious and
technologically complex, into an ineligible abstraction.
The analogy between a library card and this complex
multi-layered system of computer-implemented interception, conversion, and control, does not convert the subject
matter of claims 1 and 5 into an abstract idea. As the Supreme Court recognized in KSR Int’l Co. v. Teleflex Inc.:
“We build and create by bringing to the tangible and palpable reality around us new works based on instinct,
simple logic, ordinary inferences, extraordinary ideas,
and sometimes even genius.” 550 U.S. 398, 427 (2007).
The district court also discussed Step 2 of Alice Corp.
As summarized by Ericsson:

33a
The court also correctly found that, at Step 2, the
claims recite an inventive, patent-eligible application of any purported underlying abstract idea. The
’510 Patent’s layered architecture is a specific implementation of a mobile-phone security system
that was unknown in the prior art.
Ericsson Br. 18. Claims 1 and 5 are directed to a specific
solution to a technological problem, as discussed in Enfish, LLC v. Microsoft Corp., where claims that recited a
“data storage and retrieval system” with a “logical table”
that stores information, were found to be directed to “a
specific type of data structure,” not an abstract idea. 822
F.3d 1327, 1336, 1339 (Fed. Cir. 2016). Again in Smart
Systems Innovations, LLC v. Chicago Transit Authority, this court explained that claims that are “necessarily
rooted in computer technology in order to overcome a
problem specifically arising in the realm of computer
networks” do not recite an abstract idea. 873 F.3d 1364,
1372 (Fed Cir. 2017).
The panel majority does not discuss the district court’s
findings and does not apply the Alice Corp. criteria or
draw on the guidance of precedent. Instead, the majority
creates new Section 101 law. The majority observes that
the technologic description in the specification is more
extensive than the description in the claims, stating that
only the specification describes “a particular three-layer
arrangement of software, in which the bottom layer is
‘arranged into vertical functional software stacks’ and
‘horizontally partitioned functional software units,’ ” and
therefore that the technology “cannot provide an inventive concept at step two because it is not recited in
claims 1 or 5.” Maj. Op. at 18.
The majority appears to require that all of the technologic information in the specification must be recited in

34a
the claims in order to avoid abstractness of the claims.
This is a new requirement for claims, and not only conflicts with the opportunity to present claims of varying
scope, but also conflicts with the principle that claims are
intended to be concise statements of the patented invention as distinguished from the prior art. See 35 U.S.C.
§ 112. It is not the law and is not the practice that every
descriptive and distinguishing detail from the specification must be stated in the claims.
Section 101 does not impose claim requirements beyond those of Sections 102, 103, 112, and the rest of patent law. The majority’s new law of claim content brings
fresh uncertainty to an already strained innovation incentive.
3.
The majority contravenes the statutory estoppel of
PTAB proceedings between the same parties
Claims 1 and 5 recite the limitations of the software
services component, the interface component, the access
controller, the interception module, and the security access manager, in multi-layered architecture. The panel
majority disposes of this claim content as irrelevant to
Section 101, as “conventional applications of computer
technology.” Maj. Op. at 20 (citing Summ. J. Order at
*8). The district court in its denial of summary judgment
had referred to the PTAB’s finding that a person of ordinary skill in the art would not be “motivated to combine
computer-based security software with the relevant mo-

35a
bile platform technology,” the PTAB holding the claims
patentable under Section 103.3
The PTAB decision is final and binding as to “any
ground that the petitioner raised or reasonably could
have raised during that inter partes review.” 35 U.S.C.
§ 315(e)(2). The panel majority effectively holds that the
district court is not bound by the PTAB decision and
findings. Maj. Op. at 20 (“[The PTAB’s] conclusion could
not demonstrate that the claims here possess an inventive step because the feature that was allegedly lacking in the combination (i.e., technology specific to mobile
phone platforms) is not recited in the claims at issue.”).
The district court had observed that a “pragmatic
analysis of § 101 is facilitated by considerations analogous
to those of §§ 102 and 103 as applied to the particular
case,” quoting Internet Patents Corp. v. Active Network,
Inc., 790 F.3d 1343, 1347 (Fed. Cir. 2015). Summ. J. Order at *8. The majority acknowledges that the district
court applied the PTAB ruling and stated that a person
of skill in the field of the invention would not be “motivated to combine computer-based security software with
the relevant mobile platform technology.” Maj. Op. at 20
(quoting Summ. J. Order at *8 (quoting PTAB Dec. at *913)). This PTAB decision created an estoppel in the district court. 35 U.S.C. § 315(e).
The majority holds that on appeal from the district
court, we can take up issues on which the district court is
estopped. That cannot be the intent of the America Invents Act, of which estoppel is a foundation. Nonetheless, exercising liberation from the statutory estoppel,
3

TCL Corp. v. Telefonaktiebolaget LM Ericsson, No. IPR201501605, 2017 WL 505375, at *9-13 (P.T.A.B. Jan. 25, 2017) (“PTAB
Dec.”).

36a
the majority finds that the system of claims 1 and 5 does
not “possess an inventive step,” Maj. Op. at 20, despite
the PTAB’s ruling of non-obviousness. However, the
PTAB ruling is final and binding between these parties.
4.
Claim limitations cannot be discarded in order to
impart abstractness to the residue of the claim
The majority holds that “the bulk of the claim provides
an abstract idea, and the remaining limitations provide
only necessary antecedent and subsequent components.”
Maj. Op. at 14. Thus the majority holds that the limitations in the claims are irrelevant, and that the claimed
“necessary antecedent and subsequent components” of
the “highly technical” composition of the claims are not
considered in deciding whether the claims are for an abstract idea. Maj. Op. at 14, 16 n.2.
The majority discards the claim limitations, contrary
to the Supreme Court’s admonition to examine “the elements of each claim both individually and as an ordered
combination to determine whether the additional elements transform the nature of the claim into a patenteligible application” of the idea. Alice Corp., 573 U.S. at
217 (internal quotation marks omitted). At the trial, witnesses described the claim limitations, including the multi-layered structure of the software services component,
the middleware and the application domain layer, the access controller, and the interceptor module. Witnesses
explained that all of these limitations are in the claims.
This evidence must be considered with respect to Section
101 eligibility.
Section 101 is a question of law applied to specific
facts. Precedent illustrates the factual nature of the inquiry into subject matter eligibility. For example, in

37a
Aatrix Software, Inc. v. Green Shades Software, Inc.,
claims directed to a “data processing system for designing, creating, and importing data” into a “viewable form”
were analyzed to apply their factual foundations to Section 101. 882 F.3d 1121, 1123, 1128 (Fed. Cir. 2018).
Again in Data Engine Technologies. LLC v. Google Inc.,
claims for an “electronic spreadsheet system for storing
and manipulating information” by “a specific method for
navigating through three-dimensional electronic spreadsheets” were analyzed to show the non-abstract quality of
the limitations to the claimed subject matter. 906 F.3d
999, 1005, 1007-08 (Fed. Cir. 2018). In Ancora Techs.,
Inc. v. HTC America, Inc., the technology for improving
security was found to be “a non-abstract computerfunctionality improvement if done by a specific technique
that departs from earlier approaches to solve a specific
computer problem.” 908 F.3d 1343, 1348 (Fed. Cir. 2018).
No evidence and no precedent supports the majority’s
theory that the limitations in claims 1 and 5 constitute the
well understood, routine, and conventional activity that is
the foundation of “abstract idea” unpatentability.
The majority further reasons that the claims are for
an abstract idea because “[c]ontrolling access to resources is exactly the sort of process that ‘can be performed in the human mind, or by a human using a pen
and paper.’ ” Maj. Op. at 15 (quoting CyberSource Corp.
v. Retail Decisions, Inc., 654 F.3d 1366, 1372 (Fed. Cir.
2011)). The majority discards the vast evidence of technological complexity and advance, and announces that
the system “merely add[s] computer functionality to increase the speed or efficiency of the process.” Maj. Op.
at 21. There was no evidence that this complex multilevel digital method can be performed by pen and paper.

38a
The claimed system was not shown or suggested to be
a computer substitute for pen and paper, as the majority
now finds.
5.
An invention is defined by the claims, not the
boiler-plate at the end of the specification
My colleagues also hold that, despite the technologically detailed claim limitations, the claims are for an abstract idea because of the final paragraph of the ’510 patent specification, the terminal boiler-plate beloved of patent draftsmen. This paragraph concludes the specification as follows:
While what has been described constitute exemplary embodiments of the invention, it should be understood that the invention can be varied in many
ways without departing from the scope thereof.
For example, although the present invention has
been described primarily in connection with a platform for a mobile terminal for a wireless telecommunications system, the invention can also be used
in connection with platforms for other products.
Because the invention can be varied in many ways,
it should be recognized that the invention should be
limited only insofar as is required by the scope of
the following claims.
’510 patent, col. 10, ll. 57-67; see Maj. Op. at 20. It is well
recognized that such a generalized wrap-up does not enlarge the claims beyond what is described and enabled in
the specification. See, e.g., D Three Enterprises, LLC v.
SunModo Corp., 890 F.3d 1042, 1051 (Fed. Cir. 2018)
(“This boilerplate language at the end of the . . . specification is not sufficient to show adequate disclosure of the
actual [invention].”).

39a
The majority’s ruling that such general text converts
the claimed subject matter into abstractness will import
Section 101 invalidity into virtually all existing patents.
6.
Ericsson has the right to respond to TCL’s Section
101 arguments on this appeal
The panel majority also holds that Ericsson waived
the right to argue that the claim limitations of the interception module and the software services component contribute to Section 101 eligibility; the majority’s reason is
that Ericsson did not present evidence construing this
technology at claim construction. Maj. Op. at 18-19
(“[T]he time to make that argument would have been at
claim construction.”). However, these aspects were not
in dispute in the infringement trial, for there was no dispute about the meaning of “interception module,” no dispute about the meaning of “software services component,” and no dispute about the application of these
terms to TCL’s system.
A party cannot have waived its right to respond to arguments and issues that are presented for the first time
on appeal. Netword, LLC v. Centraal Corp., 242 F.3d
1347, 1356 (Fed. Cir. 2001) (“When a potentially material
issue or argument in defense of the judgment is raised
for the first time . . . , fundamental fairness requires that
the [opposing party] be permitted to respond.”); 16A
Charles A. Wright, Alan R. Miller, and Edward H.
Cooper, Federal Practice & Procedure § 3974.3 (3d ed.
1999) (a reply is proper where the opponent “has introduced a new issue or basis for upholding [or reversing]
the decision below”).

40a
CONCLUSION
The court errs in holding that Section 101 eligibility is
before us on appeal although not decided or preserved at
trial, and the court errs in holding that claims 1 and 5 are
ineligible for patenting. I respectfully dissent.

41a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
²²²²
CASE NO. 2:15-cv-00011-RSP
²²²²
ERICSSON INC., TELEFONAKTIEBOLAGET
LM ERICSSON,
Plaintiffs,
v.
TCL COMMUNICATION TECHNOLOGY
HOLDINGS, LTD., TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
Defendants.
²²²²
MEMORANDUM OPINION AND ORDER
²²²²
May 10, 2018
²²²²
After a four-day trial, the jury unanimously found that
TCL willfully infringed claims 1 and 5 of United States
Patent No. 7,149,510 by selling phones and devices equipped with the Google Android operating system, and the
jury awarded $75 million as a lump sum royalty.1 The
court previously ordered a new trial on damages after
finding Ericsson’s damages theory unreliable, see ECF
1

Additional background can be found in a prior order. See ECF No.
359.

42a
No. 456, but the court now reconsiders that order, reinstates the jury’s verdict in full, and resolves all other remaining disputes.
DISCUSSION
TCL’s motions for judgment as a matter of law and for
a new trial raise procedural issues not unique to patent
law and are therefore evaluated under regional circuit
law. Promega Corp. v. Life Techs. Corp., 875 F.3d 651,
659 (Fed. Cir. 2017). The Fifth Circuit is “especially deferential” to a jury verdict. Olibas v. Barclay, 838 F.3d
442, 448 (5th Cir. 2016) (quoting Evans v. Ford Motor
Co., 484 F.3d 329, 334 (5th Cir. 2007)) (internal quotation
marks omitted). A party is only entitled to judgment as a
matter of law on an issue where no reasonable jury would
have had a legally sufficient evidentiary basis to find otherwise. Fed. R. Civ. P. 50(a); Bear Ranch, L.L.C. v.
Heartbrand Beef, Inc., 885 F.3d 794, 801 (5th Cir. 2018).
The evidence must be reviewed “in the light most favorable to the non-movant.” Id. (quoting Omnitech Int’l, Inc.
v. Clorox Co., 11 F.3d 1316, 1323 (5th Cir. 1994)). The
Fifth Circuit will reverse the denial of a motion for judgment as a matter of law “only if the jury’s factual findings
are not supported by substantial evidence or if the legal
conclusions implied from the jury’s verdict cannot in law
be supported by those findings.” MM Steel, L.P. v. JSW
Steel (USA) Inc., 806 F.3d 835, 843 (5th Cir. 2015) (citation omitted).
A decision to grant a new trial must also overcome
significant deference to the jury’s verdict. “A trial court
should not grant a new trial on evidentiary grounds unless the verdict is against the great weight of the evidence.” Seibert v. Jackson Cty., Mississippi, 851 F.3d
430, 439 (5th Cir. 2017) (quoting Whitehead v. Food Max
of Miss., Inc., 163 F.3d 265, 269 (5th Cir. 1998)). This re-

43a
quires the movant to show “an absolute absence of evidence to support the jury’s verdict.” Id. (quoting Whitehead, 163 F.3d at 269).
I. INFRINGEMENT
TCL makes two arguments in support of judgment as
a matter of law that TCL has not infringed. ECF No.
427 at 3-8. Both arguments relate to the phrase “interception module,” which appears in claim 1 of the ’510 patent:
A system for controlling access to a platform, the
system comprising:
a platform having a software services component
and an interface component, the interface component having at least one interface for providing access to the software services component for enabling application domain software to be installed,
loaded, and run in the platform;
an access controller for controlling access to the
software services component by a requesting application domain software via the at least one interface, the access controller comprising:
an interception module for receiving a request
from the requesting application domain software to
access the software services component;
and a decision entity for determining if the request
should be granted wherein the decision entity is a
security access manager, the security access manager holding access and permission policies; and
wherein the requesting application domain software
is granted access to the software services component via the at one least interface if the request is
granted.

44a
’510 Patent col.11 ll.1-23 (emphasis added). TCL’s first
argument is that the Android operating system does not
include an “interception module” because the segments
of code responsible for interception are not in the same
place. ECF No. 427 at 3-6. TCL’s second argument, as
best as the court can understand it, is that the claims require the “interception module” to be separate from the
“software services component,” yet there was no evidence for the jury to conclude that these two components
are separate in the Android operating system. Id. at 6-8.
Neither argument is persuasive.
TCL’s first argument was raised in a pretrial motion—
TCL asked the court to construe “interception module”
as a self-contained segment of source code, as opposed to
code that is dispersed throughout an operating system.
See ECF No. 359 at 19-20. TCL did not timely raise this
claim construction argument, however, and the court
found the argument waived. Id. Nevertheless, because it
was not clear that TCL’s argument was a matter for
claim construction, the court permitted TCL’s expert, Dr.
Malek, to explain his understanding of the plain and ordinary meaning of the term “module” at trial. Id. (citing
Verizon Servs. Corp. v. Cox Fibernet Va., Inc., 602 F.3d
1325, 1330-41 (Fed. Cir. 2010) (distinguishing infringement from claim construction)); see also Nobelbiz, Inc. v.
Glob. Connect, LLC, 876 F.3d 1326, 1330 (Fed. Cir. 2017)
(O’Malley, J., dissenting from denial of petition for rehearing en banc) (“The fact that parties’ experts might
proffer differing definitions of a term’s plain and ordinary meaning to a jury should not be enough to justify
removing that question from the jury’s consideration.”).
Ericsson’s expert, Dr. Jones, offered a competing understanding, explaining that the Android operating system included an interception “module” because it had

45a
code that is “a logically separable part of the program
that has an identifiable functionality.” Trial Tr. vol. 2 (afternoon), 56:12-57:7, Dec. 6, 2017, ECF No. 404. In other
words, Dr. Jones’s opinion was that regardless of where
in the operating system the source code resided, segments of source code could work together in the Android
operating system to perform the interception function,
and such segments would be considered a “module” because they are logically distinct (in terms of function)
from other portions of source code. See id.
Dr. Jones discredited Dr. Malek’s testimony by highlighting that Dr. Malek’s understanding of the term has
not been consistent. In a claim construction declaration,
Dr. Malek explained that “interception module” would be
understood as software responsible for receiving a request to access the software services component from the
application domain software and passing the request to
the decision entity. Id. 58:3-8. Dr. Jones explained that
this definition is consistent with his understanding, i.e., a
segment of code that performs the interception function.
Id. 58:4-24. Dr. Malek repeated essentially the same definition during his deposition. Id. 59:4-7. Yet at trial, Dr.
Malek defined the term as a “program unit that is discrete and identifiable with respect to compiling, combining with other units, and loading.” Id. 60:6-8. Dr. Jones
not only highlighted the inconsistency, but also explained
how the Android operating system would satisfy each one
of Dr. Malek’s definitions. Id. 58:4-60:24.
The real difference between the experts, according to
Dr. Jones, had to do with the fact that the portions of
code alleged by Ericsson to satisfy the “interception module” limitation were scattered in different places and in
different files. Id. 60:25-61:9. Dr. Jones explained that in
terms of computer science, it did not matter where the

46a
source code was located as long as the code segments
were linked together in a way that made them logically
discrete. Id. 61:10-25. Thus, “from the phone’s perspective, they’re executed right in a row.” Id. 61:21-22.
Not surprisingly, the jury discredited Dr. Malek’s testimony, and substantial evidence supports this finding.
First, the jury could have credited Dr. Jones’s understanding that the Android system has an “interception
module” because it includes logically distinct segments of
code that interact together to perform the interception
function. TCL’s argument to the contrary, that “[t]he
only clear definition of the term ‘module’ was presented
by TCL,” ECF No. 427 at 3, is meritless. Dr. Jones’s understanding of the term was not only clear, but it made
sense in terms of computer science. Second, the jury
could have credited Dr. Malek’s own prior definitions of
the phrase, which were consistent with Dr. Jones’s definition. Third, the jury could have concluded that the Android system satisfies the definition Dr. Malek offered at
trial inasmuch as the Android code segments are logically discrete and identifiable with respect to compiling and
loading.
TCL’s second argument appears to be that Ericsson
unwittingly limited the scope of the claims during trial by
stating that the claims require a “layered” architecture.
See ECF No. 427 at 6-7. According to TCL, this means
that the “interception module” and “software services
component” must be in separate places, yet there is no
evidence to support that finding. Id. at 7. The testimony
TCL cites as supporting a disclaimer of claim scope,
however, has nothing to do with the claim requirements.
The testimony related to the fact that the Android system contains the interception module and software services component in the same file. Trial Tr. vol. 1 (morn-

47a
ing), 37:25-38:9, Dec. 5, 2017, ECF No. 399. Even so, according to Dr. Jones, the interception module and software services component are logically “separate and distinct things,” and indeed, in “[d]ifferent layers.” Id. 38:49. Thus, even if the claims require the interception module to be in a different “layer” than the software services
component, the jury heard substantial evidence to support the finding that this requirement is satisfied.
To be clear, TCL’s infringement arguments are not
about the jury improperly deciding a claim construction
issue. This court has commented on the so-called “O2
Micro trap,” which can doom a jury verdict on appeal.
See Huawei Techs. Co. v. T-Mobile US, Inc., No. 2:16-cv00052-JRG-RSP, 2017 WL 4070592, at *1 (E.D. Tex. Aug.
29, 2017), adopted, 2017 WL 4049251 (E.D. Tex. Sept. 13,
2017); see also Nobelbiz, 876 F.3d at 1330 (O’Malley, J.,
dissenting from denial of petition for rehearing en banc).
There has not been a post-trial argument from TCL that
it was improper to let the jury evaluate the experts’ competing understandings of the plain and ordinary meaning
of the phrase “interception module.” Any such argument
has been waived. See Sage Products, Inc. v. Devon Indus., Inc., 126 F.3d 1420, 1426 (Fed. Cir. 1997). Furthermore, Dr. Malek did not claim to be relying on a special meaning of the term “module” arising from the intrinsic record of the ’510 patent. The dispute simply related to the ordinary understanding of the term within
the art.
II. DAMAGES
The parties’ damages theories have been discussed in
a prior opinion. See ECF No. 456; ECF No. 460 (redacted). Briefly, Ericsson contended on the basis of a consumer survey that about 28% of consumers would not
have purchased an accused TCL device without the abil-

48a
ity to grant or deny access to native functionality. See
ECF No. 456 at 3-5. This 28% number was then applied
directly to TCL’s at-risk profit to arrive at a $3.41 royalty
rate, which was factored into Ericsson’s lump sum royalty analysis, providing for a total damages estimate of
$245 million. See id. TCL contended, on the basis of Ericsson’s past licensing practices, that damages should be
no more than $2,465,000. See id. at 5-9. The jury credited Ericsson’s theory and awarded $75 million, which reflects a deduction attributable at least in part to unaccused products, as discussed more below. See ECF No.
390 at 1.
The court vacated the jury’s damages verdict, concluding that (1) Ericsson’s damages theory was unreliable;
and (2) Ericsson’s pursuit of unaccused products made a
new trial on damages necessary. See ECF No. 456 at 915. As for Ericsson’s damages theory, the court concluded that Mr. Mills’ opinion was unreliable because it failed
to account for patented features on a device that a consumer would consider just as essential as the accused security feature. See id. at 10-12. Extrapolating Ericsson’s
theory, in other words, would quickly result in the erosion of all of TCL’s profit. See id.
Ericsson asks the court to reconsider this decision.
See ECF No. 464. First, Ericsson contends that the
court’s decision conflicts with other courts’ approval of
damages theories such as the one Mr. Mills presented at
trial. See id. at 1. Second, Ericsson contends that the
court’s order raises a flavor of a “royalty stacking” concern, but Ericsson emphasizes that an accused infringer’s
profit is not a cap on damages and that TCL never presented evidence regarding patents that covered other
features a consumer would find essential. See id. at 7-9.
The court agrees.

49a
Two principles are at the heart of the court’s reconsideration of the damages issue. First, “[a] jury’s decision
with respect to an award of damages ‘must be upheld unless the amount is grossly excessive or monstrous, clearly
not supported by the evidence, or based only on speculation or guesswork.” Lucent Techs., Inc. v. Gateway, Inc.,
580 F.3d 1301, 1310 (Fed. Cir. 2009) (quotation and citations omitted). Second, “[e]stimating a reasonable royalty is not an exact science,” and “the question of whether
the expert is credible or the opinion is correct is generally a question for the fact finder, not the court.” Summit
6, LLC v. Samsung Elecs. Co., 802 F.3d 1283, 1296 (Fed.
Cir. 2015).
It is often difficult to draw the line between a credibility issue and a Daubert issue in patent cases, but the flaw
in Ericsson’s damages theory should have gone to the
weight of the evidence, not its admissibility. “The primary purpose of the Daubert filter is to protect juries from
being bamboozled by technical evidence of dubious merit,
as is implicit in the courts’ insistence that the Daubert
inquiry performs a ‘gatekeeper’ function.” SmithKline
Beecham Corp. v. Apotex Corp., 247 F. Supp. 2d 1011,
1042 (N.D. Ill. 2003), vacated on other grounds, 403 F.3d
1331 (Fed. Cir. 2005) (Posner, J., sitting by designation).
Effective cross-examination and the presentation of contrary evidence should have been adequate to prevent the
jury from being misled by Ericsson’s damages theory.
Daubert v. Merrell Dow Pharm., Inc., 509 U.S. 579, 596
(1993) (“Vigorous cross-examination, presentation of contrary evidence, and careful instruction on the burden of
proof are the traditional and appropriate means of attacking shaky but admissible evidence.”). Indeed, any
juror can understand that if one infringing feature on a
device demands nearly a third of the device’s profit, it

50a
may become impossible to sell a profitable device. TCL
made this point to the jury, but much less effectively than
the court expected, and the point was clouded by other
unpersuasive arguments. Thus, to the extent Mr. Mills
overlooked that consumers considered other features essential, and that these features would demand additional
royalties, the flaw went to the weight of Mr. Mills’ testimony.
Other courts have come to the same conclusion. See
ECF No. 464 at 4-7. Mr. Mills presented his damages
theory in Sentius International, LLC v. Microsoft Corporation, and the court declined to find it inadmissible
under Daubert. See No. 5:13-CV-00825-PSG, 2015 WL
451950, at *9 (N.D. Cal. Jan. 27, 2015). Specifically,
“Mills used Wecker’s survey to calculate the revenue and
profit that Microsoft would have allegedly lost if it had
not included the accused spell and grammar check features in its accused products.” Id. Rejecting the same
argument TCL made in its post-trial motion, the court
concluded that “Mills’ income approach theory is not a
hidden attempt to avoid the entire market value rule because Mills did not derive damages using Microsoft’s
revenue and profit from all sales of the accused products.” Id. at *11. Two other decisions are consistent with
the result in Sentius. See Lucent Techs., Inc. v. Microsoft Corp., 837 F. Supp. 2d 1107, 1117 (S.D. Cal. 2011);
Apple, Inc. v. Samsung Elecs. Co., No. 12-CV-00630LHK, 2014 WL 794328, at *15 (N.D. Cal. Feb. 25, 2014).
A review of these cases also reveals that the court’s
previous order gave more credit to TCL’s post-trial damages motion than was due. TCL made arguments identical to the ones rejected in Sentius, namely that Dr.
Wecker’s survey was unreliable and that “Ericsson’s
damages model violates the entire market value rule.”

51a
ECF No. 427 at 13-14. The survey itself was not unreliable, however, as the court has already explained, see
ECF No. 456 at 11-12, and TCL’s entire market value
argument did not clearly highlight the flaw in Mr. Mills’
opinion, see id. at 12. The problem identified by the
court—that Mr. Mills directly applied the 28% survey
result to the at-risk profit—is at best another way of
framing TCL’s more convoluted argument, but a common
sense articulation of the court’s point is nowhere to be
found in TCL’s motion, see ECF No. 427, and was therefore not squarely addressed by Ericsson until its motion
for reconsideration.
Even if TCL preserved the essence of the court’s point
about Mr. Mills overlooking facts of the case, namely
other features a consumer might consider essential, Ericsson is correct that TCL fell short of producing evidence to establish these facts. See ECF No. 464 at 7-9.
The lack of evidence highlighting the flaw in Mr. Mills’
opinion is an important reason why the flaw should have
gone to the weight of the evidence, not its admissibility.
First, the jury did not hear evidence about Mr. Mills’
opinion regarding the other patents-in-suit, which the
court relied on to illustrate how TCL’s profit would
quickly vanish. See ECF No. 456 at 10. Second, while
there was evidence that consumers would consider a few
other features essential to their purchase, including ability to make a call, text messaging, and Wi-Fi, see Trial
Tr. vol. 1 (morning), 90:3-9:98:17, Dec. 5, 2017, ECF No.
398, the jury was not presented evidence that any one of
these features was covered by another patent. At most,
the jury heard evidence that the ’510 patent was “one of
many thousands of patents potentially that read on that
phone.” Trial Tr. vol. 2 (afternoon), 9:1-4, Dec. 6, 2017,
ECF No. 404 (emphasis added). Although there are

52a
many patents that likely read on the accused devices, as
far as the jury was concerned, this was only a possibility.
See id.
Ericsson persuasively argues that the evidence presented at trial would not have been enough to warrant an
instruction on royalty stacking. See ECF No. 464 at 8-9.
The Federal Circuit has explained that “[t]he district
court need not instruct the jury on hold-up or stacking
unless the accused infringer presents actual evidence of
hold-up or stacking.” Ericsson, Inc. v. D-Link Sys., Inc.,
773 F.3d 1201, 1234 (Fed. Cir. 2014). “The mere fact that
thousands of patents are declared to be essential to a
standard does not mean that a standard-compliant company will necessarily have to pay a royalty to each SEP
holder.” Id. Though this case did not deal with a patent
declared essential to an industry standard, the Federal
Circuit’s point applies equally to testimony about unidentified patents that potentially cover the accused devices
and the royalties those patents might demand. Indeed,
Federal Circuit precedent suggests that TCL’s theory
about features covered by other unidentified patents
would be unreliable opinion without actual evidence of
royalty stacking. See Commonwealth Sci. & Indus. Research Organisation v. Cisco Sys., Inc., 809 F.3d 1295,
1302 (Fed. Cir. 2015) (“[A]bstract recitations of royalty
stacking theory . . . are insufficiently reliable.”).
The concern that Ericsson’s theory would erode all of
TCL’s profit should also have gone to the weight of the
evidence. The law is clear that an accused infringer’s
profit is not a cap on a reasonable royalty. See Powell v.
Home Depot USA Inc., 663 F.3d 1221, 1238 (Fed. Cir.
2011) (“[I]t is settled law that an infringer’s net profit
margin is not the ceiling by which a reasonable royalty is
capped.”). More important, while an accused infringer’s

53a
profit is relevant to the analysis, see id., TCL opened the
door to evidence that TCL underestimated its profit. See
Trial Tr. vol. 2 (afternoon), 63:1-3, Dec. 5, 2017, ECF No.
400 (Q. “Do you have any reason to doubt that [profit]
figure?” A. “Yes.” Q. “What’s that?”). The profit figure
the parties referenced at trial, according to Mr. Mills,
was the figure used in TCL’s “financial reporting accounting,” which did not correlate to TCL’s actual profit.
See id. 63:5-25. Mr. Mills explained, for example, that
TCL kept a war chest for patent royalties that were included in the financial reporting accounting as “costs,”
even though royalties were never paid. See id. 64:1-19.
These unpaid royalties, according to Mr. Mills, inflated
costs “to the tune of more than $50 million for some
years.” Id. 64:1-5.
Ericsson also persuasively argues that references to
unaccused products should not have necessitated a new
trial on damages. Cf. ECF No. 456 at 12-15. TCL argues
otherwise, but not because the discussion of unaccused
products was prejudicial under Rule 403. See ECF No.
427 at 13. Rather, TCL’s complaint is that the damages
model “is flawed” and “contrary to law” inasmuch as a
patentee “can only receive infringement damages on
those devices that actually performed the patented
method during the relevant infringement period.” Id.
(quoting Cardiac Pacemakers, Inc. v. St. Jude Med., Inc.,
576 F.3d 1348, 1358-59 (Fed. Cir. 2009). Yet TCL was
not assessed damages on unaccused products because the
jury was instructed that lump sum damages are available
only for “products Ericsson has accused in this case.”
Trial Tr. 25:21-26:4, Dec. 7, 2017, ECF No. 406; See
Weeks v. Angelone, 528 U.S. 225, 234 (2000) (“A jury is
presumed to follow its instructions.”).

54a
The problem the court identified with Ericsson’s reference to unaccused products was that Ericsson’s damages theory looked identical to a running royalty analysis, yet both sides agreed that damages would be in the
form of a lump sum. See ECF No. 456 at 12-15. It simply did not make sense for TCL to have willingly agreed to
pay what was in effect a running royalty all at once in
2014 as a lump sum. See id. TCL’s post-trial damages
motion, however, did not squarely raise this point. See
ECF No. 427. TCL agreed that the parties would have
entered into a lump sum license. See, e.g., Trial Tr. vol. 1
(morning), 145:21-146:2, Dec. 6, 2017, ECF No. 402. Ericsson simply populated the “book of wisdom,” see Lucent, 580 F.3d at 1333, with information about projected
sales of both accused and unaccused products. TCL did
not counter Ericsson’s theory with evidence or argument
that it would have been unusual for a sophisticated company like TCL to have graciously agreed to fully pay a
lump sum royalty based on forecasts and projections,
when it could have chosen to pay running royalties after
accounting for actual sales. See id. Ordinarily, a running
royalty analysis is not probative of a lump-sum agreement, see Lucent, 580 F.3d at 1327, but TCL’s concession
renders this point moot.
TCL’s remaining arguments for judgment as a matter
of law or a new trial on damages are not persuasive. The
court has already explained that Dr. Wecker’s survey
was not unreliable and that Mr. Mills’ opinion did not run
afoul of the entire market value rule. See ECF No. 456
at 11-12. Mr. Mills’ royalty rate was not arbitrary, contrary to TCL’s suggestion, because Mr. Mills adequately
grounded the split in at-risk profit by evaluating the parties’ respective bargaining positions at the hypothetical
negotiation. See Trial Tr. vol. 2 (afternoon) 15:10-24:6,

55a
Dec. 5, 2017, ECF No. 400. TCL makes an argument
about § 287’s limitation on damages that is difficult to
comprehend, see ECF No. 427 at 16-17, but suffice it to
say that TCL did not object to Mr. Mills’ testimony regarding notice of infringement before or during trial.
The argument is therefore waived. See, e.g., Montano v.
Orange Cty., Texas, 842 F.3d 865, 874 (5th Cir. 2016).
Moreover, the argument is hard to square with TCL’s
position that payment would have been made four years
early, which would have resulted in an exorbitant prejudgment interest award if the court applied the 11.4%
discount rate assumed by both experts. See infra § V.
Although Ericsson presented the jury with damages
estimates that accounted for future sales of unaccused
products, the jury’s $75 million assessment is consistent
with the court’s instruction to award damages only for
accused products. See Trial Tr. 25:21-26:4, Dec. 7, 2017,
ECF No. 406; Weeks, 528 U.S. at 234 (“A jury is presumed to follow its instructions.”). The undisputed royalty base of accused devices sold prior to trial was
21,415,223. Trial Tr. vol. 2 (afternoon), 26:3-14, Dec. 5,
2017, ECF No. 400. Applying Mr. Mills’ upper-end royalty rate and present value calculation to this royalty
base results in $61.2 million in damages for devices sold
up to trial. Id. 26:3-27:16, 45:1-7. The remaining $13.8
million in damages conservatively accounts for future
sales of accused products based on forecasts and inferences drawn from TCL’s past sales. See Trial Tr. vol. 2
(afternoon), 15:22-16:6, 27:3-29:14, Dec. 6, 2017, ECF No.
404 (Mr. Martinez’s projections); Trial Tr. vol. 2 (afternoon), 31:9-24, Dec. 5, 2017, ECF No. 400; id. 31:9-24
(discussion of TCL’s accelerating sales). In addition,
there are other ways they jury could have accounted only
for accused products and arrived at the $75 million as-

56a
sessment, as Ericsson explains. See ECF No. 441 at 8-9.
Thus, while the jury’s assessment includes damages for
future sales of accused products, which by definition is
what a lump sum payment reflects, the award did not
necessarily include damages for future sales of unaccused
products.
According to TCL, “[o]ther errors further tainted the
jury’s damages award,” ECF No. 429 at 1, but the court
is not persuaded. TCL contends that Ericsson’s initial
request for $245 million in damages was prejudicial, id. at
4-5, but the court fails to see why given that Ericsson’s
reference should have been fertile ground for TCL to explore on cross-examination, and in fact, should have
worked to TCL’s advantage in discrediting Mr. Mills’
theory. TCL failed to seize on the opportunity, and in
any event, the reduced $75 million assessment is an indication the jury was not swayed by Ericsson’s initial high
demand. TCL makes a meritless accusation about Ericsson’s “repeated references to TCL as Chinese,” ECF No.
429 at 5, yet TCL cites only one instance in which Ericsson’s counsel referred to “Chinese executives,” which was
simply a statement of fact. See Trial Tr. vol. 2 (afternoon), 73:9-11, Dec. 5, 2017, ECF No. 400. Similarly,
TCL complains that Ericsson told the jury about TCL’s
war chest full of unpaid patent royalties and referred to
TCL’s “two sets of books,” but TCL opened the door to
this evidence by asking Mr. Mills if he had any reason to
doubt TCL’s stated profit margin. See Trial Tr. vol. 2
(afternoon), 63:1-3, Dec. 5, 2017, ECF No. 400 (Q. “Do
you have any reason to doubt that [profit] figure?” A.
“Yes.” Q. “What’s that?”). Finally, TCL complains about
references to the Samsung agreement, ECF No. 429 at 78, but TCL stipulated to its admission and put the details
at issue, as the court explained at the pretrial conference.

57a
See Hearing Tr. 74:20-77:5, 81:4-19, Nov. 11, 2017, ECF
No. 366. For these reasons, the jury’s damages assessment is supported by substantial evidence, and a new trial on damages is unnecessary.
III.WILLFULNESS AND ENHANCED DAMAGES
The Patent Act provides that “the court may increase
the damages up to three times the amount found or assessed.” 35 U.S.C. § 284. The Supreme Court’s decision
in Halo Electronics, Inc. v. Pulse Electronics, Inc., 136 S.
Ct. 1923, 1933 (2016), clarified that “[t]he subjective willfulness of a patent infringer, intentional or knowing, may
warrant enhanced damages, without regard to whether
his infringement was objectively reckless.” Yet “enhanced damages . . . are not to be meted out in a typical
infringement case, but are instead designed as a ‘punitive’ or ‘vindictive’ sanction for egregious infringement
behavior.” Id. at 1932. The Supreme Court described
the requisite conduct as “willful, wanton, malicious, badfaith, deliberate, consciously wrongful, flagrant, or—
indeed—characteristic of a pirate,” emphasizing that enhanced damages “are generally reserved for egregious
cases of culpable behavior.” Id.
At the time of trial, there was uncertainty regarding
how to implement Halo. An unanswered question was
what role, if any, the jury must play. See ECF No. 359 at
10-11. One reading of Halo suggests that the factual inquiry is not merely whether the accused infringer knew
of the patent and knew it was infringing, but rather
whether the conduct has been “egregious.” See WesternGeco L.L.C. v. ION Geophysical Corp., 837 F.3d 1358,
1364 (Fed. Cir. 2016) (“The district court, on remand,
should consider whether ION’s infringement constituted
an ‘egregious case[ ] of misconduct beyond typical infringement’ meriting enhanced damages under § 284 and,

58a
if so, the appropriate extent of the enhancement.”), cert.
granted on other grounds in WesternGeco LLC v. ION
Geophysical Corp., 138 S. Ct. 734 (2018). Another reading of Halo suggests that the factual inquiry is simply
whether the infringement is intentional, and it is then for
the court to decide whether the conduct has been egregious enough to warrant enhancing damages. See Halo,
136 S. Ct. at 1933.
The latter reading, as the court saw it at the time,
takes a portion of a traditionally fact intensive question
away from the jury. In other contexts, juries decide not
only whether a party acted intentionally, but also whether the culpable conduct is “malicious, gross, or oppressive,” for example. See Pac. Mut. Life Ins. Co. v. Haslip,
499 U.S. 1, 23 (1991). It is clear from § 284 that any damages enhancement is a matter for the court, but it is not
clear from the statute or Halo that the court, as opposed
to the jury, should be deciding whether the culpable behavior goes beyond mere intentional conduct and becomes “wanton, malicious, bad-faith, . . . consciously
wrongful, [or] flagrant,” for example. See Halo, 136 S.
Ct. at 1932. Typically, when the legal standard includes
adjectives such as “malicious” or “flagrant,” the Seventh
Amendment right to have the matter decided by a jury is
most evident. See Worldwide Equip. of TN, Inc. v. United States, No. CV 14-108-ART, 2016 WL 3574395, at *1
(E.D. Ky. June 23, 2016) (Thapar, J.) (“It’s difficult to win
summary judgment when the legal question presented
uses nebulous adjectives like ‘specialty’ and ‘substantially.’ ”). One juror’s “malicious” conduct might be another’s benign, competitive business activity. See id.
For that reason, the court gave a robust instruction to
the jury, the goal being to let the jury decide not only
whether the infringement was intentional, but also

59a
whether it was egregious. The instruction stated in relevant part:
Willful infringement does not mean merely that the
accused infringer knew of the patent and knew that
it was infringing. It requires something more.
A finding of willful infringement is reserved for the
most egregious or shocking cases of intentional or
culpable patent infringement. By culpable or intentional, I mean that the accused infringer must have
known about the patent, must have known that the
patent was valid, and must have known that its behavior was infringing the patent.
In addition, the infringer’s culpable or intentional
infringement behavior must have been egregious or
shocking—in other words, malicious, consciously
wrongful, or done in bad faith.
The reason you are asked to decide whether any infringement was willful is because your finding may
factor into my decision whether to enhance any
damages that you award, or, in other words, to
award punitive damages. This is because the law
says that it’s my role to award any punitive damages for willful infringement.
Trial Tr. 27:23-28:16, Dec. 7, 2017, ECF No. 406. Thus,
by finding that TCL willfully infringed, the jury not only
determined that TCL’s infringement was intentional, but
also that the conduct was egregious or shocking. See
Weeks, 528 U.S. at 234 (“A jury is presumed to follow its
instructions.”).
The Federal Circuit has since offered helpful guidance. First, “the entire willfulness determination is to be
decided by the jury.” Exmark Mfg. Co. Inc. v. Briggs &
Stratton Power Prod. Grp., LLC, 879 F.3d 1332, 1353

60a
(Fed. Cir. 2018). Second, this court’s willfulness instruction may have been more robust that it needed to be.2 On
the last day of trial, the Federal Circuit released its decision in Arctic Cat Inc. v. Bombardier Recreational
Products Inc., 876 F.3d 1350 (Fed. Cir. 2017), which approved a more modest instruction: “Artic Cat must
prove . . . that BRP actually knew or should have known
that its actions constituted an unjustifiably high risk of
infringement of a valid and enforceable patent,” id. at
1371 (quoting jury instruction).3 Artic Cat clarified that
“subjective willfulness alone—i.e., proof that the defendant acted despite a risk of infringement that was either
known or so obvious that it should have been known to
the accused infringer,—can support an award of enhanced damages.” Id. (internal quotation marks and citations omitted). The implication from Exmark and Artic Cat is that the jury must decide whether the infringement was intentional, and then the court must decide whether the intentional conduct was egregious
enough to justify enhanced damages.
Thus, TCL’s motion for judgment as a matter of law
on willfulness only requires the court to evaluate whether
substantial evidence supports the jury’s finding that
TCL’s infringement was willful. TCL emphasizes that
the conduct was not egregious enough, and those arguments are relevant to the court’s enhancement decision.
2

Neither party objected to the instruction. See Trial Tr. 2:23-11:9,
Dec. 7, 2017, ECF No. 406.
3
The Artic Cat instruction was given prior to Halo and thus imposed
a clear and convincing evidence burden, but that aspect of the instruction was not challenged on appeal, nor did the Federal Circuit
approve that part of the instruction. See Halo, 136 S. Ct. at 1934
(enhanced damages governed by preponderance of the evidence
standard).

61a
See ECF No. 427 at 8-12. But TCL’s assumption that a
jury’s willfulness finding cannot stand without egregious
or shocking infringement behavior is inconsistent with
the Federal Circuit’s decision in Artic Cat. The jury
found TCL’s infringement intentional and egregious, but
TCL’s Rule 50(b) motion implicates only the intent finding.
The jury’s finding could have only been predicated on
willful infringement that occurred after Ericsson sued
TCL, but the timing of the willfulness is not at issue. The
parties agreed that TCL did not receive notice of Ericsson’s infringement allegations until October 21, 2014, the
date Ericsson filed its lawsuit. See J. Trial Ex. 1 at 5.
There is uncertainty regarding whether post-lawsuit
conduct can support a willfulness finding by itself, see,
e.g., Cont’l Circuits LLC v. Intel Corp., No. CV16-2026
PHX DGC, 2017 WL 2651709, at *8 n.11 (D. Ariz. June
19, 2017), but TCL does not argue that willfulness is categorically unavailable when it occurs only after a lawsuit
is filed. See ECF No. 427 at 11. At most, TCL argues
that its conduct was not egregious enough because “there
was not even a pre-suit notice of infringement.” Id. The
assumption that willfulness may exist based solely on
post-lawsuit conduct, however, has not been challenged.
Substantial evidence supports the jury’s willfulness
finding. Central to the willfulness inquiry is an accused
infringer’s subjective beliefs. See Erfindergemeinschaft
UroPep GbR v. Eli Lilly & Co., 240 F. Supp. 3d 605, 618
(E.D. Tex. 2017) (Bryson, J., sitting by designation).
While there was no evidence regarding TCL’s subjective
beliefs about the ’510 patent, the jury could have inferred
intent from circumstantial evidence. See Georgetown
Rail Equip. Co. v. Holland L.P., 867 F.3d 1229, 1245
(Fed. Cir. 2017). First, the jury heard that TCL knew of

62a
the ’510 patent and the infringement allegations once the
lawsuit was filed. See J. Trial Ex. 1 at 5. Second, not a
single TCL decision maker testified that TCL subjectively believed the ’510 patent was invalid or not infringed.
Rather, Ericsson presented deposition testimony from
TCL employees who all pleaded ignorance, indicating
that they had not read the ’510 patent. See Trial Tr.
vol. 1 (morning) 43:17-20, 45:5-20, 50:15-17, 60:14-20,
62:19-63:3, Dec. 5, 2017, ECF No. 400. In light of the
parties’ agreement concerning knowledge of the ’510 patent and the infringement allegations, and the lack of any
testimony about TCL’s subjective beliefs, the jury could
have concluded, more likely than not, that TCL knew it
was infringing a valid patent.
TCL argues that “evidence of its subjective good faith
belief in non-infringement refutes a finding of willful infringement.” ECF No. 427 at 11. But there was no evidence of any TCL belief about whether the ’510 patent
was invalid or infringed. TCL appears to assume that a
jury must infer a subjective belief of noninfringement
when a party presents a reasonable defense at trial, but
equally possible is the inference that a defense is unreasonable and hence circumstantial evidence of willful infringement. The jury was under no obligation to credit
TCL’s defense as reasonable or infer that the defense
was evidence of TCL’s good-faith belief, particularly
when there was no evidence about that belief. See Power
Integrations, Inc. v. Fairchild Semiconductor Int’l, Inc.,
No. CV 04-1371-LPS, 2017 WL 6206382, at *12 (D. Del.
Dec. 8, 2017) (reasonableness of an accused infringer’s
defense “only one factor among the totality of the circumstances”) (citation omitted).
According to TCL, “the question of infringement was
a close call,” ECF No. 427 at 12, but the court disagrees.

63a
TCL’s primary noninfringement argument was that the
Android system does not include an “interception module” because the code responsible for interception is scattered throughout the operating system in different files.
The weakness of this position could have been enough by
itself to influence the jury’s willfulness finding. The argument simply did not make sense in terms of computer
science, and Dr. Jones made this point clear. In any case,
it is not the court’s role to decide whether a defense was
reasonable. See Exmark, 879 at 1353. The jury must
have concluded that the defense was not reasonable
enough to permit an inference that TCL did not willfully
infringe the patent.4 Substantial evidence supports the
jury’s finding.
That leaves only the question of whether damages
should be enhanced. Enhancement is within the court’s
discretion, but “ ‘[d]iscretion is not whim.’ ” Halo, 136 S.
Ct. at 1931 (quoting Martin v. Franklin Capital Corp.,
546 U.S. 132, 139 (2005)). “Through nearly two centuries
of discretionary awards and review by appellate tribunals, ‘the channel of discretion ha[s] narrowed,’ so that
such damages are generally reserved for egregious cases
of culpable behavior.” Id. at 1932 (quoting Friendly, Indiscretion About Discretion, 31 Emory L.J. 747, 772
(1982)).

4

The Patent Office instituted inter partes review of the ’510 patent
after concluding that TCL established a “reasonable likelihood” that
claims of the ’510 patent are invalid, though the Patent Office ultimately found the claims not invalid. See ECF No. 359 at 7; see also
35 U.S.C. § 314(a). Ordinarily, the Patent Office’s institution decision
would be evidence of the reasonableness of an accused infringer’s
good faith belief of invalidity, and the court permitted TCL to present such evidence at trial, see ECF No. 359 at 7, but TCL declined
to do so.

64a
Prior to Halo, the factors articulated in Read Corp. v.
Portec, Inc., 970 F.2d 816 (Fed. Cir. 1992), guided the
analysis. The Halo standard, by contrast, “merely requires the district court to consider the particular circumstances of the case to determine whether it is egregious.” Presidio Components, Inc. v. Am. Tech. Ceramics Corp., 875 F.3d 1369, 1383 (Fed. Cir. 2017). The court
is no longer required to rely on Read, see id. at 1382-83,
and the Federal Circuit has emphasized that the Read
factors were always “non-exclusive,” Georgetown Rail,
867 F.3d at 1244. Even after Halo, however, courts continue to look to the Read factors, and there is nothing obviously wrong with that approach given that the factors
are designed to measure how culpable infringement has
been, while considering mitigating factors. See Green
Mountain Glass LLC v. Saint-Gobain Containers, Inc.,
No. CV 14-392-GMS, 2018 WL 1202638, at *10-*13 (D.
Del. Mar. 8, 2018).
Five of the nine Read factors favor enhancement. The
second factor is “whether the infringer, when he knew of
the other’s patent, investigated the patent and formed a
good faith belief that it was invalid or that it was not infringed.” Read, 970 F.2d at 826-27. The jury’s finding
that TCL’s infringement was both culpable and egregious necessarily means that the jury did not credit TCL
with a good faith belief about the ’510 patent. This was
not a surprising result given the lack of evidence about
the subjective beliefs of TCL’s decision makers.
The noninfringement defense TCL presented at trial
does not indicate anything about TCL’s beliefs. The defense was based on Dr. Malek’s understanding of the
plain and ordinary meaning of the phrase “interception
module,” but this understanding surfaced only at the end
of the lawsuit. There is no indication that TCL developed

65a
a good faith belief that the Android system did not include an “interception module” near the time TCL
learned of the infringement allegations. Every indication
is to the contrary. After TCL learned of the allegations,
Dr. Malek, on behalf of TCL, offered a definition of “interception module” that had nothing to do with the location of the source code responsible for interception, and
in fact, was entirely consistent with infringement. See
Trial Tr. vol. 2 (afternoon), 58:3-60:24, Dec. 6, 2017, ECF
No. 404.
Dr. Malek’s earlier, broader understanding of “interception module” may seem consistent with the notion
that TCL believed the ’510 patent to be invalid. TCL’s
success in convincing the Patent Office to institute inter
partes review of the ’510 patent would ordinarily be evidence of the reasonableness of such a belief. What is
missing, however, is any evidence from TCL regarding
its actual, subjective beliefs. The TCL employees called
by deposition at trial indicated only that they did not read
the patent. See Trial Tr. vol. 1 (morning) 43:17-20, 45:520, 50:15-17, 60:14-20, 62:19-63:3, Dec. 5, 2017, ECF No.
400. It would be impossible to conclude that these employees reasonably believed the patent was invalid when
the employees admitted they had no beliefs at all about
the matter.
The fourth Read factor, “the infringer’s size and financial condition,” 970 F.2d at 826-27, also favors enhancement. TCL’s website touts TCL’s seventh-place ranking
among global handset and tablet manufacturers. See
http://www.tclcom.com/?page=company_profile (last visited April 27, 2018). The company sells products in over
160 countries, has more than 12,000 employees, nine research and development facilities, and a factory in China
capable of manufacturing 120 million devices per year.

66a
See id. In 2016, TCL sold more than 68 million handsets.
See id. TCL is also well on its way to completing a global
“step-up” strategy, entering the phone and tablet market
with lower-end products, with the goal of later introducing upper-end products and eventually competing alongside Apple and Samsung as one of the top three handheld
device manufacturers. See Trial Tr. vol. 2 (afternoon),
30:15-37:11, Dec. 5, 2017, ECF No. 400.
The “closeness of the case,” or the fifth Read factor,
970 F.2d at 826-27, similarly favors enhancement. Although the case as a whole may have been close of light
of TCL’s success in convincing the Patent Office that all
but one of Ericsson’s asserted patents are invalid, see
ECF No. 359 at 4, the case presented at trial concerning
the ’510 patent was not close. TCL did not present an invalidity defense, and the noninfringement position was
weak. Contrary to TCL’s arguments, see ECF No. 425,
the fact that the jury requested certain exhibits during
deliberation at most reflects thorough consideration and
is not an indication that the case was close.
Finally, the sixth and seventh Read factors, “the duration of the misconduct,” and “the remedial action by the
infringer,” 970 F.2d at 826-27, favor enhancement. There
is no indication that TCL did anything differently after
learning of the infringement allegations in 2014. Rather,
TCL’s sales of accused products have increased since it
learned of the infringement allegations. See Trial Tr.
vol. 2 (afternoon), 30:15-37:11, Dec. 5, 2017, ECF No. 400.
TCL’s infringement has persisted, indeed worsened, over
the nearly three-year period between notice of infringement and trial. See Intra Corp. v. Hamar Laser Instruments, Inc., 662 F. Supp. 1420, 1439 (E.D. Mich. 1987)
(doubling instead of trebling damages because the defendant “voluntarily ceased manufacture and sale of in-

67a
fringing systems during the pendency of this litigation”),
aff ’d without opinion, 862 F.2d 320 (Fed. Cir. 1988), cert.
denied, 490 U.S. 1021 (1989).
Ericsson contends that two additional Read factors favor enhancement—“the infringer’s behavior in the litigation,” and “the infringer’s motivation for harm,” see 970
F.2d at 826-27; ECF No. 413 at 5, 8, but the court disagrees. As for TCL’s behavior in the litigation, Ericsson
emphasizes TCL’s alleged discovery misconduct, that
TCL advanced then withdrew allegedly meritless patent
infringement counterclaims, and that TCL’s defenses
were weak. ECF No. 413 at 10-14. A case of this size is
difficult to manage, however, particularly during discovery, and the conduct Ericsson points to as justifying an
enhancement does not stand out as unusual in a complex
patent case. This is not to say that litigation misconduct
in a patent case cannot rise to a level that would warrant
enhanced damages, but this case does not justify that
conclusion.
TCL’s motivation for harm weighs against or at least
does not favor enhancement, contrary to Ericsson’s position. As other courts have recognized, the Federal Circuit has “been relatively quiet regarding the interpretation of this factor.” Century Wrecker Corp. v. E.R. Buske
Mfg. Co., 913 F. Supp. 1256, 1290 (N.D. Iowa 1996).
What is clear enough, however, is that if an accused infringer’s motivation for infringement—even if deliberate—resulted from economic reasons unrelated to harming the patentee, then the infringer’s motivation for harm
should not weigh in favor of enhancement. Read, 970
F.2d at 827 (“[D]efendants infringing acts, although deliberate and with knowledge of plaintiff ’s rights, could
not be termed pernicious due to prevailing ‘economic
pressure in the form of customer dissatisfaction.’ ”) (quot-

68a
ing American Safety Table Co. v. Schreiber, 415 F.2d
373, 379 (2d Cir. 1969)). TCL did not know about Ericsson’s patents before it began selling devices with the accused Android operating system, TCL does not compete
with Ericsson in the relevant market, and TCL’s motive
is profit-driven. See Trial Tr. vol. 2 (afternoon), 30:1537:11, Dec. 5, 2017, ECF No. 400. There was no evidence
that TCL intended to harm Ericsson.
Two other circumstances weigh against enhancement.
First, notwithstanding the question of whether enhanced
damages are available based solely on post-lawsuit conduct (which is not in dispute), the parties agree that when
TCL began infringing the ’510 patent, the infringement
was not willful. See J. Trial Ex. 1 at 5. “[I]ndependent
invention or attempts to design around and avoid the patent or any other factors tending to show good faith,
should be taken into account and given appropriate
weight.” SRI Int’l, Inc. v. Advanced Tech. Labs., Inc.,
127 F.3d 1462, 1465 (Fed. Cir. 1997); see also Gustafson,
Inc. v. Intersystems Indus. Prod., Inc., 897 F.2d 508, 510
(Fed. Cir. 1990) (discussing cases in which an infringing
product had been manufactured before an asserted patent issued). TCL began infringing before it knew about
the ’510 patent, much like an infringer who develops an
accused device independently. See J. Trial Ex. 1 at 5.
This circumstance makes TCL less culpable than a party
whose infringement was intentional from the outset.
Second, it was Google, not TCL, who developed the
Android operating system. See Trial Tr. vol. 2 (afternoon), 6:16-7:14, Dec. 5, 2017, ECF No. 400. Google’s
contract with TCL requires TCL to shoulder any resulting liability, but the law has traditionally regarded one
who receives stolen property as less culpable than the
thief. See Stuart P. Green, Thieving and Receiving:

69a
Overcriminalizing the Possession of Stolen Property, 14
New Crim. L. Rev. 35, 35 (2011). This is not to analogize
Google’s development of Android and TCL’s subsequent
use of it to criminal theft, but rather to recognize that
TCL’s lack of involvement in the design and development
of Android mitigates TCL’s culpability. See SRI, 127
F.3d at 1465.
Ericsson requests a 67% enhancement of the jury’s
damages assessment, or $50 million. See ECF No. 413
at 3. This request incorrectly assumes, however, that
TCL’s litigation behavior and motivation for harm favor
enhancement, and the request fails to consider other mitigating factors. A one-third enhancement, or $25 million,
is a sufficient deterrent.
IV. ATTORNEY’S FEES
The Patent Act permits the court to award attorney’s
fees to the prevailing party in “exceptional cases.” 35
U.S.C. § 285. “[A]n ‘exceptional’ case is simply one that
stands out from others with respect to the substantive
strength of a party’s litigating position (considering both
the governing law and the facts of the case) or the unreasonable manner in which the case was litigated.” Octane
Fitness, LLC v. ICON Health & Fitness, Inc., 134 S. Ct.
1749, 1756 (2014) (quoting § 285). While Ericsson is correct that TCL’s noninfringement defense was weak, TCL
succeeded in convincing the Patent Office that all but one
of Ericsson’s asserted patents are invalid, see ECF No.
359 at 4, and the damages question was particularly
close—so much so that the court originally thought the
award would not stand on appeal. See ECF No. 456.
Moreover, TCL’s litigation behavior was not unusual for
a case of this size and complexity. Finally, a finding of
willfulness does not make a case exceptional. See Stryker Corp. v. Zimmer, Inc., 837 F.3d 1268, 1279 (Fed. Cir.

70a
2016). For these reasons, Ericsson is not entitled to attorney’s fees.
V. INTEREST AND COSTS
Upon a finding of infringement, the patent owner is
entitled to damages adequate to compensate for the infringement, “together with interest and costs as fixed by
the court.” 35 U.S.C. § 284. “When a patentee asserts a
patent claim that is held to be valid and infringed, prejudgment interest is generally awarded.” Ecolab, Inc. v.
FMC Corp., 569 F.3d 1335, 1353 (Fed. Cir. 2009), amended on reh’g in part, 366 F. App’x 154 (Fed. Cir. 2009).
Some circumstances, such as a patentee’s undue delay in
prosecuting the lawsuit, may justify limiting or withholding prejudgment interest, but “prejudgment interest
should be awarded under § 284 absent some justification
for withholding such an award.” Gen. Motors Corp. v.
Devex Corp., 461 U.S. 648, 657 (1983).
The rate of prejudgment interest and whether it
should be compounded “are matters left largely to the
discretion of the district court.” Bio-Rad Labs., Inc. v.
Nicolet Instrument Corp., 807 F.2d 964, 969 (Fed. Cir.
1986). “[T]he ‘standard practice’ in the Eastern District
of Texas is to award prejudgment interest at the prime
rate, compounded quarterly.” Erfindergemeinschaft
UroPep GbR v. Eli Lilly & Co., No. 2:15-cv-1202-WCB,
2017 WL 2190055, at *8 (E.D. Tex. May 18, 2017)
(Bryson, J., sitting by designation) (collecting cases).
Ericsson argues that the standard prejudgment interest award is not adequate to compensate for TCL’s infringement because “both experts used a [higher] discount rate of 11.4%.” ECF No. 408 at 2. Ericsson determined the historical value of its damages estimate as
of October 21, 2014, or the date TCL received notice of
the infringement allegations, by applying an 11.4% dis-

71a
count rate. Id. at 2. TCL applied the same discount rate
but discounted its damages estimate to April 1, 2010, the
date of the hypothetical negotiation. See id.; see also
Trial Tr. vol. 2 (afternoon), 44:9-22, Dec. 5, 2017, ECF
No. 400. Consequently, Ericsson contends that the jury’s
damages award was discounted by either $30 million, assuming Ericsson’s date of payment, or $97 million, assuming TCL’s date of payment. See ECF No. 408 at 2;
ECF No. 415 at 1.
The nature of the parties’ respective damages theories, however, does not entitle Ericsson to a prejudgment
interest rate of 11.4%. The jury did not give Ericsson the
damages it requested. See Trial Tr. 67:17-18, Dec. 7,
2017, ECF No. 406 (“The answer that we think you
should fill in there is $125 million.”). Moreover, the jury’s
award does not deprive Ericsson of the time value of
money. Ericsson has not presented evidence that it had
to borrow funds during the infringement period at an
11.4% interest rate. See Erfindergemeinschaft UroPep,
2017 WL 2190055, at *9. Viewing TCL’s denial of a timely royalty payment as a compulsory loan from Ericsson,
the prime rate compounded quarterly is adequate to
make Ericsson whole.5 See id.
TCL argues that prejudgment interest should not be
awarded at all because the verdict form asked the jury
“what sum of money, if paid today in cash . . . would
compensate Ericsson for TCL’s infringement”? ECF
No. 390 (emphasis added). Thus, according to TCL, the
jury awarded prejudgment interest. See ECF No. 415 at
2-4. The court disagrees. Neither party told the jury
what “paid today in cash” means, and there was no in5

For this reason, TCL’s suggestion to use the T-Bill or commercial
paper rate is not persuasive.

72a
struction on prejudgment interest. Other courts have explained that “paid now in cash” does not imply prejudgment interest, but rather is typically included in a jury
question to negate speculation about postjudgment interest on future damages, such as lost wages. See Pressey
v. City of Houston, 701 F. Supp. 594, 596 (S.D. Tex.
1988), rev’d on other grounds in Pressey v. Patterson, 898
F.2d 1018 (5th Cir. 1990). Courts in patent cases routinely award prejudgment interest despite the phrase “paid
now in cash” or an equivalent phrase in a damages question. See ECF No. 422 at 1 n.2 (collecting cases).
The only remaining issue concerning prejudgment interest is the date from which it should be calculated. Ericsson agrees that it is not entitled to damages prior to
October 21, 2014, the date TCL received notice of Ericsson’s infringement allegations. J. Trial Ex. 1 at 5. Ironically, because the parties both relied on such a high discount rate of 11.4%, TCL contended at trial that even
though damages would not accrue until October 21, 2014,
TCL would have paid for the lump sum license more than
four years earlier at the hypothetical negotiation on April
1, 2010. See Trial Tr. vol. 2 (afternoon), 44:9-22, Dec. 5,
2017, ECF No. 400. TCL’s position thus resulted in a
more discounted number, but the position obviously ignored the effect of prejudgment interest—which, if based
on the parties 11.4% discount rate, would have amounted
to a nearly $100 million oversight. Ericsson would now
prefer TCL suffer the consequence of their position. See
ECF No. 422 at 5 (referring to calculations compounded
from “the time of the hypothetical negotiation”).
Such a large prejudgment interest award is not warranted, however. Ericsson agreed that compensatory damages could not accrue prior to October 21, 2014. J. Trial Ex. 1 at 5. Thus, Ericsson will not be left less than

73a
whole without interest prior to that date. See Gen. Motors Corp. v. Devex Corp., 461 U.S. 648, 655 (1983) (purpose of prejudgment interest is “to ensure that the patent owner is placed in as good a position as he would
have been in had the infringer entered into a reasonable
royalty agreement”). It is true that the parties disagreed
about when the lump sum royalty would have been paid.
See Trial Tr. vol. 2 (afternoon), 44:9-22, Dec. 5, 2017,
ECF No. 400. To the extent this was a factual dispute
the jury should have resolved, the court would have precluded prejudgment interest prior to when damages
could legally accrue even if the jury had agreed that TCL
would have decided to pay the lump sum royalty four
years early. For these reasons, Ericsson is entitled to
prejudgment interest at the prime rate, compounded
quarterly from October 21, 2014, on the $75 million damages award. See Underwater Devices Inc. v. MorrisonKnudsen Co., 717 F.2d 1380, 1389 (Fed. Cir. 1983), overruled on other grounds by In re Seagate Tech., LLC, 497
F.3d 1360 (Fed. Cir. 2007) (“[W]e hold that prejudgment
interest can only be applied to the primary or actual
damage portion and not to the punitive or enhanced portion.”); see also Beatrice Foods Co. v. New England
Printing & Lithographing Co., 923 F.2d 1576, 1580 (Fed.
Cir. 1991) (discussing Underwater Devices holding).6
“TCL does not oppose postjudgment interest as calculated pursuant to 28 U.S.C. § 1961.” ECF No. 425 at 15.
Postjudgment interest is required by the statute. See
§ 1961(a) (“Interest shall be allowed . . . .”). Postjudgment interest is calculated on all elements of the money
judgment, including a district court’s award of prejudg6

Based on Mr. Mills’ methods, see ECF No. 422-4, prejudgment interest will be approximately $10.2 million through May 10, 2018.

74a
ment interest and enhanced damages. See Caffey v. Unum Life Ins. Co., 302 F.3d 576, 586 (6th Cir. 2002); Bancamerica Commercial Corp. v. Mosher Steel of Kans.,
Inc., 103 F.3d 80, 82 (10th Cir.1996); Air Separation, Inc.
v. Underwriters at Lloyd’s of London, 45 F.3d 288, 291
(9th Cir.1995); Quesinberry v. Life Ins. Co. of N. Am.,
987 F.2d 1017, 1031 (4th Cir.1993) (en banc); Ins. Co. of
N. Am. v. Lexow, 937 F.2d 569, 572 n. 4 (11th Cir.1991).
Accordingly, Ericsson is entitled to postjudgment interest on the entire amount of the money judgment until the
judgment is paid.7 Finally, TCL does not dispute that
Ericsson is entitled to costs pursuant to 28 U.S.C. § 1920.
See ECF No. 425 at 15.
VI. CLAIMS AND PRODUCTS NOT ENCOMPASSED BY THE
JURY VERDICT
Ericsson originally alleged that TCL infringed five patents. Compl. ¶¶ 11-17, ECF No. 1. Ericsson dismissed
claims related to one of the patents (the ’815 patent) in
late 2015, ECF No. 185 at 2-3, and due to ongoing inter
partes review of the other patents, the only claims that
proceeded to trial were based on the ’510 patent, see
ECF No. 359 at 3-7. Inter partes review is now complete—the Patent Office found the asserted claims of the
’052, ’310, and RE ’931 patents invalid. See ECF No. 359
at 4. Ericsson has not appealed from the decisions concerning the ’310 and RE ’931 patents, and as a result, the
Patent Office canceled the claims in February of this

7

Under the statutory formula, postjudgment interest is calculated
based on the weekly average 1-year constant maturity Treasury
yield for the calendar week preceding the date of judgment. Interest
runs from the day judgment is entered and is compounded annually
until payment.
See Erfindergemeinschaft UroPep, 2017 WL
2190055, at *10.

75a
year. See ’052 and RE ’931 Patents at Inter Partes Review Certificate; 35 U.S.C. § 318(b).
TCL therefore moves to dismiss claims based on the
’310 and RE ’931 patents. ECF No. 424 at 2. Ericsson
originally opposed this request, arguing instead for a
severance and stay pending the Supreme Court’s decision in Oil States Energy Services, LLC v. Greene’s Energy Group, LLC. See ECF No. 412 at 4. Ericsson’s reply, however, no longer requests severance. See ECF
No. 437. Moreover, the Supreme Court recently issued
its decision in Oil States, holding that inter partes review
violates neither Article III nor the Seventh Amendment.
See No. 16-712, 2018 WL 1914662, at *3 (U.S. Apr. 24,
2018). Accordingly, because claims canceled by the Patent Office no longer have any legal effect, see Fresenius
USA, Inc. v. Baxter Int’l, Inc., 721 F.3d 1330, 1345-46
(Fed. Cir. 2013), Ericsson’s claims based on the ’310 and
RE ’931 patents should be dismissed with prejudice.
Although the Patent Office also found claims of the
’052 patent invalid, see ECF No. 359 at 4, Ericsson has
appealed from this decision, see ECF No. 437 at 1. Consequently, the Patent Office has not formally canceled
the claims as required by § 318(b). TCL nevertheless requests that claims based on the ’052 patent be dismissed,
apparently without prejudice. See ECF No. 424 at 7. As
support for this request, TCL cites C-Cation Technologies, LLC v. Time Warner Cable Inc. for the proposition
that a complaint based on claims found invalid by the Patent Office should be dismissed. See No. 2:14-CV-00059JRG-RSP, 2017 WL 6498072, at *1 (E.D. Tex. Dec. 19,
2017), report and recommendation adopted, No.
214CV00059JRGRSP, 2018 WL 295360 (E.D. Tex. Jan. 4,
2018). TCL misunderstands C-Cation, however, which
dealt with collateral estoppel arguments TCL has not

76a
made. See id. at *1-*2. A canceled patent claim has no
legal effect, see Fresenius, 721 F.3d at 1345-46, but the
Patent Office has not yet canceled the ’052 patent claims.
Consequently, claims based on the ’052 patent should be
severed into a new cause of action and stayed pending
Ericsson’s appeal.
The remaining issue concerns Ericsson’s request to
sever and stay adjudication of products not encompassed
by the jury’s verdict. See ECF No. 412 at 1-2. While Ericsson presented evidence concerning unaccused and unreleased products at trial, the only products the jury
found to be covered by the ’510 patent are those that
were accused in the case. See J. Trial Ex. 1 at 1-3 (table
of accused products). The jury was instructed that lump
sum damages are available only for “products Ericsson
has accused in this case.” Trial Tr. 25:21-26:4, Dec. 7,
2017, ECF No. 406; See Weeks, 528 U.S. at 234 (“A jury
is presumed to follow its instructions.”). Because the infringement theory for each of the accused products was
identical, the jury’s verdict represents a determination
that each accused product is covered by the ’510 patent;
any contrary result would be inconsistent with the evidence presented at trial.
As for accused products, the jury’s lump sum damages
assessment represents full compensation for all past and
future sales of these products. See Trial Tr. 25:21-25,
Dec. 7, 2017, ECF No. 406; Summit 6, 802 F.3d at 130001 (“In this case, the district court properly denied Summit’s request for an ongoing royalty because the jury
award compensated Summit for both past and future infringement through the life of the patent.”). TCL is
therefore correct that “the jury’s lump-sum damages
award gave TCL a license to practice the ’510 patent in
future products through the life of the ’510 patent,” see

77a
ECF No. 424 at 1, but this is only true for accused products. Thus, to the extent Ericsson is seeking a “future
compulsory royalty” for accused products, see ECF No.
412 at 1, there is no basis for such a royalty, see Summit
6, 802 F.3d at 1300-01.
Unaccused products are another matter. The jury neither found such products to be covered by the ’510 patent, nor did the jury award damages for such products.
Ericsson requests that these products be severed into a
new cause of action so that Ericsson can “address the
procedure for requesting a compulsory forward-looking
royalty with respect to newly-released TCL products ‘not
colorably different’ from the products covered by the jury’s lump-sum damages award.” ECF No. 412 at 3.
There is no basis to do so, however.
Courts often sever and stay the adjudication of products not encompassed by a jury verdict, but typically as
to accused products that have not yet been sold. See, e.g.,
Paice LLC v. Toyota Motor Corp., 504 F.3d 1293, 1314-16
(Fed. Cir. 2007). When a patentee requests running royalty damages, and the jury awards damages through trial, district courts have authority to craft a compulsory
ongoing royalty for future sales of products the jury
found to infringe. See id. This is not at all like the situation presented by this case. The jury adjudicated issues
only as they related to accused products, and the jury
awarded a lump sum royalty, not a running royalty. As
for the accused products, the case is over.
Contrary to Ericsson’s assumption, the resolution of
liability and damages with respect to accused products
does not automatically give rise to a remedy with respect
to unaccused products. “Victory in an infringement suit
requires a finding that the patent claim covers the alleged infringer’s product or process . . . .” Markman v.

78a
Westview Instruments, Inc., 517 U.S. 370, 374 (1996)
(quotation and citation omitted). As for unaccused products, this determination has not been made. In a new
lawsuit, Ericsson may argue that the judgment in this
case has a preclusive effect with respect to products that
are not “colorably different” from those already found to
infringe, but that dispute is for another day. See Hallco
Mfg. Co. v. Foster, 256 F.3d 1290, 1297-98 (Fed. Cir.
2001). To have this case swallow all products Ericsson
contends are not “colorably different” from the infringing
products would be to ignore procedure a patent owner
must ordinarily meet in a patent infringement case.
Even if it were procedurally permissible to sever unaccused products into a new cause of action for a “colorably different” determination, there is another reason why
Ericsson’s request should be denied. As courts in this
district have recognized, when a patent owner presents
the court with “an elusive target,” encompassing some
unknown variety and number of unaccused products, a
new cause of action is the proper vehicle for resolving the
dispute. See Fractus, S.A. v. Samsung Elecs. Co., No.
6:09-CV-203, 2013 WL 1136964, at *2 (E.D. Tex. Mar. 15,
2013). An accused infringer such as TCL may “continue
to release new [products],” which the patent owner “will
invariably argue are not ‘colorably different’ from the adjudicated models.” See id. Ericsson identifies only one
product it contends is not “colorably different” from adjudicated models, see ECF No. 412 at 3 n.2, yet Ericsson
acknowledges that “[d]ue to the speed with which TCL
releases new phone models, there are already several
TCL Android smartphones—previously unaccused and
not covered by the lump sum verdict—that Ericsson will
request to be subject to a compulsory future royalty,” id.
at 3. Thus, for the same reasons the court gave in Frac-

79a
tus, Ericsson’s request should be denied without prejudice to Ericsson filing a new action involving unaccused
products.
CONCLUSION
Eight jurors unanimously found that TCL willfully infringed claims 1 and 5 of the ’510 patent, and awarded
$75 million in damages. While the court previously found
Ericsson’s damages theory unreliable under Daubert, the
flaw in the theory should have gone to the weight of evidence, not its admissibility. TCL had every opportunity
to illuminate the flaw, but the jury agreed with Ericsson,
and it was the jury’s province to make that decision.
“That it is violative of the Seventh Amendment to the
Constitution of the United States for a court to so invade
the province of a jury is so fundamental that it need not
be supported by citation.” Korbut v. Keystone Shipping
Co., 380 F.2d 352 (5th Cir. 1967). Daubert should not be
used as camouflage to invade the jury’s province, and it is
upon that basis the court reconsiders its prior order.
Accordingly,
It is ORDERED and ADJUDGED:
(1) TCL’s renewed motion for judgment as a matter of
law and motion for a new trial, ECF Nos. 427 and 429,
are denied.
(2) Ericsson’s motion for reconsideration of the court’s
order granting TCL’s motion for a new trial, ECF No.
464, is granted. The court’s order for a new trial, ECF
No. 456 at 16-17, is vacated, and the jury’s damages verdict, ECF No. 390, is reinstated in its entirety.
(3) Ericsson’s motion for enhanced damages, ECF No.
413, is granted in part and denied in part. The jury’s
damages award is enhanced by one-third, or $25 million.

80a
(4) Ericsson’s motion for attorney’s fees, ECF No. 413,
is denied.
(5) Ericsson’s motion for prejudgment interest, ECF
No. 413, is granted in part and denied in part. Ericsson
is awarded prejudgment interest on the $75 million damages award at the prime rate, compounded quarterly
from October 21, 2014, until but not including the date of
judgment.
(6) Ericsson’s motions for postjudgment interest pursuant to 28 U.S.C. § 1961 and costs pursuant to 28 U.S.C.
§ 1920, ECF No. 413, are granted. Postjudgment interest will accrue on the entire money judgment, including
prejudgment interest and enhanced damages, from the
date judgment is entered until payment.
(7) Ericsson’s motion to sever claims and products not
encompassed by the jury verdict, ECF No. 412, is granted in part and denied in part. Claims based on the ’052
patent will be severed into a new cause of action and
stayed pending Ericsson’s appeal of the Patent Office’s
decision finding claims of the ’052 patent invalid. As for
the ’310 and RE ’931 patents, Ericsson’s request is denied. Ericsson’s request to sever unaccused products into a new cause of action is denied without prejudice to
Ericsson filing a new action involving these products.
(8) TCL’s cross-motion to dismiss stayed claims based
on patents subject to inter partes review, ECF No. 424,
is granted in part and denied in part. Claims based on
the ’310 and RE ’931 patents will be dismissed with prejudice. Claims based on the ’052 patent will be severed
into a new cause of action and stayed pending Ericsson’s
appeal.
(9) The joint motion for a docket control order, ECF
No. 461, Ericsson’s motion for leave to serve a supple-

81a
mental consumer survey report, ECF No. 462, and
TCL’s motion to stay the new damages trial pending an
appeal on liability, ECF No. 471, are denied as moot.
SIGNED this 10th day of May, 2018.
/s/Roy S. Payne
ROY S. PAYNE
UNITED STATES
MAGISTRATE JUDGE

82a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
²²²²
CASE NO. 2:15-cv-00011-RSP
²²²²
ERICSSON INC., TELEFONAKTIEBOLAGET
LM ERICSSON,
Plaintiffs,
v.
TCL COMMUNICATION TECHNOLOGY
HOLDINGS, LTD., TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
Defendants.
²²²²
MEMORANDUM OPINION AND ORDER
²²²²
November 4, 2017
²²²²
Trial in this case is scheduled to begin December 4,
2017. The following opinion and order resolves the parties’ pending motions, with the exception of motions in
limine, which will be addressed at the pretrial conference.
BACKGROUND
The parties to the lawsuit are global networking and
telecommunications equipment and services companies.
The two plaintiffs are companies based in the United
States and Sweden. Ericsson is a Delaware corporation

83a
based in Plano, Texas. Compl. ¶ 1, Dkt. No. 1. Telefonaktiebolaget LM Ericsson is based in Stockholm,
Sweden. Id. ¶ 2. The plaintiffs are collectively referred
to as “Ericsson.”
Ericsson owns two relevant patent portfolios. The
first is a portfolio that Ericsson alleges includes patents
that are essential to global 2G, 3G, and 4G telecommunications standards established by the European Telecommunications Standards Institute (ETSI). See TCL
Commc’n Tech. Holdings, Ltd. v. Telefonaktienbolaget
LM Ericsson et al., Case No. 8:14-cv-00341-JVS-DFM,
Dkt. No. 279-1 at 2 (C.D. Cal. June 29, 2015). The second
is a portfolio that includes patents claiming inventions
used to implement telecommunications standards in cellular handsets, smartphones, tablet computers, televisions, and other electronic devices. Compl. ¶ 3, Dkt. No.
1. Ericsson has not declared the patents in the second
portfolio essential to ETSI telecommunications standards. See TCL Commc’n Tech. Holdings, Case No. 8:14cv-00341-JVS-DFM, Dkt. No. 279-1 at 3. The patent-insuit is a member of the second portfolio. See Compl. ¶¶ 3,
14, Dkt. No. 1.
The defendants are companies based in China, Hong
Kong, and the United States, and are all owned by TCL
Corporation, a company based in Shenzhen, China. TCL
Communication Technology Holdings, Ltd. is one of the
three defendants also based on Shenzhen. Compl. ¶ 4,
Dkt. No. 1, Am. Ans. ¶ 4, Dkt. No. 45. TCT Mobile Limited is based in Hong Kong. Compl. ¶ 5, Dkt. No. 1; Am.
Ans. ¶ 5, Dkt. No. 45. The third defendant, TCT Mobile
(US), Inc., is a Delaware corporation based in Irvine, California. Compl. ¶ 6, Dkt. No. 1; Am. Ans. ¶ 6, Dkt. No. 45.
The three defendants are collectively referred to as
“TCL.”

84a
TCL’s answer alleges that it is the fifth largest mobile
telecommunications vendor in the world, with products
available for sale in more than 100 countries. Am. Ans.
¶ 78, Dkt. No. 45. TCL sells products under the “Alcatel
Onetouch” brand in the United States. Id.; Ericsson Ans.
¶ 78, Dkt. No. 51. Products sold under this brand, including the Alcatel OneTouch Fierce, include the Android operating system, which includes functionality that Ericsson claims is covered by the patent-in-suit. See Compl.
¶¶ 47-48, Dkt. No. 1.
I. THE PARTIES’ DISPUTE
This lawsuit is a relatively small element of a larger
global dispute. The larger dispute arises from failed license negotiations related to the patent portfolio Ericsson claims is essential to telecommunications standards
set by ETSI. See TCL Commc’n Tech. Holdings, Case
No. 8:14-cv-00341-JVS-DFM, Dkt. No. 279-1 at 2. The
parties attempted to negotiate a license to Ericsson’s alleged standard essential patent (SEP) portfolio, but the
parties were unable to reach agreement. Id. When a
company such as Ericsson declares patents essential to a
standard set by ETSI, the company must agree to license
the patents on fair, reasonable, and nondiscriminatory
(FRAND) terms. See id. TCL claims that Ericsson’s
license offers did not meet ETSI obligations. See id.
The parties’ impasse prompted litigation around the
world. From the fall of 2012 through 2014, Ericsson sued
TCL for patent infringement in Brazil, France, Argentina, Germany, and Russia. See id. at 6-9. In 2013, TCL
petitioned a court in the United Kingdom to revoke certain patents, and Ericsson counterclaimed for infringement. Id. at 6-7. The domestic litigation began in the
Central District of California in May 2014, with a lawsuit
filed by TCL. See id. at 2. TCL, an alleged third-party

85a
beneficiary to Ericsson’s ETSI agreement, claimed that
Ericsson breached its FRAND obligation. Id. TCL also
sought a declaratory judgment that certain alleged SEPs
were invalid and not infringed, and TCL asked the court
to determine a FRAND rate for a license to Ericsson’s
SEP portfolio. Id.
Several months later, Ericsson filed a lawsuit against
TCL in this district, seeking a declaratory judgment that
Ericsson had complied with ETSI obligations, and alleging infringement of two alleged SEPs. Id. at 6. That
lawsuit was transferred to the Central District of California in March 2015. Id. In early January 2015, Ericsson filed the present lawsuit, alleging infringement of five
patents—United States Patent Nos. 7,149,510, 6,029,052,
6,418,310, RE 43,931, and 6,535,815. Compl. ¶¶ 11-17.
The California court channeled the global dispute at
the parties’ request. Because the parties indicated that
the breach of contract action in California “should result
in a ‘global resolution’ of the SEP patent licensing and
damages claims,” the court enjoined both parties from
continuing to pursue or initiating lawsuits regarding the
SEPs at issue in the California lawsuit. See TCL
Commc’n Tech. Holdings, Case No. 8:14-cv-00341-JVSDFM, Dkt. No. 279-1 at 11 (citation omitted). The court
also stayed the alleged SEP infringement claims in the
lawsuit originally filed in this district, in addition to all
“non-FRAND matters.” Id. at 16. The lawsuit concerning Ericsson’s FRAND obligation proceeded to bench
trial earlier this year before the California court, and a
final decision from the court is pending. The California
court otherwise declined to enjoin or otherwise disturb
the present lawsuit because it involves intellectual property Ericsson has not declared essential to telecommunications standards set by ETSI. Id. at 9.

86a
II. THIS LAWSUIT AND THE REMAINING PATENT-IN-SUIT
This lawsuit originally involved allegations that TCL
infringed claims of five patents that Ericsson had not declared essential to ETSI standards. Id.; Compl. ¶¶ 11-17.
These patents are generally related to systems and
methods for controlling software and hardware functionality of mobile devices. See Dkt. No. 174 at 3. In response to Ericsson’s infringement claims, TCL petitioned
the Patent Trial and Appeal Board (PTAB) for inter parties review (IPR) of the asserted claims. See Dkt. No.
276. After the PTAB instituted IPR of all asserted
claims, the lawsuit was stayed. Dkt. 270. Earlier this
year, the PTAB found that TCL had proven by a preponderance of the evidence that the asserted claims of the
’052, ’931, ’310, and ’815 patents are unpatentable. See
id. at 3; IPR2015-01650, Paper No. 32. Ericsson has appealed those decisions to the Federal Circuit. The only
claims that survived IPR were the claims of the ’510 patent, which is the only remaining patent-in-suit. See Dkt.
No. 276 at 3. Because the ’510 patent claims emerged
from IPR, the stay was lifted in May of this year. See
Dkt. No. 280.
The ’510 patent describes advancements in mobile device technology resulting in demands that have been difficult to meet because of the limited size, memory, and
power of mobile devices. ’510 patent at 1:55-61. Mobile
devices were at one time used only to make and receive
phone calls. Id. at 1:33-35. As technology developed,
mobile devices became capable of sending email and accessing the Internet, among other functions similar to
those performed on a computer. See id. at 1:35-40.
These advanced functions prompted third parties to develop non-native application software, often referred to
as an “application” or “app,” which could be downloaded

87a
by a user. See id. at 2:18-24. The problem is that such
applications often need to access the mobile device’s native software or hardware functionality, and if left unrestricted, the applications may jeopardize the integrity of
the mobile device, for example by triggering costincurring events without the user’s approval. See id. at
2:18-32. Consequently, the ’510 patent describes a need
for controlling or limiting an application’s access to the
mobile device’s native functionality. See id. at 2:40-44.
Consistent with its title, “Security Access Manager in
Middleware,” the ’510 patent describes a system for controlling an application’s access to native software and
hardware on a mobile device. See id. at 4:14-16. An exemplary embodiment of the invention claimed by the ’510
patent is shown in Figure 1 (color added):

Non-native application software (blue) is installed, loaded, and run on the mobile platform. Id. at 4:14-16. The
software services component (green) provides services
such as control, structured storage, and access to hardware driver software. Id. at 5:33-40. The hardware com-

88a
ponent (red) includes units associated with and controlled
by the respective units of the software services component. Id. at 4:27-32. During operation, the non-native
application requests access to the software services component and an interception module intercepts these requests. Id. at 7:11-13. Once intercepted, a decision entity
determines whether the request should be granted based
on the security policies of the mobile platform and determines whether the user should be prompted to grant
access to certain native functionality. Id. at 8:1-15, 8:2641.
Ericsson is currently asserting claim 1 of the ’510 patent and claims that depend from claim 1 (claims 3-5, and
9). See Dkt. No. 276 at 3. Claim 1 recites:
A system for controlling access to a platform, the
system comprising:
a platform having a software services component
and an interface component, the interface component having at least one interface for providing access to the software services component for enabling application domain software to be installed,
loaded, and run in the platform;
an access controller for controlling access to the
software services component by a requesting application domain software via the at least one interface, the access controller comprising:
an interception module for receiving a request from
the requesting application domain software to access the software services component;
and a decision entity for determining if the request
should be granted wherein the decision entity is a
security access manager, the security access manager holding access and permission policies; and

89a
wherein the requesting application domain software
is granted access to the software services component via the at one least interface if the request is
granted.
Although the PTAB initially found that TCL had established a reasonable likelihood that the asserted claims
of the ’510 patent are invalid, see, e.g., IPR2015-01605,
Paper No. 10, the PTAB issued final written decisions
after trials on the merits concluding that TCL failed to
meet its preponderance of the evidence burden, see id.,
Paper No. 44. In the first IPR proceeding, for example,
TCL argued that the asserted claims are invalid as obvious under 35 U.S.C. § 103 in view of two combinations of
references—Usui and Gong, and Usui, Gong, and Spencer. See id. at 11. The PTAB concluded that TCL had
failed to establish that a person of ordinary skill in the
art would have been motivated to combine Usui, which
describes a Java application environment and software
platform for mobile phones, with Gong, which describes
Java security mechanisms for computers. See id. at 2937.
The PTAB reasoned that TCL had not come forward
with sufficient evidence establishing that it would have
been obvious to combine the relatively elaborate computer security software described by Gong with the mobile
platform of Usui “given the design constraints of less
memory and resources of a mobile phone.” See id. at 2930. The PTAB reached essentially the same conclusion in
two related IPR proceedings, concluding that TCL had
failed to establish that a person of ordinary skill in the
art would have been motivated to combine a mobile
phone software platform with computer security software. See IPR2015-01622, Paper No. 44 at 24-33;
IPR2015-01628, Paper No. 43 at 27-36. As a result of the

90a
PTAB’s decisions, the parties stipulated that TCL would
not raise certain invalidity defenses at trial. See Dkt. No.
296.
Ericsson contends that certain phones manufactured
or sold by TCL include functionality that falls within the
scope of the ’510 patent claims. The accused products all
include some version of the Android operating system,
and Ericsson’s infringement theory is based in large part
on features of this operating system. See, e.g., Dkt. No.
340-3 ¶ 37.
DISCUSSION
SUMMARY JUDGMENT

I. MOTIONS FOR
AND RELATED
MOTIONS
TCL moves for summary judgment of no willful infringement and summary judgment of invalidity under
§ 101. Summary judgment must be granted when there
is no genuine issue as to any material fact and the movant
is entitled to judgment as a matter of law. Fed. R. Civ. P.
56(c). “A genuine issue of material fact exists ‘if the evidence is such that a reasonable jury could return a verdict for the non-moving party.’ ” Crawford v. Formosa
Plastics Corp., La., 234 F.3d 899, 902 (5th Cir. 2000)
(quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986)). The court must consider evidence in the record in the light most favorable to the non-moving party
and draw all reasonable inferences in favor of that party.
Thorson v. Epps, 701 F.3d 444, 445 (5th Cir. 2012). The
moving party must identify the portions of the record
that demonstrate the absence of a genuine issue of material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323
(1986). Once a party has made that showing, the nonmoving party bears the burden of establishing otherwise.
Geiserman v. MacDonald, 893 F.2d 787, 793 (5th Cir.
1990) (citing Celotex, 477 U.S. at 323). The non-moving

91a
party cannot “rest upon mere allegations or denials” in
the pleadings, but “must set forth specific facts showing
there is a genuine issue for trial.” Liberty Lobby, 477
U.S. at 248. Thus, summary judgment “is appropriate if
the non-movant ‘fails to make a showing sufficient to establish the existence of an element essential to that party’s case.’ ” Bluebonnet Hotel Ventures, LLC v. Wells
Fargo Bank, N.A., 754 F.3d 272, 276 (5th Cir. 2014)
(quoting Celotex, 477 U.S. at 322).
A. TCL’s Willfulness Motions
1. Summary Judgment of No Willfulness, Dkt.
No. 217 (see also Dkt. No. 300)
TCL’s original motion for summary judgment of no
willfulness was filed before the Supreme Court’s decision
in Halo Electronics, Inc. v. Pulse Electronics, Inc., 136 S.
Ct. 1923 (2016), see Dkt. No. 217, and the parties have
since updated their briefs to reflect the change in law.
See Dkt. Nos. 300, 302, 305, 306. Although a close call,
TCL’s willfulness motion is denied because a reasonable
jury could possibly conclude that TCL’s conduct has been
egregious. This conclusion, however, is far from certain,
and the Court will carefully monitor the evidence presented at trial.
TCL’s arguments in support of summary judgment
are based in large part on the applicable willfulness
standard, and for that reason it is helpful to explain the
standard as it stands today. The Supreme Court’s Halo
decision clarified the narrow circumstances in which enhanced damages should be awarded. They are not to be
awarded in a “typical infringement case, but are instead
designed as a ‘punitive’ or ‘vindictive’ sanction for egregious infringement behavior.” Halo, 136 S. Ct. at 1932
(citation omitted). In surveying the relevant cases, the
Supreme Court characterized the conduct supporting

92a
enhanced damages as “willful, wanton, malicious, badfaith, deliberate, consciously wrongful, flagrant, or—
indeed—characteristic of a pirate.” Id.
The word in the Supreme Court’s list of culpable conduct that has created the most uncertainty is “willful” because that word implies nothing more than intentional infringement. As foreshadowed by Justice Breyer, parties
have interpreted “willful” to mean knowledge of the patent “and nothing more.” See Halo, 136 S. Ct. at 1936
(Breyer, J., concurring). As this Court has recognized,
however, knowledge of an asserted patent, without more,
cannot justify enhanced damages under the Halo standard. See Erfindergemeinschaft UroPep GbR v. Eli Lilly
& Co., No. 2:15-CV-1202-WCB, 2017 WL 2190055, at *3
(E.D. Tex. May 18, 2017) (Bryson, J., sitting by designation). This conclusion is consistent with—and in fact
compelled by—the majority opinion in Halo, which repeatedly emphasizes that enhanced damages are “reserved for egregious cases of culpable behavior.” Halo,
136 S. Ct. at 1932 (emphasis added). In other words, culpable conduct is required, but the culpable conduct must
be egregious, i.e., outrageous or shocking.
In addition to uncertainty regarding what is required
for enhanced damages, it is also not clear from Halo
whether willfulness is a jury question. The Supreme
Court did not have a reason to address the issue. A plausible reading of Halo nevertheless suggests that a jury
may be asked whether infringing conduct was indeed
egregious, particularly since a prerequisite to such an
egregiousness finding is an accused infringer’s subjective
belief that he is infringing a valid patent.
See
Erfindergemeinschaft UroPep GbR v. Eli Lilly & Co.,
240 F. Supp. 3d 605, 618 (E.D. Tex. 2017) (Bryson, J., sitting by designation). Intent is a classic factual issue.

93a
If the jury finds the requisite intent and that the intentional conduct was egregious, or in effect worthy of
punitive damages, the Court may in its discretion determine whether damages should be enhanced. See Halo,
136 S. Ct. at 1931-32 (explaining that the Court’s discretion “is not whim”). Even if this characterization of Halo
is incorrect, however, and willfulness is not a jury question, there is no disadvantage in submitting the question
to the jury. See Kinetic Concepts, Inc. v. Smith & Nephew, Inc., 688 F.3d 1342, 1356-60 (Fed. Cir. 2012) (explaining the basis for why ultimate legal questions such as obviousness are routinely submitted to the jury). It may be
prejudicial to a defendant if the plaintiff repeatedly refers to the defendant’s conduct as “wanton” or “egregious” in front the jury, but the plaintiff may also prejudice itself by making such extreme characterizations
without reasonable support. In sum, there is no error in
submitting a willfulness question to a jury, assuming of
course that the summary judgment record could support
a willfulness finding.
There is also uncertainty regarding pre-suit and postsuit conduct, namely whether post-suit conduct alone can
justify enhanced damages. Indeed, part of the basis for
TCL’s motion is that there is no evidence of egregious
pre-suit conduct that would support enhanced damages.
Id. at 6. The Federal Circuit, however, has at least suggested that there is no per se rule precluding a finding of
willful infringement based solely on conduct occurring
after the lawsuit is filed. See Mentor Graphics Corp. v.
EVE-USA, Inc., 851 F.3d 1275, 1295-96 (Fed. Cir. 2017)
(district court “erred in concluding that Synopsys could
not present evidence of post-filing willful infringement
because Synopsys did not seek a preliminary injunction.”). It appears that the Federal Circuit was simply

94a
saying that pre-suit willful infringement could continue
after the suit was filed, and that a motion for a preliminary injunction is not required to recover enhanced damages for continued post-filing willful infringement. See
id. But it would seem contrary to Halo to suggest that
an accused infringer could intentionally infringe an asserted patent and engage in other egregious behavior,
such as deliberately driving a less-resourceful patentee
out of business, as long as the egregious behavior begins
after the patentee filed the complaint. A fair reading of
Halo suggests that truly egregious behavior may warrant a punitive response regardless of when the behavior
occurs.
The more pertinent question is whether there is any
evidence to support a finding of egregious culpable behavior at any time in this case. TCL argues that Ericsson has not produced evidence of “egregious infringement behavior” or behavior of a “wanton and malicious
pirate.” Dkt. No. 300 at 2. TCL also argues that its good
faith belief of noninfringement and invalidity of the ’510
patent is “demonstrated by its summary judgment motion on invalidity as well as the IPRs that were instituted
by the PTAB.” Id. While nothing in the record clearly
stands out as egregious, Ericsson has come forward with
evidence suggesting that TCL’s infringement has accelerated since the lawsuit was filed. This may be because
TCL believed it was not infringing a valid patent. See
WesternGeco L.L.C. v. Ion Geophysical Corp., 837 F.3d
1358, 1363 (Fed. Cir. 2016) (even after Halo, the objective
reasonableness of the accused infringer’s positions can
still be relevant to the § 284 issue).
Yet TCL has offered little other evidence relevant to
the subjective belief of its decision makers at the relevant
time. TCL’s IPR petitions came after its knowledge of

95a
the ’510 patent, as did TCL’s motion for summary judgment invalidity under § 101. As TCL acknowledges, “culpability is generally measured against the knowledge of
the actor at the time of the challenged conduct.” Halo,
136 S. Ct. at 1933. There is no evidence, for example, going to TCL’s subjective beliefs when its infringement allegedly accelerated after Ericsson filed the lawsuit. Consequently, the Court cannot conclude with confidence at
this point that no reasonable jury could find that TCL
subjectively believed it was infringing a valid patent, and
that this intentional conduct was egregious. The motion
for summary judgment is therefore denied.
2. TCL’s Motion to Bifurcate Willfulness, Dkt.
No. 321
TCL also moves to bifurcate the issue of willful infringement from “initial issues of liability and damages in
order to prevent jury confusion and prejudice to both
parties.” Dkt. No. 321 at 1. TCL argues that without bifurcation, the presentation of prior art, PTAB proceedings, and the strength of TCL’s invalidity and legal defenses will likely confuse a jury “that is not asked to determine invalidity or the legal defenses.” Id. at 1. The
Court is not persuaded.
Nothing will prevent TCL from telling the jury that it
had a good faith belief that the ’510 patent was invalid or
not infringed, and the PTAB’s institution of IPR of the
’510 patent claims is evidence of the reasonableness of
that belief. But if TCL would like to present such evidence, Ericsson is of course entitled to tell the jury the
rest of the story, i.e., that the PTAB ultimately found
that TCL had not proven by a preponderance of the evidence that the asserted claims of the ’510 patent are invalid. The same may be true of TCL’s § 101 motion—if
TCL were to present evidence that it thought the ’510

96a
patent was invalid on a legal ground (§ 101), then of
course Ericsson would be entitled to inform the jury that
the Court denied that motion (see below). Similarly, if
TCL were to tell the jury that it believed the claims were
invalid under § 112, ¶ 6, then Ericsson could inform the
jury that the Court found TCL’s claim construction arguments untimely and thus waived (see below). The
point is that TCL could present evidence that it subjectively believed the ’510 patent to be invalid or not infringed—and point to objective evidence of that belief—
without getting into the merits of the invalidity or legal
defenses.
Contrary to TCL’s argument, it is not clear how presenting evidence related to its good faith belief of invalidity will prejudice either side. Validity and infringement
raise different questions, and a party’s reference to a validity argument is no more prejudicial than reference to
an infringement finding during the willfulness phase of a
bifurcated trial. Similarly, judicial economy does not
support bifurcation. TCL is correct that a finding of no
infringement could eliminate the need for a trial on willfulness, but a finding of infringement would require a
second trial—an inefficient outcome given that evidence
relevant to willfulness is intertwined with evidence of infringement and damages. Accordingly, TCL’s motion to
bifurcate is denied.
B. TCL’s Subject Matter Eligibility Motion, Dkt.
No. 299, and Related Motion to Strike, Dkt. No.
310
TCL moves for summary judgment that the asserted
claims of the ’510 patent are invalid under 35 U.S.C. § 101
because according to TCL, the claims are directed to patent-ineligible subject matter. See Dkt. No. 299. TCL
argues that the asserted claims “are directed to the ab-

97a
stract idea of controlling access to a platform based on
access rules.” Id. at 1. This idea, according to TCL, is
abstract because “[f]or centuries, gatekeepers tasked
with controlling access to restricted resources intercepted requests for access and determined whether to grant
or deny the request by relying on predetermined access
and permission policies.” Id. The Court is not persuaded
that the claims are directed to an abstract idea, but even
if they are, the claims recite an inventive concept sufficient to render the claims patent-eligible.
A patent may be obtained for “any new and useful
process, machine, manufacture, or composition of matter,
or any new and useful improvement thereof.” 35 U.S.C.
§ 101. The exception is that “[l]aws of nature, natural
phenomena, and abstract ideas are not patentable.”
Ass’n for Molecular Pathology v. Myriad Genetics, Inc.,
133 S.Ct. 2107, 2116 (2013) (quoting Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 132 S.Ct. 1289, 1293
(2012)). In assessing subject-matter eligibility, a court
must “first determine whether the claims at issue are directed to a patent-ineligible concept.” Alice, 134 S.Ct. at
2355. If the claims are directed to an ineligible concept,
the court must then “consider the elements of each claim
both individually and ‘as an ordered combination’ to determine whether the additional elements ‘transform the
nature of the claim’ into a patent-eligible application.”
Id. (quoting Mayo, 132 S.Ct. at 1298, 1297).
When evaluating claims related to computer technology, a court must “articulate with specificity what the
claims are directed to, and ‘ask whether the claims are
directed to an improvement to computer functionality
versus being directed to an abstract idea.’ ” Visual
Memory LLC v. NVIDIA Corp., 867 F.3d 1253, 1258
(Fed. Cir. 2017) (quoting Enfish, LLC v. Microsoft Corp.,

98a
822 F.3d 1327, 1335 (Fed. Cir. 2016)) (citing Thales Visionix Inc. v. United States, 850 F.3d 1343, 1347 (Fed.
Cir. 2017)). The claims of the ’510 patent are limited to
mobile platform technology. Accordingly, the question at
Alice step one is whether the claims, which are directed
to security and permission software for mobile devices,
are merely directed to the abstract idea of controlling access to restricted resources, as TCL suggests, or to an
improvement in mobile phone software, as Ericsson suggests.
The Court agrees with Ericsson’s characterization.
Rather than using computer technology in its ordinary
capacity, the claims recite a system capable of permitting
a mobile phone user to grant applications access to native
phone functionalities while denying access to other native
functionalities. See Dkt. No. 301 at 1. The PTAB thoroughly described the technical details of the claimed system, and the focus of the claims, during IPR proceedings.
See IPR2015-01605, Paper No. 44; IPR2015-01622, Paper
No. 44; IPR2015-01628, Paper No. 43. The PTAB’s highly technical characterization of the claims supports the
conclusion that the claims are not directed to an abstract
idea. Indeed, the asserted claims resemble claims directed to improved computer technology that have survived scrutiny under Alice step one at the Federal Circuit. See Visual Memory, 867 F.3d at 1259 (enhanced
computer memory system); Thales, 850 F.3d at 1345 (motion-tracking system); Enfish, 822 F.3d at 1339 (selfreferential table). Accordingly, the Court concludes that
the claims are not directed to an abstract idea but rather
to an improved technological solution to mobile phone
security software.
Even if the claims were directed to an abstract idea,
however, the claims recite a sufficiently inventive concept

99a
under Alice step two to distance the claims from the abstract idea. Namely, the claims recite a technological improvement to a problem arising in mobile platform technology, namely the problem of limited memory and resources on mobile phones. The invention is a particularized solution to that problem, much like the invention at
issue in DDR Holdings, LLC v. Hotels.com, L.P., 773
F.3d 1245 (Fed. Cir. 2014). The fact that the PTAB concluded that TCL failed to establish that a person of ordinary skill in the art would be motivated to combine computer-based security software with the relevant mobile
platform technology—because of the limited memory and
resources of a mobile phone—suggests that the systems
claimed by the ’510 patent are not merely conventional
applications of computer technology. See Internet Patents Corp. v. Active Network, Inc., 790 F.3d 1343, 1347
(Fed. Cir. 2015) (A “pragmatic analysis of § 101 is facilitated by considerations analogous to those of §§ 102 and
103 as applied to the particular case.”). Accordingly,
TCL’s motion for summary judgment of invalidity under
§ 101 is denied. TCL also moves to strike Ericsson’s sur
reply. Dkt. No. 310. Because the Court’s decision on the
§ 101 motion does not rely on the sur reply, TCL’s motion
to strike is denied as moot.
II. MOTIONS

TO

STRIKE

OR

EXCLUDE EXPERT TESTI-

MONY

Both parties have moved to strike opposing expert
testimony related to both the technical, infringement aspect of the case as well as the damages aspect of the case.
When evaluating a party’s challenge to an opponent’s expert witness, the Court assumes the role of gatekeeper to
ensure the reliability and relevance of the expert’s testimony. Daubert v. Merrell Dow Pharm., Inc., 509 U.S.
579, 597 (1993); Kumho Tire Co. v. Carmichael, 526 U.S.

100a
137, 150 (1999). Rule 702 guides the inquiry, specifying
that a qualified expert may testify as long as his opinion
will aid the fact finder and is reliable, i.e., the opinion
must stand on sufficient data, reliable methods, and the
facts of the case. See Daubert, 509 U.S. at 590; Fed. R.
Evid. 702(a)-(d); see also Micro Chem., Inc. v. Lextron,
Inc., 317 F.3d 1387, 1391 (Fed. Cir. 2003) (“In 2000, Rule
702 was amended in response to Daubert and cases applying it.”).
A. Ericsson’s Motions to Strike Martinez Report,
Dkt. Nos. 222 & 326
Ericsson moves to strike Christopher Martinez’s damages report on two grounds, both of which relate to Mr.
Martinez’s reliance on an offer Ericsson made to a thirdparty for a license to the ’510 patent. The licence offer
was part of a larger negotiation involving both SEPs and
implementation patents, or patents that are relevant to
but that have not been declared essential to a standard.
See Dkt. Nos. 222 and 326. Ericsson contends that Mr.
Martinez’s reliance on this offer should be precluded (1)
because the offer was a settlement offer and is thus properly excluded under Rule 408, and (2) because the offer is
not a reliable indicator of the value of the invention
claimed in the ’510 patent given that the ’510 patent was a
small portion of a larger bundle of patents offered for license. The Court does not agree with either argument.
First, the Court does not accept the premise that Ericsson’s license offer to the third party is inadmissible evidence of an offer to compromise a claim. See Fed. R.
Evid. 408. “Rule 408 has been and remains fact-specific,
and tethered to the rationales underlying the rule.”
Lyondell Chem. Co. v. Occidental Chem. Corp., 608 F.3d
284, 298 (5th Cir. 2010). An effective settlement negotiation requires frank discussion of relevant evidence, and

101a
permitting the use of such evidence in related litigation
would undermine Rule 408’s purpose. Id. The circumstances surrounding Ericsson’s license negotiations with
the third party, however, simply do not implicate a Rule
408 concern.
By its own admission, Ericsson licenses thousands of
patents to numerous parties and owns a large portfolio of
patents declared essential to telecommunications standards. Patent infringement is a strict liability offense,
and at any given time, it is possible that a non-licensed
party may be infringing an Ericsson patent. That does
not mean all of Ericsson’s patent license negotiations are
settlement negotiations shielded by Rule 408 simply because litigation could ensue, or that litigation did ensue
after failed negotiations. Large patent portfolio negotiations, in contrast to negotiations following an environmental disaster, for example, see Lyondell, 608 F.3d at
298-300, are not as tied to a defined claim of liability.
Under the circumstances of Ericsson’s negotiations
with the third party, any “claim” was simply too nebulous
to warrant protecting the negotiations with Rule 408. As
a result, permitting evidence of Ericsson’s offer will not
dampen reliance on such offers in the future. Ericsson’s
offer of a license to the ’510 patent was bundled with a
license to numerous other patents, including other implementation patents and SEPs. Given the volume of patents that the offer covered, it is unreasonable to think
that the third party negotiating with Ericsson had any
particular claim of liability in mind, even though the third
party may have reasonably anticipated some claim in the
event negotiations failed. It would have been practically
impossible, however, for Ericsson to have initiated litigation for infringement of all the patents included with the
license offer. Accordingly, there is no clear basis for ex-

102a
cluding the offer under Rule 408. The “overarching policy of favoring the admission of all relevant evidence”
should control in this instance. See id. at 299.
Second, the Court does not agree that the offer is so
unreliable to warrant exclusion under the Daubert standard. The use of similar evidence has been condoned by
the Federal Circuit in past cases. See Commonwealth
Sci. & Indus. Research Organisation v. Cisco Sys., Inc.,
809 F.3d 1295, 1297 (Fed. Cir. 2015) (discussing reliance
on evidence of plaintiff’s unaccepted license offer); see
also Carnegie Mellon Univ. v. Marvell Tech. Grp., Ltd.,
807 F.3d 1283 (Fed. Cir. 2015) (“Past licensing practices
of the parties and licenses for similar technology in the
industry may be useful evidence.”). Ericsson may present its view of why the license offer is not comparable or
not an adequate indicator of the value of the invention
claimed in the ’510 patent. Indeed, “[v]igorous crossexamination, presentation of contrary evidence, and careful instruction on the burden of proof are the traditional
and appropriate means of attacking shaky but admissible
evidence.” Daubert, 509 U.S. at 596. Ericsson’s motions
to strike Mr. Martinez’s reports are denied.
B. TCL’s Motion to Strike Jones Report, Dkt. No.
323
TCL moves to strike Dr. Mark Jones’ infringement
report on four grounds. See Dkt. No. 323. TCL argues
that Dr. Jones’ opinions (1) are not based on a sufficient
examination of all accused products; (2) rely on an incorrect (claim construction) premise concerning the term
“interception module”; (3) rely on and extrapolate a
flawed consumer survey; and (4) provide “unhelpful”
claim construction opinions. The Court is not persuaded
that TCL has demonstrated a reason to exclude Dr.
Jones’ testimony.

103a
TCL’s first and third arguments go to the weight of
Dr. Jones’ opinion, not to its admissibility. Dr. Jones’
opinion is based a sufficient examination of the accused
products. See Dkt. No. 340-3 ¶¶ 42-117; Dkt. No. 340-4;
Dkt. No. 340-5; Dkt. No. 340-6 at 10-77; Dkt. No. 340-7;
Dkt. No. 340-8, Dkt. No. 340-9. In addition, Dr. Jones is
not providing an unqualified opinion. Dr. Wecker and
Dr. Jones simply rely on each other’s opinions, with Dr.
Wecker relying on Dr. Jones’ technical analysis, and Dr.
Jones relying on Dr. Wecker’s consumer preference survey. See Summit 6, LLC v. Samsung Elecs. Co., 802
F.3d 1283, 1299 (Fed. Cir. 2015) (“To the extent [the expert’s] credibility, data, or factual assumptions have
flaws, these flaws go to the weight of the evidence, not to
its admissibility.”).
TCL’s second argument is at least partially a claim
construction argument regarding the term “interception
module” that was not timely raised, and thus the argument is waived for the reasons explained below. See infra § IV. Because “interception module” has not been
construed, the term has its ordinary meaning. TCL may
nevertheless present its noninfringement argument to
the jury. In other words, TCL is not precluded from presenting evidence or argument that products do not infringe because the accused “interception module” includes code that is dispersed throughout the operating
system, as opposed to being a self-contained segment of
code, i.e., that a person of ordinary skill in the art would
not view the accused software segment(s) as an “interception module” because the accused code segments are
not part of a module. Dr. Jones will present his contrary
view, and the jury will decide which testimony to credit.
See Verizon Servs. Corp. v. Cox Fibernet Va., Inc., 602
F.3d 1325, 1330-41 (Fed. Cir. 2010) (distinguishing in-

104a
fringement opinions from claim construction). TCL’s argument does not, however, provide a basis to exclude Dr.
Jones’ testimony.
Finally, TCL’s fourth argument relates to portions of
Dr. Jones’ expert report concerning the construction of
“interception module” as a means-plus-function term. As
explained below, the Court will not construe “interception module.” As a result, this portion of Dr. Jones’ report is no longer relevant. In any event, Dr. Jones’ claim
construction opinions would not have been presented to
the jury, as Ericsson explains. Accordingly, TCL’s motion to strike Dr. Jones’ report is denied.
C. TCL’s Motion to Exclude Wecker and Mills
Testimony, Dkt. No. 324
TCL moves to exclude testimony by Dr. William
Wecker and Robert Mills because according to TCL, certain testimony from these witnesses is based on a consumer survey that is not adequately tied (or apportioned)
to the features claimed in the ’510 patent. See Dkt. No.
324. TCL may present its view of the theory at trial, but
the Court is not persuaded that Mr. Mills and Dr. Wecker should be precluded from offering their opinions.
Dr. Wecker designed and implemented an online consumer survey that purports to isolate the value of the invention claimed in the ’510 patent. The survey includes
questions such as the following question:
Suppose that the Android-based smartphone you
purchased, as well as some other manufacturers’
smartphones, did not have the ability to (1) ask your
permission for an app to access particular capabilities on your phone before downloading that app,
and (2) prevent an app from accessing the capabilities on your phone for which permission was neither

105a
requested nor given. Instead, just prior to downloading an app, you would have to decide to either
(a) grant the app permission to access all capabilities on the phone, or (b) not download the app.
Dkt. No. 324-3 ¶ 7. TCL contends that such questions are
not adequately tied to the ’510 patent claims. Similarly,
because Mr. Mills bases his damages model on the Wecker survey results, TCL argues that Mr. Mills’ testimony
should be excluded.
The Court does not agree. Dr. Wecker’s questions are
at least as narrowly tailored as those at issue in Summit
6. See 802 F.3d at 1297-99. Dr. Wecker’s questions concerning permission and access features of a mobile phone
relate to the allegedly infringing features, as certain of
TCL’s noninfringing alternatives illustrate. Similarly, by
comparing survey respondents’ preferences regarding
allegedly infringing and noninfringing alternatives, Mr.
Mills’ damages assessment sufficiently accounts for the
allegedly infringing features. See, e.g., Sentius Int’l,
LLC v. Microsoft Corp., No. 5:13-CV-00825-PSG, 2015
WL 451950, at *11 (N.D. Cal. Jan. 27, 2015) (approving
similar damages model). “When methodology is sound,
and the evidence relied upon sufficiently related to the
case at hand, disputes about the degree of relevance or
accuracy (above this minimum threshold) may go to the
testimony’ weight, but not its admissibility.” i4i Ltd.
P’ship v. Microsoft Corp., 598 F.3d 831, 852 (Fed. Cir.
2010). Accordingly, TCL’s motion to exclude the testimony of Dr. Wecker and Mr. Mills is denied.
D. Ericsson’s Motion to Strike Ligatti Report,
Dkt. No. 325
Ericsson moves to strike the expert report of Dr. Jared Ligatti, contending that the report is based on a new
infringement theory that was not timely raised before

106a
this case was stayed pending IPR. See Dkt. No. 325.
The Court agrees. Dr. Ligatti’s report is stricken.
The original expert disclosure and discovery period in
this case ended on January 27, 2016, almost two years
ago. See Dkt. No. 161 at 3. The parties have since been
litigating validity issues at the PTAB, after TCL filed
close to twenty IPR petitions. Before the case was
stayed pending IPR, Ericsson was accusing TCL products that included version 2, 3, or 4 of the Android operating system. See Dkt. No. 325 at 2.
After the ’510 patent emerged from IPR proceedings,
the Court entered a docket control order allowing “supplemental expert reports on infringement and damages.”
Dkt. No. 289. The point of allowing additional expert reports and discovery was to allow the parties to update
their original, pre-stay positions on infringement and
damages. It was never intended that either party would
introduce new theories or new experts into the case, provided of course that the original experts remained available to testify at trial.
Ericsson’s addition of new products into the case does
not, under the circumstances, justify Dr. Ligatti’s new
report. Ericsson served a supplemental infringement
report from Dr. Jones in August of this year, which included an infringement opinion for new TCL products
that were released during the stay period. See Dkt. No.
325 at 5. The new products include versions 4-7 of the
Android operating system. But the theory of infringement, which is based on the Android system’s security
and permissions software, has not meaningfully changed,
at least not enough to warrant a new noninfringement
theory. TCL’s original noninfringement report from Dr.
Malek includes opinions that are as relevant to the new
TCL products as they are to the original products based

107a
on older versions of the Android operating system. Dr.
Malek can present those opinions and any updated opinions specific to the newly accused products at trial.
Dr. Ligatti’s opinion, by contrast, does more than update TCL’s original theory. Dr. Ligatti distinguishes between a “service-based approach” and an “interceptionbased” approach. This distinction was never made in Dr.
Malek’s original noninfringement report. Nothing about
the Android operating system on the newly accused
products justifies permitting this new theory. Accordingly, Ericsson’s motion to strike Dr. Ligatti’s report is
granted. Dr. Ligatti is not permitted to testify at trial.
III.DISCOVERY-RELATED MOTIONS
A. Ericsson’s Undisclosed Noninfringing Alternatives Motion, Dkt. No. 220
Ericsson moves to strike portions of TCL’s rebuttal
expert reports related to noninfringing alternatives that
were not disclosed in response to Ericsson’s Interrogatory No. 5. See Dkt. No. 220. Ericsson’s original motion
requested that the Court strike noninfringing alternatives relevant to the ’510, ’052, and ’931 patents, see id.,
but because the ’052 and ’931 patents are no longer in the
case, Ericsson has informed the Court that the only remaining dispute relates to the ’510 patent, see Dkt. No.
284 at 1. Consequently, the portion of the motion related
to the ’052 and ’931 patents is denied as moot. The portion of the motion related to the ’510 patent is granted-inpart and denied-in-part for the following reasons.
On April 13, 2015, Ericsson served TCL with a first
set of interrogatories. Interrogatory No. 5 asked TCL to
“identify and describe all facts and documents (including
the technical and financial details) related to any acceptable non-infringing alternative(s) or design around(s)
available to You, of which You are aware, which you are

108a
presently investigating, or which You may rely upon for
any purpose in this case (including at trial) and the three
persons most knowledgeable thereof.” Dkt. No. 220-2 at
9. TCL objected to the interrogatory because “Ericsson’s infringement contentions are vague and unclear,”
and because the Court had “yet to issue final constructions on the disputed terms from the ’510 patent.” Dkt.
No. 220-9 at 45. TCL agreed to “further supplement after receiving and analyzing the Court’s constructions for
the ’510 patent.” Id. at 46. TCL nevertheless stated that
“non-infringing alternatives would include prior art solutions such as found on desktop and laptop computers, including Linux and Windows security implementations.”
Id. TCL later supplemented this response to include
“TCL phones with different operating systems such as
Windows Phone, Ubuntu Touch, and Firefox OS.” Dkt.
No. 220-10 at 18. TCL did not disclose any alternative
based on a modification to the Android security module,
i.e., the software already present on TCL’s phones.
In addition to not disclosing a change to the Android
operating system, TCL’s corporate representative, Sebastian Codeville, led Ericsson to believe that such a
modification would not be possible. On October 14, 2015,
Mr. Codeville explained that modifying the Android security module would lead to compatibility problems with
Google applications:
Q: Okay. What did you determine with respect to
the ’510 patent? Which parts of the codes do you
modify, which parts do you not? The ’510 is the security permissions patent.
A: Yes. So on this one, my discussion was basically
that this module, the security and permission module, they are open source, you know, Android. But
my question was, “Do we modify this mechanism?”

109a
And the answer was, “No, we don’t modify this
mechanism, because modifying this would mean not
being compliant with the ecosystem of application
available on Google Play on the market.”
Dkt. No. 220-13 at 32:9-16. According to Mr. Codeville,
any changes to the internal Android operating system
would have to be made by Google:
Q: Are you aware of any non-infringing alternatives
to the ’510 patent?
A: So I–I don’t–I believe there are alternatives, but
again, I believe it should be a Google implementation.
Q: Okay. So any–
A: I answered this question before.
Q: Any changes that would be made with respect to
the permissions on TCL’s Android devices would
have to be made by Google, not TCL?
A: I believe so, yes.
Id. at 228:19-229:4.
The Docket Control Order that was in place at the
time required that fact discovery be completed by November 27, 2015. Dkt. No. 161 at 3. Opening expert reports were due December 11, 2015, rebuttal reports were
due January 11, 2016, and expert discovery was scheduled to end January 27, 2016. Id.
On January 11, 2016, TCL served its rebuttal expert
reports. These reports included opinions based on noninfringing alternatives requiring modifications to the internal Android operating system. Dr. Sam Malek opines,
for example, that the operating system could be modified
such that another entity, other than the alleged “security
access manager” could hold access and permission poli-

110a
cies. Dkt. No. 220-20 ¶ 147. Such a modification would
provide an acceptable noninfringing alternative, according to Dr. Malek, because claim 1 of the ’510 patent requires that the “security access manager” hold “access
and permission policies.” Id. (quoting claim 1). TCL’s
damages experts appear to rely on Dr. Malek’s opinions.
See Dhar Rep. ¶ 77, Dkt. No. 220-21. Because the factual
basis for these opinions was not disclosed in response to
Ericsson’s Interrogatory No. 5, Ericsson requests that
the opinions be stricken from the reports.
Rule 26 requires a party who has responded to an interrogatory to supplement its response “in a timely manner if the party learns that in some material respect the
disclosure or response is incomplete or incorrect.” Fed.
R. Civ. P. 26(e)(1). A party that fails to do so “is not allowed to use that information or witness to supply evidence on a motion, at a hearing, or at a trial, unless the
failure was substantially justified or is harmless.” Fed.
R. Civ. P. 37(c)(1).
TCL’s primary argument is that no discovery violation
occurred. See Dkt. No. 248 at 1. TCL contends that in
response to Interrogatory No. 5, TCL “disclosed its thenknown noninfringing alternatives, in the detail it had developed.” Id. But “as TCL worked with its experts on
reports to rebut Ericsson’s grandiose damages theories,
TCL flushed out its theories in more detail, and disclosed
them as the docket control order requires, in its rebuttal
expert reports.” Id. TCL’s argument is supported by
Mr. Dhar’s February 2016 deposition testimony, which
explains that TCL’s experts developed new noninfringing
alternative theories in late December 2015:
Q: TCL’s technical experts told you that they identified additional noninfringing alternatives other
than those just in the interrogatory responses?

111a
A: That’s my memory of it. I wouldn’t hold myself
to it but my memory is there were certain things
that had identified at that stage whenever that was
in the case, and since then they haded [sic] that additional ideas again I’m paraphrasing the language.
Q: Do you know about when you had those conversations with TCL’s technical experts?
A: Yes, late December.
Dkt. 220-14 at 128:2-129:14.
TCL’s argument is not persuasive. TCL is correct
that a party must only answer interrogatory questions
with information that is currently available. TCL is also
correct that expert theories need not be disclosed in response to interrogatories. See, e.g., Beneficial Innovations, Inc. v. AOL LLC, Case No. 2:07-cv-555, Dkt. No.
260 at *1 (E.D. Tex. May 26, 2010). But TCL’s response
to Interrogatory No. 5 stated that noninfringing alternatives included phones with operating systems that are
different than the default Android system, i.e., that the
operating system would have to be replaced. See Dkt.
No. 220-10 at 18. Mr. Codeville testified during deposition that a similar modification to the default Android operating system was not possible, and that any such
change would have to be made by Google. Dkt. No. 22013 at 32:9-16, 228:19-229:4.
In light of TCL’s position that the operating system
would have to be replaced, and that any similar change to
the Android system did not seem feasible, it is difficult to
believe that TCL was not at least investigating a modification to the Android operating system during the fact
discovery period. Such an investigation would have included underlying facts that TCL should have timely disclosed in response to Interrogatory No. 5, which asked

112a
for the details underlying any such investigation. See
Dkt. No. 220-2 at 9. At the very least, there would have
been no harm in including a modification to the default
Android system in the response to the interrogatory because as explained below, the ramifications for the late
disclosure are significant. Consequently, a discovery violation occurred.
The only remaining question is whether the violation
was substantially justified or harmless. In evaluating
whether a violation of Rule 26 is harmless, the Fifth Circuit considers four factors: “(1) the importance of the evidence; (2) the prejudice to the opposing party of including the evidence; (3) the possibility of curing such prejudice by granting a continuance; and (4) the explanation
for the party’s failure to disclose.” Texas A & M Research Found. v. Magna Transp., 338 F.3d 394, 402 (5th
Cir. 2003). These factors support excluding the late noninfringing alternative theories.
The noninfringing alternatives based on a modification
to the Android operating system are important, but only
to the extent the alternatives relate to damages or the
value of the patented features. The alternatives are not,
however, as important as a defense that would result in a
finding of no liability. See Allergan, Inc. v. Teva Pharm.
USA, Inc., No. 2:15-CV-1455-WCB, 2017 WL 1512334, at
*5 (E.D. Tex. Apr. 27, 2017) (Bryson, J., sitting by designation) (importance of the evidence factor requires “a
pragmatic judgment as to the likelihood” that the evidence will support a successful defense). The important
of the evidence, in other words, weighs in favor of excusing the violation, but the factor is not as overwhelming as
it would be for a case-dispositive defense.
The prejudice to Ericsson is substantial. Not only
were the noninfringing alternatives based on a modifica-

113a
tion to the Android system not disclosed, but Ericsson
was led to believe that such a modification was not possible. As a result, Ericsson proceeded through fact and
expert discovery assuming that noninfringing alternatives required replacing, not modifying, the Android operating system. Most important, Ericsson did not have
any reason to seek third-party discovery from Google to
inquire about whether modifications to the Android system would be permitted. In light of Mr. Codeville’s testimony, Ericsson had every reason not to pursue such
discovery. TCL’s disclosure of the new theory in its rebuttal expert reports, after the close of fact and expert
discovery, is too late to cure the prejudice.
The remaining factors do not weigh in favor of excusing the late disclosure. As for the third factor, any continuance would delay trial, which is only weeks away.
S&W Enters., L.L.C. v. SouthTrust Bank of Ala., N.A.,
315 F.3d 533, 537 (5th Cir. 2003) (affirming district
court’s refusal to grant continuance when it would “unnecessarily delay the trial”). Finally, Ericsson does not
adequately explain why it did not at least disclose that it
was investigating a modification to the Android operating
system, particularly given its position that a change to
the source code on the operating system would have to be
made. It only seems logical that TCL would have investigated modifying the default system before concluding
that the operating system had to be replaced altogether.
In sum, the factors weigh in favor of precluding TCL
from relying on the new noninfringing alternatives based
on a modification to the Android operating system.
The purpose of interrogatories is not only to ascertain
facts but also to “determine what the adverse party contends they are, and what purpose they will serve, so that
the issues may be narrowed, the trial simplified, and time

114a
and expense conserved.” Baim & Blank, Inc v. Philco
Distributors, Inc., 25 F.R.D. 86, 87 (E.D.N.Y. 1957). Discovery and pretrial procedures “make a trial less a game
of blind man’s bluff and more a fair contest with the basic
issues and facts disclosed to the fullest practicable extent.” United States v. Proctor & Gamble Co., 356 U.S.
677, 682 (1958). While the Court is not suggesting that
TCL’s late disclosure was deliberate, the drastic change
in position after Mr. Codeville’s deposition justifies excluding the new noninfringing alternatives.
Accordingly, the portion of Ericsson’s motion related
to the ’510 patent is granted-in-part. Paragraph 147 of
Dr. Malek’s report, Dkt. No. 220-20, and paragraph 77 of
Mr. Dhar’s report, Dkt. No. 220-21, are stricken. The
motion is otherwise denied. Ericsson asks the Court to
strike paragraphs 76 and 78 of the Dhar report, Dkt. No.
220-21, and paragraphs 200, 201, and 202 of Christopher
Martinez’s damages report, Dkt. No. 220-22, but these
paragraphs do not clearly reference the new noninfringing alternatives based on a modification of the Android
operating system. Consequently, these additional paragraphs are not stricken. To be clear, however, TCL’s experts will not be permitted to rely on noninfringing alternatives based on a modification to the Android operating
system.
B. Ericsson’s Updated Noninfringing Alternative
Motion, Dkt. No. 327
After the stay was lifted, Ericsson updated its noninfringing alternative motion, and the new motion is based
on the same grounds as those discussed above, namely
that noninfringing alternatives based on a modification to
the Android operating system should be stricken. See
Dkt. No. 327. Ericsson’s updated motion asks the Court
to strike paragraphs 208-210 of Dr. Jarred Ligatti’s re-

115a
buttal report, Dkt. No. 327-14, as well as the damages
opinions based on the undisclosed alternatives, at paragraphs 11, 70-71, and 75-78 of the January 11, 2016 Dhar
report, Dkt. No. 327-17, paragraphs 133-34 and 200-201
of the January 11, 2016 Martinez report, Dkt. No. 327-13,
and paragraphs 125-129, 201, and 203-204 of the September 26, 2017 Martinez report, Dkt. No. 327-19.
Ericsson’s updated motion is granted-in-part and denied-in-part for the same reasons explained above, i.e.,
that TCL is not permitted to rely on opinions related to
noninfringing alternatives requiring a modification to the
Android operating system that were not timely disclosed
in response to Ericsson’s Interrogatory No. 5. Paragraph 77 of Mr. Dhar’s January 2016 report has already
been stricken. In addition, the portion of paragraph 134
of Mr. Martinez’s January 2016 report, Dkt. No. 327-13,
that discusses modifications to the Android operating
system is stricken. Similarly, paragraph 129 of Mr. Martinez’s September 2017 report, Dkt. No. 327-19, is stricken. The remaining portions of the expert reports identified by Ericsson do not clearly reference noninfringing
alternatives based on a modification to the Android operating system.
IV. CLAIM CONSTRUCTION
TCL requests additional claim construction of two
terms, “interception module” and “decision entity.” Dkt.
No. 292. TCL contends these limitations are means-plus
function terms governed by 35 U.S.C. § 112, ¶ 6. Dkt. No.
292. According to TCL, the patent’s specification fails to
include sufficient structure corresponding to the “interception module,” and thus this term is indefinite. See id.
at 9. TCL proposes that “decision entity” be construed
as the security access manager disclosed in the specification that is programmed to perform the algorithm shown

116a
in Figure 7 of the patent. See id. at 14. Because TCL
could have made these arguments during the claim construction phase of the case but did not, the request for
additional claim construction is denied.
A. TCL’s Waiver
TCL filed its original responsive claim construction
brief on August 28, 2015. Dkt. No. 91. TCL did not argue that “interception module” or “decision entity” are
terms that should be governed by § 112, ¶ 6. See id. Rather, TCL agreed that “decision entity” should be given
its plain and ordinary meaning, Dkt. No. 63, and TCL did
not oppose giving “interception module” its plain and ordinary meaning, Dkt. No. 109. The claim construction
hearing was held on September 29, 2015, and TCL again
did not argue these limitations were means-plus-function
terms. See Hr’g Tr., Dkt. No. 127. TCL’s failure to timely raise these claim construction arguments should ordinarily result in waiver of the arguments. See Cent. Admixture Pharmacy Servs., Inc. v. Advanced Cardiac
Sols., P.C., 482 F.3d 1347, 1356 (Fed. Cir. 2007) (affirming district court’s finding that claim construction argument was waived).
TCL also failed to give Ericsson any timely indication
that it might seek a construction of “interception module”
or “decision entity” under § 112, ¶ 6. Rather, in its petition for IPR of the ’510 patent, TCL proposed constructions of the terms under the broadest reasonable construction standard, but no suggestion was made that the
terms are governed by § 112, ¶ 6 or that either term is indefinite. See IPR Pet. at 18, IPR2015-01605, Paper No. 2
(July 20, 2015). TCL effectively argued that both terms
have their plain and ordinary meaning. According to
TCL’s petition, “interception module” means “software
invoked to receive a request to access the software ser-

117a
vices component from requesting application domain
software and pass the request to the decision entity.”
See id. at 18 (citation omitted). Similarly, TCL contended that “decision entity” means “software responsible for
deciding whether a request from application domain
software to access a software services component should
be permitted.” See id. at 19 (citation omitted).
B. Williamson and Developments at the PTAB
TCL’s only explanation for failing to raise its claim
construction arguments earlier is the Federal Circuit’s
Williamson decision. On June 16, 2015, the Federal Circuit eliminated the “strong” presumption that a limitation
lacking the word “means” is not subject to § 112, ¶ 6 in
Williamson v. Citrix Online, LLC, 792 F.3d 1339, 1349
(Fed. Cir. 2015) (en banc in relevant part). Notably,
however, the Federal Circuit decided Williamson more
than two months before TCL filed its opening claim construction brief. Thus, there is not a change in law to excuse TCL’s waiver.
TCL argues that the “scope and effect of the Williamson case” because “clearer with subsequent case law,”
Dkt. No. 292 at 1, but TCL does not identify any case law
that makes Williamson clearer. In fact, one of the most
notable decisions applying Williamson in concluding that
a claim term lacking the word “means” is nevertheless
subject to § 112, ¶ 6 was decided on September 24, 2015,
five days before the claim construction hearing was held
in this case. See Media Rights Techs., Inc. v. Capital
One Fin. Corp., 800 F.3d 1366, 1372 (Fed. Cir. 2015)
(“compliance mechanism” subject to § 112, ¶ 6), cert. denied sub nom. Media Rights Techs., Inc. v. Capitol One
Fin. Corp., 136 S. Ct. 1173 (2016). Subsequent cases have
provided no more guidance than that offered by Media
Rights. See, e.g., Advanced Ground Info. Sys., Inc. v.

118a
Life360, Inc., 830 F.3d 1341, 1346 (Fed. Cir. 2016) (“symbol generator” subject to § 112, ¶ 6).
The fact that the PTAB identified the potential § 112,
¶ 6 issue does change the analysis. On March 7, 2016, after IPR had been instituted, the PTAB asked the parties
to address whether “interception module” and “decision
entity,” among other terms, should be construed as
means-plus-function terms in light of Williamson. See
Order at 2, IPR2015-01605, Paper No. 14 (Mar. 7, 2016).
Only then did TCL inform the Court about the need for
additional claim construction. See Dkt. No. 263. TCL
proceeded to file a brief with the PTAB arguing that “interception module” and “decision entity” are subject to
§ 112, ¶ 6, but notably, TCL’s proposed constructions at
the PTAB differ from those it is now seeking. See Claim
Construction Br. at 8-12, IPR-2015-01605, Paper No. 19
(Mar. 28, 2016). Ultimately, the PTAB never adopted a
construction because its final decision was based on
TCL’s failure to show that a person of ordinary skill in
the art would have been motivated to combine two prior
art references. See, e.g., Final Written Decision at 15,
IPR2015-01605, Paper No. 44 (Jan. 25, 2017), Dkt. No.
276-4. In reaching that decision, the PTAB determined
that “no claim terms require express construction.” Id.
More important, TCL’s claim construction brief at the
PTAB did not cite any case to support the means-plusfunction constructions of “interception module” and “decision entity” other than Williamson itself. See id. TCL
relied only on Williamson’s clarification that replacing
the word “means” with the “‘nonce word ‘module’ ” does
not save a claim from construction under § 112, ¶ 6. See
Claim Construction Br. at 9, IPR-2015-01605, Paper No.
19 (citing 792 F.3d at 1350). These arguments were
available to TCL during the claim construction phase of

119a
the case, and subsequent case law did not make the arguments any clearer, as TCL’s claim construction brief
submitted to the PTAB illustrates.
Contrary to TCL’s argument, the Federal Circuit’s
decision in O2 Micro International Ltd. v. Beyond Innovation Technology Co., Ltd. does not require a district
court to resolve a claim construction dispute based on arguments that have been waived. See 521 F. 3d 1351, 1360
(Fed. Cir. 2008). O2 Micro held that “[w]hen the parties
raise an actual dispute regarding the proper scope of
[claim terms], the court, not the jury, must resolve that
dispute.” Id. at 1362-63. Subsequent cases have confirmed that it is legal error for a district court to allow
the jury to decide questions of claim scope. See Eon
Corp. IP Holdings LLC v. Silver Spring Networks, Inc.,
815 F.3d 1314, 1318 (Fed. Cir. 2016). Even after 02 Micro, however, the Federal Circuit has affirmed a district
court’s decision not to revisit claim construction absent
good cause. See Nuance Commc’ns, Inc. v. ABBYY USA
Software House, Inc., 813 F.3d 1368, 1373 (Fed. Cir.
2016); Akamai Techs., Inc. v. Limelight Networks, Inc.,
805 F.3d 1368, 1376 (Fed. Cir. 2015).
TCL incorrectly assumes that the dispute will necessarily go to the jury if it is not resolved by the Court. Because TCL waived its arguments that “interception module” and “decision entity” are means-plus-function terms,
there is no dispute for either the Court or the jury to resolve. Claim terms that are not construed have their ordinary meaning. See Broadcom Corp. v. Qualcomm Inc.,
543 F.3d 683, 696 (Fed. Cir. 2008) (“The term ‘selectively
couples’ was not construed by the district court because
the parties agreed to let the ordinary meaning control.”).
The ordinary meanings of “interception module” and
“decision entity” therefore control, and TCL may not

120a
make any argument to the jury suggesting any other
meaning. As a result, an O2 Micro error will not occur.
In sum, because TCL’s proposed constructions of “interception module” and “decision entity” could have been
made during claim construction but were not, the arguments are waived. For that reason, TCL’s request for
additional claim construction is denied.
CONCLUSION
For the foregoing reasons, it is ORDERED:
(1)TCL’s motion for summary judgment of no willfulness, Dkt. No 217 (see also Dkt. No. 300), is denied.
(2)Ericsson’s motion to strike TCL’s undisclosed noninfringing alternatives, Dkt. No. 220, is granted-inpart. Paragraph 147 of Dr. Malek’s report, Dkt.
No. 220-20, and paragraph 77 of Mr. Dhar’s report,
Dkt. No. 220-21, are stricken. The motion is otherwise denied.
(3)Ericsson’s motion to strike Mr. Martinez’s report,
Dkt. No. 222, is denied.
(4)TCL’s request for additional claim construction,
Dkt. No. 292, is denied.
(5)TCL’s motion for summary judgment that the asserted claims of the ’510 patent are invalid under
§ 101, Dkt. No. 299, is denied.
(6)TCL’s motion to strike Ericsson’s sur reply in opposition to TCL’s § 101 motion, Dkt. No. 310, is denied as moot.
(7)TCL’s motion to bifurcate willful infringement issues from infringement and damages, Dkt. No.
321, is denied.
(8)TCL’s motion to strike Dr. Jones’ report, Dkt. No.
323, is denied.

121a
(9)TCL’s motion to exclude Dr. Wecker’s and Mr.
Mills’ testimony, Dkt. No. 324, is denied.
(10)Ericsson’s motion to strike Dr. Ligatti’s report,
Dkt. No. 325, is granted. Dr. Ligatti is not permitted to testify at trial.
(11) Ericsson’s motion to strike Mr. Martinez’s report, Dkt. No. 326, is denied.
(12) Ericsson’s updated motion to strike TCL’s undisclosed noninfringing alternatives, Dkt. No. 327, is
granted-in-part and denied-in-part. The portion of
paragraph 134 of Mr. Martinez’s January 2016 report, Dkt. No. 327-13, that discusses modifications
to the Android operating system is stricken. Similarly, paragraph 129 of Mr. Martinez’s September
2017 report, Dkt. No. 327-19, is stricken. The motion is otherwise denied.
SIGNED this 4th day of November, 2017.
/s/Roy S. Payne
ROY S. PAYNE
UNITED STATES
MAGISTRATE JUDGE

122a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
²²²²
NO. 2018-2003
²²²²
ERICSSON INC., TELEFONAKTIEBOLAGET
LM ERICSSON,
Plaintiffs-Appellees,
v.
TCL COMMUNICATION TECHNOLOGY
HOLDINGS LIMITED, TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
Defendants-Appellants.
²²²²
Appeal from the United States District Court for the
Eastern District of Texas in No. 2:15-cv-00011-RSP,
Magistrate Judge Roy S. Payne.
²²²²
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
²²²²
September 15, 2020
²²²²

123a
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
and HUGHES, Circuit Judges*.
PER CURIAM.
ORDER
Appellees Ericsson Inc. and Telefonaktiebolaget LM
Ericsson filed a combined petition for panel rehearing
and rehearing en banc. A response was invited by the
court and filed by Appellants TCL Communication Technology Holdings Limited, TCT Mobile (US) Inc. and TCT
Mobile Limited. The petition was referred to the panel
that heard the appeal, and thereafter the petition for rehearing en banc was referred to the circuit judges who
are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on September 22,
2020.
FOR THE COURT
September 15, 2020
Date

*

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Circuit Judge Stoll did not participate.

124a
APPENDIX E
RELEVANT STATUTORY PROVISION
AND FEDERAL RULE
1. Title 35 of the United States Code provides in relevant part as follows:
§ 101. Inventions patentable
Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter, or
any new and useful improvement thereof, may obtain a
patent therefor, subject to the conditions and requirements of this title.

125a
2. Federal Rule of Civil Procedure 50 provides as follows:
Rule 50. Judgment as a Matter of Law in a Jury Trial;
Related Motion for a New Trial; Conditional Ruling
(a) JUDGMENT AS A MATTER OF LAW.
(1) In General. If a party has been fully heard on
an issue during a jury trial and the court finds that a
reasonable jury would not have a legally sufficient evidentiary basis to find for the party on that issue, the
court may:
(A) resolve the issue against the party; and
(B) grant a motion for judgment as a matter of
law against the party on a claim or defense that,
under the controlling law, can be maintained or defeated only with a favorable finding on that issue.
(2) Motion. A motion for judgment as a matter of
law may be made at any time before the case is submitted to the jury. The motion must specify the judgment sought and the law and facts that entitle the movant to the judgment.
(b) RENEWING THE MOTION AFTER TRIAL; ALTERNATIVE MOTION FOR A NEW TRIAL. If the court does not
grant a motion for judgment as a matter of law made under Rule 50(a), the court is considered to have submitted
the action to the jury subject to the court’s later deciding
the legal questions raised by the motion. No later than
28 days after the entry of judgment—or if the motion addresses a jury issue not decided by a verdict, no later
than 28 days after the jury was discharged—the movant
may file a renewed motion for judgment as a matter of
law and may include an alternative or joint request for a
new trial under Rule 59. In ruling on the renewed motion, the court may:

126a
(1) allow judgment on the verdict, if the jury returned a verdict;
(2) order a new trial; or
(3) direct the entry of judgment as a matter of
law.
(c) GRANTING THE RENEWED MOTION; CONDITIONAL
RULING ON A MOTION FOR A NEW TRIAL.
(1) In General. If the court grants a renewed motion for judgment as a matter of law, it must also conditionally rule on any motion for a new trial by determining whether a new trial should be granted if the
judgment is later vacated or reversed. The court must
state the grounds for conditionally granting or denying the motion for a new trial.
(2) Effect of a Conditional Ruling. Conditionally
granting the motion for a new trial does not affect the
judgment’s finality; if the judgment is reversed, the
new trial must proceed unless the appellate court orders otherwise. If the motion for a new trial is conditionally denied, the appellee may assert error in that
denial; if the judgment is reversed, the case must proceed as the appellate court orders.
(d) TIME FOR A LOSING PARTY’S NEW-TRIAL MOTION.
Any motion for a new trial under Rule 59 by a party
against whom judgment as a matter of law is rendered
must be filed no later than 28 days after the entry of the
judgment.
(e) DENYING THE MOTION FOR JUDGMENT AS A MATLAW; REVERSAL ON APPEAL. If the court denies
the motion for judgment as a matter of law, the prevailing party may, as appellee, assert grounds entitling it to a
new trial should the appellate court conclude that the trial court erred in denying the motion. If the appellate
TER OF

127a
court reverses the judgment, it may order a new trial, direct the trial court to determine whether a new trial
should be granted, or direct the entry of judgment.

